           April 1,1,2000
          October     1999- September
                            - March 31,30, 2000
                                        2000




                                 OFFICE OF INSPECTOR GENERAL




SemiannualReport
Semiannual Report
       toCongress
      to Congress
   Including
 Including   Significant
           Significant   Activities
                       Activities ofof
                                    thethe Inspection
                                         Inspection   Service
                                                    Service
                     A Message from the
                     Inspector General
                     The Challenge of Maintaining Independence


                     A
                               s our fourth year as an independent Inspector General office within
                               the Postal Service comes to a close, we are proud to report that this
                               agency has continued to grow and thrive. This fiscal year, we
                     achieved a return on investment of almost four to one. As a result of our find-
KARLA W. CORCORAN
                     ings and recommendations, we also provided the Postal Service with our
 Inspector General   insight into critical areas such as executive relocation benefits, contracting,
                     computer security, new product development, eCommerce projects, and labor
                     management relations. At the same time, we increased our staff by more than
                     one-third between March 31, 2000, and July 30, 2000 and reached our hiring
                     goal of 648. We are confident that we are more capable and better equipped
                     than ever to assist the Postal Service in addressing the unparalleled challenges
                     and opportunities that present themselves in this new century.
                          We recognize that maintaining our independent status is essential to
                     ensure that our reports and investigations add value. Therefore, our most
                     important challenge this period was to address proposed changes to Govern-
                     ment Auditing Standards. Under the proposed changes, this office would not
                     have been considered organizationally independent under generally accepted
                     Government Auditing Standards, and each of our reports would be required
                     to note this lack of independence. Despite the independence provided by the
                     Inspector General Act, the proposed changes could have left our stakehold-
                     ers with the perception that the work of our office was not independent.
                     After the proposal was issued, we voiced our concerns and obtained an inde-
                     pendent legal opinion which questioned the proposal, including its constitu-
                     tionality. Our efforts were rewarded in September, when the proposal was
                     revised and clarified that this Office of Inspector General was independent.
                          Another notable event was the change of Deputy Inspectors General.
                     We were sorry and yet proud to see one of our senior management members
                     leave. Richard F. Chambers, Deputy Inspector General, was appointed in
                     August as Inspector General at the Tennessee Valley Authority. We believe
                     this appointment is a testament to the influential and beneficial high-level
                     work Mr. Chambers helped this office perform since its inception. I am
                     pleased that Sylvia L. Owens has agreed to serve as my new Deputy Inspec-
                     tor General. Ms. Owens, a career criminal investigator, has been with the
                     Office of Inspector General since its inception, and brings to the job unique
                     insight and knowledge that will serve us well.
                          Also during this period, we reorganized the office to better align it to
                     serve the Postal Service. Our reorganization included the establishment of
                     an Assistant Inspector General for eBusiness, which combined our tech-
                     nology teams to reflect the crucial role technology plays in Postal Service
                     operations. We also reorganized and renamed other areas to better reflect
                     the needs of our customers. Because of this reorganization and the new
                     Deputy Inspector General, we recently promoted the following executives:
                     Debra Ritt, Assistant Inspector General for Audit (Business Operations);
                     and Billy Sauls, Assistant Inspector General for Investigations (Business
                     Protection), among others.
               The Postal Service also continues to undergo changes in its upper management. We look for-
         ward to working with John E. Potter, Chief Operating Officer & Executive Vice President, and
         Richard J. Strasser, Jr., Chief Financial Officer & Executive Vice President.
               This Semiannual Report to Congress details our significant activities and accomplishments, as
         well as those of the Inspection Service, from April 1, 2000, to September 30, 2000. Submission of
         this report fulfills our reporting requirement under the Inspector General Act as well as the Decep-
         tive Mail Prevention and Enforcement Act of 1999. This report presents a comprehensive status
         on the work of this office and the Inspection Service in combating fraud, waste, abuse, and mis-
         management within the Postal Service.
               In this reporting period, we issued 129 audit reports, including 47 contract audits performed for
         us by a contract audit agency, and 145 management advisory reports and other products. Our inves-
         tigative efforts resulted in 13 arrests, 11 indictments, 3 convictions, and about $10 million in fines,
         restitution, and recoveries. These efforts resulted in about $200 million in questioned costs and
         funds to be put to better use. The work of approximately 2,000 postal inspectors included 184 audits
         and 40 expenditure, financial, service, and revenue investigative reports that identified over $1 mil-
         lion in questioned costs and funds to be put to better use. Our combined efforts resulted in 498 writ-
         ten products to strengthen Postal Service programs and operations and $211 million in monetary
         benefits.
               As we move forward into fiscal year 2001, we are committed to assisting the Postal Service in
         overcoming the challenges it faces in a marketplace increasingly fueled by electronic commerce.
         Our independent status and the recognition of this independence by Postal stakeholders enables us
         to continue to add value to the Postal Service, the Governors, and Congress. We look forward to
         continuing to provide accurate and objective information that will be used to make decisions that
         affect the Postal Service’s future.


             Sincerely,




             Karla W. Corcoran
             October 31, 2000




PAGE 2   A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
POSTAL SERVICE REPORTED ACCOMPLISHMENTS ................................................9
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ..........................13
GOALS AND STRATEGIES ....................................................................................19
   Office of Inspector General ........................................................................20
   Inspection Service........................................................................................23
ORGANIZATIONAL DYNAMICS ............................................................................25
   Office of Inspector General ........................................................................26
   ◆ An Independent Voice............................................................................26
   ◆ Notable OIG Achievements ..................................................................28
   ◆ Challenges Facing the OIG ....................................................................29
   Inspection Service........................................................................................32
ORGANIZATIONAL STRUCTURE ..........................................................................35
   Office of Inspector General ........................................................................36
   ◆ OIG Field Locations ................................................................................39
   Inspection Service........................................................................................40
CUSTOMER SERVICE ............................................................................................41
   Office of Inspector General ........................................................................42
   ◆ External Communications ......................................................................42
   ◆ Internal Communications ......................................................................44
   ◆ Specialized Services ................................................................................45
   Inspection Service........................................................................................46
   ◆ External Communications ......................................................................46
   ◆ Specialized Services ................................................................................46
PERFORMANCE REVIEWS ......................................................................................49
   Office of the Inspector General..................................................................50
   ◆ Accepting and Processing ......................................................................50
   ◆ Transportation ..........................................................................................51
   ◆ Delivery ....................................................................................................52
   ◆ Marketing ................................................................................................53
   ◆ Legislative and Regulatory Reviews ......................................................53
   Inspection Service........................................................................................55
   ◆ Mail Theft ................................................................................................55
   ◆ Service Investigations..............................................................................55
FINANCIAL MANAGEMENT REVIEWS ..................................................................57
   Office of Inspector General ........................................................................58
   ◆ Financial-Related Reviews......................................................................58
   ◆ Contracting and Facilities Reviews ........................................................60
   ◆ Legislative and Regulatory Reviews ......................................................64
   Inspection Service........................................................................................65
   ◆ District and Installation Financial Audits ............................................65
   ◆ Revenue Investigations............................................................................65
   ◆ Embezzlements ........................................................................................66

                                                                                                                       PAGE 3
         TECHNOLOGY REVIEWS ......................................................................................67
            Office of Inspector General ........................................................................68
            ◆ Developmental Reviews..........................................................................68
            ◆ Computer Security ..................................................................................69
            ◆ Electronic Commerce..............................................................................70
            ◆ Computer Intrusion Detection Activities..............................................70
            ◆ Legislative and Regulatory Reviews ......................................................71
            Inspection Service........................................................................................73
            ◆ Electronic Commerce..............................................................................73
         LABOR MANAGEMENT REVIEWS ........................................................................75
            Office of Inspector General ........................................................................76
            ◆ Violence in the Workplace ....................................................................76
            ◆ Workplace Climate..................................................................................77
            ◆ Health Care..............................................................................................77
            ◆ Legislative and Regulatory Reviews ......................................................78
            Inspection Service........................................................................................79
            ◆ Workplace Climate..................................................................................79
            ◆ Postal Robberies ......................................................................................79
            ◆ Drugs in the Workplace ..........................................................................79
            ◆ Workers’ Compensation..........................................................................79
         OVERSIGHT OF THE INSPECTION SERVICE ..........................................................81
            Office of Inspector General ........................................................................82
            ◆ Oversight of the Inspection Service ......................................................82
            ◆ Legislative and Regulatory Reviews ......................................................83
         OTHER SIGNIFICANT REVIEWS ............................................................................85
            Office of Inspector General ........................................................................86
            ◆ Executive Investigations..........................................................................86
            ◆ Subcommittee Request............................................................................86
            ◆ Legislative and Regulatory Reviews ......................................................86
            Inspection Service........................................................................................88
            ◆ Physical Security ......................................................................................88
            ◆ Narcotics Offenses and Trafficking ........................................................88
            ◆ Child Exploitation ..................................................................................88
            ◆ Prohibited Mail ........................................................................................89
            ◆ Postal Burglaries ......................................................................................89
            ◆ Mail Fraud ................................................................................................89
            ◆ Money Laundering ..................................................................................91
         APPENDICES ........................................................................................................93
            Appendix A - Reports Issued to Postal Management ..............................94
            Appendix B - Findings of Questioned Costs ..........................................109
            Appendix C - Recommendations That Funds Be Put to Better Use....111
            Appendix D - Unresolved Reports ..........................................................112
            Appendix E - Criminal Statistics ............................................................117
            Appendix F - Summary of Postal Service Investigative
               Activities Under 39 USC § 3013 ......................................................118
            Appendix G - Closed Congressional Inquiries........................................120



PAGE 4   TABLE OF CONTENTS
Executive Summary




  DID YOU
  KNOW?
 Does the OIG have access to all Postal
 Service documents and information?
 Yes. The Inspector General Act specifically
 provides that the Inspector General is
 authorized “to have access to all records,
 reports, audits, reviews, documents,
 papers, recommendations, or other material.”




                                                PAGE 5
                                         This Executive Summary highlights the                 ◆   Leveraging technology
                                         Office of Inspector General (OIG) and                 ◆   Maintaining computer security
                                         Inspection Service accomplishments from
                                                                                               ◆   Increasing customer service and satisfac-
                                         April 1, 2000, through September 30,                      tion
                                         2000, that are contained in this
                                         Semiannual Report to Congress.                        The following highlights the accom-
                                                                                               plishments of the OIG and Inspec-
                                                                                               tion Service under the specific sub-
                                         EXECUTIVE SUMMARY                                     ject areas:


                                         T
                                                 his Executive Summary provides a brief
                                                                                               (1) The area of organizational dynamics focus-
                                                 synopsis of the work reported during this
                                                                                               es on the OIG and the Inspection Service
                                                 six-month period. This issue of our
                                                                                               vision, value, culture, and diversity that assists
                                         Semiannual Report addresses Postal Service
                                                                                               with providing value-added service to the Postal
                                         reported accomplishments, the major chal-
                                                                                               Service.
                                         lenges facing the Postal Service as it enters the
                                         21st century and the many projects performed          (2) The area of organizational structure
                                         by the OIG and the Inspection Service that            focuses on the OIG and the Inspection Service.
The OIG Management Committee is          help improve postal operations.                       (3) The area of customer service focuses on the
comprised of the Inspector General,           The OIG conducts audits and investiga-           OIG and the Inspection Service efforts to pro-
Deputy Inspector General, General        tions, while the Inspection Service conducts
Counsel, Assistant Inspectors General,                                                         vide customer service, including support func-
                                         reviews and investigations—independently and          tions to enhance service to internal customers.
and Executive Field Representives.
                                         jointly—that play a vital role in helping the
                                         Postal Service make improvements. Work per-           (4) The area of performance focuses on the
                                         formed by both the OIG and the Inspection             critical core business processes needed to suc-
                                         Service is included in this report in order to pre-   ceed in a competitive environment. The OIG
                                         sent Congress and the Governors a unified             conducted 24 reviews in this area, including
                                         report of the Postal Service’s efforts to combat      projects that will help save the Postal Service
                                         fraud, waste, abuse, and mismanagement.               about $84 million in current and future years.
                                              In this, the OIG’s eighth Semiannual             A few examples of OIG work in this area
                                         Report, the work has been categorized into            included:
                                         seven subject areas: performance, financial           ◆   Working with Postal Service manage-
                                         management, technology, labor management,                 ment to develop an alternative plan for
                                         oversight of the Inspection Service, other signif-        transporting Christmas surge mail that
                                         icant reviews, and customer service. We believe           could reduce the cost of the dedicated air
                                         presenting the OIG work in this format provides           network by about $8 million annually.
                                         a clear understanding of where our work falls         ◆   Determining that the Postal Service paid
                                         within the following major management and                 contractors $5.2 million in commissions
                                         program challenges facing the Postal Service:             based on unverified reported revenue.
                                         ◆   Reforming the regulatory environment              ◆   Determining that processing facilities
                                         ◆   Managing affordability by controlling                 management did not consistently capture
                                             costs                                                 and retain performance data on the $37.7
                                                                                                   million pedestal robot system.
                                         ◆   Growing and protecting revenues
                                                                                               ◆   Disclosing that Postal Service revenue
                                         ◆   Improving workplace climate and labor                 deficiency assessments were issued up
                                             relations                                             to two years after mail acceptance and
                                         ◆   Maintaining a safe and healthy work-                  sometimes were attributable to incorrect
                                             place                                                 information provided by Postal
                                         ◆   Developing measures and assessing per-                employees.
                                             formance                                          The Inspection Service conducted numerous
                                         ◆   Ensuring data integrity and reliability           investigations in the area of mail theft, which



                               PAGE 6    EXECUTIVE SUMMARY
resulted in arrests of almost 2,800 employees       ◆   Determining whether the $500 million
and nonemployees.                                       retail system being deployed met all
                                                        contract requirements.
(5) The area of financial management incor-
                                                    ◆   Assessing the security and privacy
porates financial-related reviews, financial
opinion work, and contracting and facilities            aspects of the Postal Service’s online bill               DID YOU
reviews. The OIG completed 130 reviews and
                                                        presentment and payment system to
                                                        facilitate the success of this new venture.
                                                                                                                  KNOW?
conducted investigations resulting in 3 convic-
tions, 13 arrests, 11 indictments, and recoveries   ◆   Evaluating the functional capabilities,
and restitution of over $10 million, which              consistency, and reliability of a prepro-     Who investigates procurement
included:                                               duction system designed to automate the
                                                        acceptance and verification of bulk           fraud within the Postal
◆   Identifying over $56 million in contract            business mail.                                Service?
    costs that were questioned, or considered
                                                    ◆   Assisting in the installation of detection    The OIG investigates all
    unsupported.
                                                        devices to determine whether Postal sys-
◆   Identifying two former Postal Service               tems are being intentionally compromised      procurement fraud within the
    managers who devised a scheme to                    or crippled by external or internal users.
    defraud the Postal Service of several mil-
                                                                                                      Postal Service.
                                                    In addition to other work, the Inspection
    lion dollars.
                                                    Service reported:
◆   Investigating a contract with a large
    telecommunications contractor resulting         ◆   Developing and conducting training on
    in a recovery of $9.2 million in this               computer crimes and providing guidance
    reporting period, for a total recovery of           on online investigations.
    $12.2 million to date.                          ◆   Reviewing security clearance require-
◆   Determining that two senior executives              ments for the Postal Service’s online bill
    who moved about 20 miles with no                    presentment and payment system.
    change in job location were paid                (7) The labor management area focuses on
    $250,000 in relocation benefits.                issues related to violence in the workplace,
In addition to other work, the Inspection           workplace climate, health care, and workplace
Service reported:                                   safety. During this reporting period, the OIG
                                                    conducted 55 reviews in this area, which
◆   The results of 175 financial installation
                                                    included:
    and District Accounting Office audits
    and 4 contract audits, for a total of 179       ◆   Arresting four individuals who allegedly
    audits, that identified over $1 million in          fabricated or stole employee health insur-
    questioned costs.                                   ance information to generate $20 million
◆   The results of 16 revenue investigations            in fraudulent claims.
    during the reporting period, which iden-        ◆   Evaluating the Postal Service’s Violence
    tified losses of $27.2 million to the Postal        Prevention and Response Program.
    Service.                                        ◆   Reviewing allegations of hostile working
(6) The area of technology encompasses                  environments and abusive management
reviews of developmental systems, computer              styles in a New York Metro Area facility.
security, and electronic commerce, in addition      ◆   Reviewing the Economic Value Added
to computer intrusion detection activities. The         Variable Pay Program, under which
OIG performed 13 reviews in this area. Some             bonuses are calculated for approximately
of the more significant OIG activities included:        84,000 executives and administrative
                                                        employees each year.
◆   Issuing a comprehensive report on the
    state of computer security in the Postal        ◆   Assessing a New York Metro Area dis-
    Service.                                            trict’s administration of the injury com-
                                                        pensation process.
◆   Assessing the justification, management
    controls, funding, and integration of the
    $2.3 billion Information Infrastructure.


                                                                                                        PAGE 7
         The Inspection Service work included:
         ◆   Conducting numerous workers’ compen-
             sation investigations, resulting in
             $95.5 million in long-term and continua-
             tion-of-pay cost savings for this fiscal year
         ◆   Arresting seven individuals for selling
             drugs on postal property, nine individuals
             for workers’ compensation fraud, and 211
             individuals for assaults and threats
             against Postal Service employees.
         (8) In the area of oversight of the Inspection
         Service, the OIG completed 17 reviews of the
         Inspection Service, which included:
         ◆   Determining that senior forensic
             scientists lacked parity in salaries when
             compared to their federal counterparts.
         ◆   Determining that FY 2000 budgetary
             resources were not appropriately linked
             to performance-related goals and func-
             tions when developing the Inspection
             Service’s operating budget.
         (9) Other significant reviews include projects
         that do not readily fall into the other six cate-
         gories. The OIG completed 35 reviews of other
         significant issues including reviews of Postal
         Service Career Executive Service employees.
         The Inspection Service conducts numerous
         investigations covering significant issues in the
         areas of physical security, narcotics offenses and
         trafficking, child exploitation, prohibited mail,
         postal burglaries, and mail fraud.




PAGE 8   EXECUTIVE SUMMARY
Postal Service Reported
Accomplishments




   DID YOU
   KNOW?
  Is the OIG part of Postal Service
  Management?
  No. The OIG is not part of Postal
  Service management. However, OIG
  employees are Postal Service employees.




                                            PAGE 9
                                                                 Voucher System pilot program to provide
          POSTAL SERVICE                                         an online web-based travel voucher sys-
          REPORTED                                               tem, thus reducing the amount of paper
          ACCOMPLISHMENTS                                        travel vouchers and speeding the travel
                                                                 voucher reimbursement process.


          T
                  he OIG’s goal is to work in concert with
                  the Postal Service to help ensure the      TECHNOLOGY
                  American public receives the best mail     ◆   Partnered with a leading commercial cor-
          delivery service in the world. Highlighting the        poration in the electronic billing and
          Postal Service’s accomplishments provides con-         payment services industry to launch
          text to OIG and Inspection Service activities.         USPS eBillPay. This service allows con-
          During the past six months, the Postal Service         sumers to pay their bills online through a
          has continued to make strides in achieving             central, secure site from the Postal Ser-
          CustomerPerfect! goals. In addition, the Postal        vice’s website.
          Service announced the following accomplish-        ◆   Implemented an Electronic Postmark ser-
          ments, which the OIG has categorized in the            vice for email that provides an official
          areas of performance, financial management,            time and date, like a regular mail post-
          technology, and labor management.                      mark. The Electronic Postmark also
                                                                 authenticates the sender and receiver of a
          PERFORMANCE                                            message and can be attached to any
          ◆   Delivered the largest household mailing            Internet communication to detect tam-
              ever—350 million census letters—which              pering.
              was attributed to employee commitment,         ◆   Launched Post Electronic Courier Ser-
              postal technology, and a close working             vice, a global electronic document deliv-
              relationship with the Census Bureau,               ery service that allows users to securely
              even though approximately one-third of             send documents via the Internet. It
              the letters were misaddressed.                     allows for tracking and tracing, proving
          ◆   Achieved a score of 94 percent for on-             delivery, and authenticating the sender
              time delivery of local overnight First-            and receiver. Some of its optional fea-
              Class Mail in the last quarter of FY 2000.         tures include encryption, password pro-
              This marks the 12th consecutive quarter            tection, and use of the Postal Service’s
              that national overnight delivery scores            Electronic Postmark for added security.
              have reached or exceeded 93 percent.           ◆   Initiated a nationwide experimental pro-
          ◆   Launched a Spanish-language version of             gram called Mailing Online. This service
              its website to meet the needs of the               makes bulk mailings quick and easy for
              rapidly-growing Hispanic population in             customers who want to send their mes-
              the United States.                                 sages electronically over the Internet and
                                                                 have the Postal Service retrieve and
          FINANCIAL MANAGEMENT                                   deliver them near the point of delivery.
          ◆   Formed a strategic partnership with a          ◆   Received recognition at the World Mail
              major communications company to han-               Awards 2000 ceremony in Paris for Elec-
              dle its requirements for two-way radio             tronic Merchandise Return Service and
              equipment nationwide. This contract is             FASTForward service.
              expected to save the Postal Service $1.7
              million annually.                              LABOR MANAGEMENT
          ◆   Implemented the Money Order Image              ◆   Reduced formal complaints by nearly 20
              Delivery System to provide enhanced                percent annually through the Resolve
              images of Postal Service money orders              Employee Disputes, Reach Equitable
              and reduce workload at the St. Louis               Solutions Swiftly (REDRESS) program.
              Accounting Service Center.                         The success of the REDRESS program
                                                                 continues with the merger of the
          ◆   Implemented the Electronic Travel
                                                                 REDRESS program and the Equal



PAGE 10   POSTAL SERVICE REPORTED ACCOMPLISHMENTS
    Employment Opportunity process. This
    merger will help facilitate the settlement
    of complaints.
◆   Ranked in the Top 10 of Fortune maga-
    zine’s “50 Best Companies for Minorities”
    list.
◆   Successfully finalized the implementation
    of the enhanced Grievance and Arbitra-
    tion Tracking System.
◆   Completed a workplace safety study1
    that reported Postal Service employees
    were no more likely to be victims of
    violence than employees in the national
    workforce.




1
  Report of the United States Postal Service Commission on a Safe and Secure Workplace, August 2000, prepared
by the National Center on Addiction and Substance Abuse at Columbia University.


                                                                                                                PAGE 11
PAGE 12   POSTAL SERVICE REPORTED ACCOMPLISHMENTS
Major Management Issues
Facing the Postal Service




      DID YOU
      KNOW?
     Why does the Postal Service need an OIG in
     addition to the Inspection Service?
     In a word - Independence. The Inspection Service,
     headed by the Chief Postal Inspector, is part of Postal
     management. The OIG, headed by the Inspector
     General is independent from Postal management, and
     is under the general supervision of the Governors. By
     law, Postal management may not direct OIG work.




                                                PAGE 13
                                                                 shipping and express mail industry. The
          MAJOR MANAGEMENT                                       Postmaster General has stated that competitors
          ISSUES FACING THE                                      of the Postal Service can move faster, act more
          POSTAL SERVICE                                         agilely, and better respond to the changing mar-
                                                                 ketplace. The Postal Service lacks the flexibil-


          T
                  he Postal Service is entering a new era.
                                                                 ity to control its labor costs because binding
                  For the first time in five years, the Postal
                                                                 arbitration is generally used to set labor rates.
                  Service did not achieve a positive net
                                                                 To compete effectively and in concert with the
          income even though it has reported the highest
                                                                 needs of its customers, the Postal Service
          labor productivity ever. In addition, the Postal
                                                                 believes it needs commercial freedoms, includ-
          Service expects declines in some of its core busi-
                                                                 ing market-based pricing, the ability to generate
          ness areas in the coming years making its future
                                                                 income for investment, and the flexibility to set
          outlook uncertain. The growth of the Internet,
                                                                 labor rates. Unlike many of the foreign posts
          electronic communications, and electronic
                                                                 that have been privatized or deregulated, the
          commerce all have the potential to substantially
                                                                 Postal Service is limited by legal restrictions in
          affect mail volume and traditional revenue
                                                                 its ability to invest, enter into forward-looking
          streams. As a result, the Postal Service will be
                                                                 pacts with labor, or seek new alliances and new
          challenged to maintain its position in a dynamic
                                                                 markets.
          communications and delivery environment.
                                                                       While many stakeholders agree that reform
               In the emerging electronic age, in which
                                                                 of our nation’s postal laws is needed, identifying
          some segments of the population are changing
                                                                 and implementing the right changes presents a
          the way they communicate and do business, the
                                                                 difficult challenge. Legislative initiatives would
          Postal Service must continue to respond to new
                                                                 give the Postal Service greater freedom to com-
          customer requirements to meet its mission.
                                                                 pete, while establishing new rules to ensure fair
          Additionally, proposed legislative reforms could
                                                                 competition and protect the public interest.
          alter the fundamental regulatory framework
                                                                 Postal Service management is working with the
          that provides for the structure of the Postal
                                                                 House Subcommittee on the Postal Service to
          Service’s current operations. These develop-
                                                                 amend the Postal Reorganization Act to move
          ments make it imperative for the Postal Service
                                                                 the mailing industry forward, while providing
          to (1) reform the regulatory environment; (2)
                                                                 the Postal Service with competitive pricing in
          manage affordability by controlling costs; (3)
                                                                 an effort to strengthen the value and relevance
          grow and protect revenues; (4) improve work-
                                                                 of the mail and respond to customer needs.
          place climate and labor relations; (5) maintain
                                                                 Postal reform continues to be one of the great-
          a safe and healthy workplace; (6) develop mea-
                                                                 est challenges facing the Postal Service.
          sures and assess performance; (7) ensure data
                                                                       To assist the Postal Service with addressing
          integrity and reliability; (8) leverage technol-
                                                                 this challenge, we:
          ogy; (9) maintain computer security; and (10)
          increase customer service and satisfaction.            ◆   Reviewed the Economic Value Added
               These issues, their significance, and the key         program
          OIG projects that address the major manage-            ◆   Responded to numerous Congressional
          ment issues are included in this section. In the           inquiries
          OIG Goals and Strategies section these ten
          issues have been consolidated for audit planning       MANAGE AFFORDABILITY BY
          purposes into four major areas.                        CONTROLLING COSTS
                                                                      The Postal Service’s ability to ensure uni-
          REFORM THE REGULATORY
                                                                 versal mail service at affordable rates is depen-
          ENVIRONMENT
                                                                 dent upon controlling costs, strengthening
               The Postal Service believes it is imperative
                                                                 internal controls, and improving productivity.
          to have the statutory authority to adapt to new
                                                                 Most importantly, aggressive cost management
          conditions and demands due to rapid changes in
                                                                 will be necessary to mitigate historic cost trends
          electronic communications, coupled with the
                                                                 that drive rate increases. To control costs, the
          nation’s now mature and highly-competitive
                                                                 Postal Service has launched an initiative to


PAGE 14   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
eliminate $4 billion in expenses by FY 2004.         ketplace competition. Beginning in FY 2003,
The majority of these reductions will come from      the Postal Service expects that electronic alter-
breakthroughs in productivity in postal opera-       natives to the mail will begin to affect the vol-
tions. Further, the Postal Service has taken         ume of First-Class and Standard Mail (A). The
steps to strengthen internal operating controls      General Accounting Office estimates that First-                  DID YOU
to avoid unwarranted costs. While these              Class Mail volumes will decline at an annual
actions are important, they will not guarantee       rate of 2.5 percent from FY 2003 to FY 2008.
                                                                                                                      KNOW?
success unless the Postal Service ensures there      Such a decline would be unprecedented in the
are adequate controls in future programs and         Postal Service’s history and would likely create
initiatives. Effective management of the Postal      financial and performance challenges.                 How does the Postal Service
Service’s capital investments is also critical if          The Postal Service has also encountered         transport mail?
the Postal Service is to achieve its projected       increasing competition from the private sector
return on investments. Because the Postal            and foreign posts. Increased competition places       The Postal Service uses a wide
Service plans to spend billions of dollars on        billions of dollars of postal revenues at risk. The   variety of transportation methods
automation projects over the next few years, it      Postal Service believes that over the next five
must be prepared to meet the critical challenges     years, substantial revenues must be generated         to ensure mail delivery to every
of effectively implementing automation pro-          from new services and products. Efforts by the        postal customer. Daily, 15,000
jects within budget, obtaining planned savings       Postal Service to introduce new products and
                                                                                                           commercial airline flights,
on schedule, and improving overall productiv-        services have frequently met with opposition
ity.                                                 and have caused controversy. Competitors and          179,000 over-the-road vehicles,
     Despite efforts to control costs and increase   others have questioned whether it is appropriate
                                                                                                           railroad lines, boats, and even a
productivity, the Postal Service requested rate      for a government entity with monopoly protec-
increases in January 2000 to cover its rising        tion to provide nontraditional products and ser-      mule train, deliver and pick up
operating costs in several areas. Such increases     vices in competition with the private sector.         the mail from such far-flung
would allow the Postal Service to support its              In addition to generating new revenues,
operations solely through sales of its products      the Postal Service must ensure that postage and       places as the top of the Empire
and services. The ratemaking process also            fees for its products and services are collected.     State building and the bottom of
affords the Postal Service the opportunity to        However, the Postal Service has not always had
                                                                                                           the Grand Canyon.
pursue classification changes that would benefit     effective controls to protect its revenues. With
mailers. However, many Americans have the            bulk mail business accounting for a substantial
perception that the Postal Service raises rates      portion of the Postal Service’s annual revenue,
more frequently than it actually does, and with-     the Postal Service will need to strengthen its
out regard to customers’ concerns and input.         controls to improve the efficiency of its revenue
For this reason, the Postal Service continues to     assurance process. Recent efforts to tighten
face challenges from its competitors as mailing      controls have met with resistance from the
groups and members of the public argue before        mailing industry and have been subject to con-
the Postal Rate Commission against the Postal        gressional scrutiny.
Service’s proposed rate increases.                         To assist the Postal Service with address-
     To assist the Postal Service with addressing    ing this challenge, we:
this challenge, we:
                                                     ◆    Audited Revenues and Commissions
◆   Evaluated a $3 Billion Telecommunica-                 Paid to a Sales Force Contractor
    tions Contract and the Contractor’s              ◆    Reviewed the Revenue Assurance
    Accounting and Billing Process                        Process
◆   Issued a report describing the complex-
    Postal Ratemaking Process                        IMPROVE WORKPLACE CLIMATE
                                                     AND LABOR RELATIONS
GROW AND PROTECT REVENUES                                 In competitive markets where customers
     In the coming years, the Postal Service will    face a myriad of choices, improving service and
be challenged to grow substantial new revenues       reducing costs are crucial to providing value and
to replace the expected loss of revenues from        maintaining a competitive edge. The Postal
electronic diversion of the mail and other mar-      Service will succeed only if it can effectively


                                                                                                            PAGE 15
          partner with its employees and their unions and      MAINTAIN A SAFE AND HEALTHY
          management association leadership. However,          WORKPLACE
          labor management relations remain one of the               Another significant challenge the Postal
          Postal Service’s major challenges in meeting its     Service faces is maintaining a safe and healthy
          goals and maximizing performance. With about         workplace. Further reinforcing the importance
          900,000 full and part-time employees, a healthy      of this issue, the recent passage of legislation
          work environment is key to maximizing                requires the Postal Service to comply with
          employee and organizational performance. The         Occupational Safety and Health Act require-
          Postal Service must develop recruitment, train-      ments for private sector employers.
          ing, communication, incentive, and other sup-        Accordingly, the Postal Service may now face
          port systems that help employees realize the         citations and monetary penalties for noncom-
          connection between their efforts and the results     pliance. The Postal Service has been assessed
          desired by customers.                                with over $429,000 in fines for FY 2000.
                The Postal Service has been hampered by        Challenges associated with meeting the require-
          persistent labor management problems, such as        ments of the act include: (1) modifying existing
          adversarial relationships, inadequate perfor-        automated systems; (2) developing and imple-
          mance measurement systems, and management            menting training programs on judicial and other
          styles that have a negative impact on produc-        processes that previously were not applicable to
          tivity. Labor management problems have also          the Postal Service for safety personnel, legal
          been perpetuated by numerous unresolved              staff, and key operations staff; and (3) revising
          grievances that have impaired initiatives to         the Postal Service’s financial systems to track
          automate and improve the efficiency of postal        expenses associated with implementing the new
          operations. These problems have created barri-       requirements.
          ers that have often prevented agreements                   The Injury Compensation Program also
          between the Postal Service and its labor unions.     poses additional management challenges.
                In August 2000, the United States Postal       Workers’ compensation medical costs under the
          Service Commission on a Safe and Secure              Postal Service’s Injury Compensation Program
          Workplace, released a study on workplace vio-        have risen dramatically between FY 1999 and
          lence which had been requested by the                FY 2000, and exceeded budgeted estimates.
          Postmaster General. The Commission’s report          The Postal Service is particularly concerned
          concluded that Postal Service workers are no         about the recent program-wide 20 percent
          more likely to be victims of violence than           increase experienced in medical costs.
          employees in the national workforce. The                   To assist the Postal Service with addressing
          Postal Service will work closely with the            this challenge, we:
          Commission to review the findings and insights
          presented in the report.                             ◆   Evaluated the process for administering
                                                                   Continuation-of-Pay leave benefits
                Additionally, employees sometimes view
          management attempts to achieve incentives            ◆   Investigated billing practices of health
          under the Postal Service’s Economic Value                care providers
          Added Variable Pay Program as adversarial.
          The Postal Service will need to address those        DEVELOP MEASURES AND
          perceptions in order to resolve persistent labor
                                                               ASSESS PERFORMANCE
          management problems.                                      The Postal Service’s ability to maximize
                To assist the Postal Service with addressing   performance in the face of changing customer
          this challenge, we:                                  demands and choices calls for establishing
                                                               processes to accurately assess performance
          ◆   Assessed the Implementation of the Vio-          results. While the Postal Service has previously
              lence Prevention and Response Program            issued three annual performance plans, this year
          ◆   Explored allegations of Hostile Working          the Postal Service published its first annual per-
              Environments                                     formance report on achievement of goals under
                                                               the Government Performance and Results Act.
                                                               This report should help the Postal Service,


PAGE 16   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Congress, and other stakeholders assess the                To assist the Postal Service with addressing
Postal Service’s performance in the past fiscal       this challenge, we:
year against the goals in its performance plan.
                                                      ◆   Audited the Point of Service One Retail
In this regard, it will be important for the Postal       System
Service to continue to make tangible progress
                                                      ◆   Reviewed the Preventive Maintenance
toward implementing a complete set of perfor-
                                                          Program for Mail Processing
mance measures and targets for its critical func-
tions and program areas.
                                                      LEVERAGE TECHNOLOGY
     For example, in FY 2000, the Postal
                                                            The Postal Service is seeking ways of lever-
Service intends to develop new measures to
                                                      aging technology to improve its service, pro-
assess the timeliness of the delivery of interna-
                                                      ductivity, and profitability. While it depends on
tional mail, publications, and bill payments sent
                                                      technology to deliver more than 650 million
through the mail. Additionally, the Postal
                                                      pieces of mail every day, the Postal Service must
Service will need to establish indicators for
                                                      continue to quickly adapt to each new wave of
strengthening labor management relations,
                                                      technology to maintain its competitive posi-
improving the consistency and accuracy of mail
                                                      tion. Customers will expect complete tracking
delivery, and measuring employee proficiency.
                                                      capabilities and a full set of business transac-
These measures will help the Postal Service
                                                      tions that can be completed on their personal
fully assess its progress toward meeting its goals.
                                                      computers at the office or at home. To address
     To assist the Postal Service with addressing
                                                      changing customer needs, the Postal Service is
this challenge, we:
                                                      developing an “information platform” to help
◆    Appraised Revenues and Evaluated Per-            ensure better data management, tracking of
     formance Measures for Stamp Fulfillment          mail piece information, communications
     Services                                         between the Postal Service and its customers,
◆    Analyzed the Inspection Service Budget           and activity-based costing.
     Process                                                The large size and diversity of the Postal
                                                      Service customer base will also present technol-
ENSURE DATA INTEGRITY AND                             ogy challenges and demand that solutions are
RELIABILITY                                           simple, easy to use, and competitive. To be suc-
      Accurate measurement of mail delivery is        cessful, the Postal Service must also ensure that
key to the Postal Service’s efforts to improve        the corresponding cost savings projected
and sustain service performance. However,             through technology investments are realized by
questions have been raised concerning the             efficiently redeploying the resources replaced by
integrity of data used to measure the timeliness      the new technology.
of overnight First-Class Mail delivery. Reliable            To assist the Postal Service with addressing
data is also a key to effective decisionmaking.       this challenge, we:
In many instances, the OIG has found that the
                                                      ◆   Assessed the performance of a New Bulk
Postal Service does not capture the necessary
                                                          Business Mail System
data to support effective decisionmaking.
      A recent contractor study on data reliabil-     ◆   Examined the Information Infrastructure
ity, which was commissioned by Postal Service             for Integrating the Postal Service’s Busi-
management, concluded that the increasing                 ness Processes
pace of change in the environment and tech-
                                                      MAINTAIN COMPUTER SECURITY
nology emphasized the need for accurate data in
the ratemaking process. Given the importance               Computers and electronic data have
of data quality to setting postal rates, the Postal   become indispensable to the critical operations
Service must continue demonstrating to                of the Postal Service. However, this reliance on
Congress, the Postal Rate Commission, stake-          automated systems increases the risk of fraud,
holders, and the public that it is making             inappropriate disclosure of sensitive data, and
progress in improving the quality of its cost         disruption of critical operations and services.
data.                                                 The same factors that enhance operations—



                                                                                                           PAGE 17
          speed and accessibility—also make it possible        ships the Postal Service has worked to establish
          for individuals and organizations to interfere       with its mailers. As the Postmaster General
          with or eavesdrop on operations, possibly for        indicated at a recent conference, the success of
          purposes of fraud or sabotage. Recent, highly-       the Postal Service depends on strengthening its
          publicized attacks on major electronic com-          partnerships with the mailing industry.
          merce websites revealed a computer security               The Postal Service also views its access to
          breach can harm brand integrity and lead to          the American household as a unique asset that
          revenue loss. Threats of such actions are            it can leverage as it faces increasing competi-
          increasing, in part, because the number of indi-     tion. While this gateway to the household has
          viduals with computer skills is increasing and       been an asset, the Postal Service must also con-
          because intrusion or “hacking” techniques have       tinue to develop products and services that
          become readily available through magazines and       retain their relevancy and value for customers
          computer bulletin boards. In addition, natural       with changing needs. Customer needs will also
          disasters and inadvertent errors by authorized       have to be satisfied in an increasingly complex
          computer users can have devastating                  manner, and the Postal Service will need to
          consequences if information resources are            reshape the way it views its traditional role. It
          poorly protected.                                    must quickly begin building the capabilities to
                The Postal Service’s systems are as vulnera-   succeed in this environment before the window
          ble to these risks as all other businesses. To       of opportunity closes.
          combat these risks and protect the critical infor-        To assist the Postal Service with addressing
          mation infrastructure, comprehensive computer        this challenge, we:
          security programs must be developed. The
                                                               ◆   Examined the network for processing
          Postal Service is currently taking steps to              International Mail
          address these risks; however, resolving them on
                                                               ◆   Assessed Delayed Mail
          a lasting basis, as with any organization, will
          require substantial ongoing management atten-
          tion. Because the Postal Service is positioning
          itself as a major participant in electronic com-
          merce, the importance of adequate computer
          security to operate such programs cannot be
          overemphasized.
                To assist the Postal Service with addressing
          this challenge, we:
          ◆    Evaluated the Computer Security Within
               the Postal Service
          ◆    Reviewed the Security and Privacy
               Requirements for the Postal Service’s
               Online Bill Presentment and Payment
               System

          INCREASE CUSTOMER SERVICE
          AND SATISFACTION
               In today’s marketplace, customers have
          choices about how they conduct transactions,
          transmit messages, and deliver merchandise.
          Increasing service delivery and customer satis-
          faction will be key to maintaining and building
          customer loyalty and growing new business.
          However, recent criticisms about the manner in
          which the Postal Service recovers revenue defi-
          ciencies from mailers threatens critical partner-


PAGE 18   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Goals and Strategies




   DID YOU
   KNOW?
  What are the OIG’s “values?”
  The OIG’s values are teamwork,
  leadership, creativity, communica-
  tion, and conceptualization, and are
  incorporated into a 360-degree
  employee evaluation system called
  “TLC3.”




                                         PAGE 19
                                                     This section describes the OIG and                          The OIG selected the highest priority pro-
                                                     Inspection Service vision and goals for                jects for inclusion in the annual performance
                                                     assisting the Postal Service in achieving its          plan, the second component of the planning
                                                     operational, performance, and financial                process. The third component is the OIG
                                                     goals in the 21st century. In addition, this           annual audit workload plan, which is extracted
                                                     section describes the process by which the             from the annual performance plan. This audit
                                                     OIG translates its vision into an annual               workload plan is presented to the Postal Service
                                                     performance plan. In order to differentiate            Governors each year. The plan may be adjusted
                                                     between the OIG and the Inspection                     as the OIG work reveals new issues or the Postal
                                                     Service, the pages concerning the Inspection           Service encounters new challenges.
                                                     Service have been color screened.                      OIG FY 2001 AUDIT WORKLOAD
                                                                                                            PLAN
                                                                                                                 In the previous section of this Semiannual
                                                    OFFICE OF INSPECTOR                                     Report, the ten major management issues facing
                                                    GENERAL                                                 the Postal Service were discussed. These ten
                                                                                                            issues were consolidated into four major areas
                                                    STRATEGIC GOALS                                         along with the oversight of the Inspection


                                                    T
                                                             o assure long-term success, the OIG            Service for the purpose of audit planning.
                                                             assesses Postal Service operations and              In FY 2001, the OIG will focus its audit
                                                             activities, broadly defines realistic goals,   attention on the following areas to help address
                                                    sets priorities in line with business vision, and       major challenges facing the Postal Service:
                                                    conceives effective strategies and action plans.
                                                                                                            ◆   growing revenues and competing in a
                                                         In January 1998, the OIG issued its first              rapidly changing market;
                                                    Five-Year Strategic Plan, which was aligned
                                                    with each of the Postal Service’s                       ◆   maintaining affordability by controlling
                                                                                                                costs;
                                                    CustomerPerfect! goals: Voice of the Customer,
                                                    Voice of the Employee, and Voice of the                 ◆   improving the workplace climate and
                                                    Business. The five-year goals are designed to               labor relations;
Planning System
Interrelationships                                  enhance the Postal Service’s:                           ◆   leveraging technology to enhance
                                                                                                                productivity; and
                                                    ◆    Customer Service and Value.
                                                                                                            ◆   overseeing the Inspection Service.
POSTAL             ANNUAL                AUDIT
                                                    ◆    Employee and Workplace Environment.
PROJECT            PERFORMANCE           WORKLOAD                                                                The following presents each of the five
UNIVERSE           PLAN                  PLAN       ◆    Financial Integrity and Business
                                                         Resources.                                         areas and the focus of our audit efforts.

                                                                                                            Growing Revenues and Competing in a
                       PROJECTS
AUDITS & AUDIT RELATED PROJECT                      OIG PLANNING PROCESS                                    Rapidly Changing Market
INVESTIGATIONS
                                  CONSULTING              CustomerPerfect! goals play a crucial role in          Increasing competition from electronic
                                  QUICK RESPONSE
OTHER PROJECTS
                                  FACT-FINDINGS
                                                    the OIG’s planning process. The planning                commerce and other competitors has slowed
INTERNAL ENABLING FUNCTIONS                         process has three interrelated components: the          the growth of Postal revenue and is expected to
                                                    project universe, the annual performance plan,          have a continuing impact on the Postal
                                                    and the annual audit workload plan. This year,          Service’s financial viability. Electronic com-
                                                    the OIG identified a universe of more than              merce threatens to reduce First-Class Mail,
                                                    1,800 projects for consideration. Projects from         putting at risk as much as $33 billion in revenue
                                                    the universe, which is the first component, are         over the next nine years. In addition, foreign
                                                    selected on the basis of risk and OIG resources         postal services have recently set up offices in the
                                                    available for the year. As part of the selection        United States, siphoning away millions of
                                                    process, the OIG considers the project’s poten-         dollars in outbound international mail.
                                                    tial impact on:                                         Consequently, the Postal Service is being
                                                    ◆    Postal Service labor and capital resources.        challenged to find new revenue sources at the
                                                                                                            same time the Postal Service is being challenged
                                                    ◆    Postal-wide operations and goals.
                                                                                                            to fulfill its core mission of delivering mail in a
                                                    ◆    Public trust.

                                         PAGE 20    GOALS AND STRATEGIES
timely manner and improving customer service.       ◆ Contracting activities:
     To assist with this challenge, the OIG is        ◆ Fair and reasonable contract pricing
assessing how the Postal Service develops new         ◆ Reasonableness and allowability of
products and services to grow revenue,                  incurred costs
enhances core business processes to improve           ◆ Adequacy of contractor systems
customer service, and maintains the public’s          ◆ Contract administration
trust. OIG audits will focus on the following:
                                                    ◆ Facilities and real estate:
◆ New products and services:
                                                      ◆ Justification, approval, and budgeting
  ◆ Justification and approval                        ◆ Construction management
  ◆ Marketing and sales
  ◆ Return on investment                            ◆ Logistics:

◆ Leveraging traditional operations:                  ◆ Transportation systems and operations
                                                      ◆ Materiel management
  ◆   Strategic alliances
  ◆   Marketing                                     ◆ Health care:
  ◆   Financial initiatives
                                                      ◆ Workers’ compensation program
  ◆   International mail
                                                        administration
◆ Service performance and customer                    ◆ Provider billing
  satisfaction:
  ◆   Timeliness and reliability of service
                                                    Improving the Workplace Climate and
  ◆   Measurement systems                           Labor Relations
  ◆   Postal rates                                       The Postal Service, with approximately
  ◆   Re-engineering                                800,000 career and 100,000 non-career employ-
                                                    ees, has characterized labor management rela-
◆ Public trust:                                     tions as one of its most formidable challenges in
  ◆ Brand integrity                                 achieving its goals in the 21st century. To
  ◆ Employee integrity                              operate effectively in a rapidly changing envi-
                                                    ronment, the Postal Service has recognized that
Maintaining Affordability by                        it will need to give employee issues a higher
Controlling Costs                                   priority and enhance each employee’s contribu-
     With over $60 billion in operating             tion to organizational performance. Labor-
expenses each year, the Postal Service needs        management partnerships are also critical if the
strong management controls to mitigate his-         Postal Service is to achieve its overall financial
toric trends that drive rate increases and to       goals. However, employees sometimes view
ensure its ability to provide universal mail ser-   management attempts to achieve incentives
vice at affordable rates. Controlling costs         under the Postal Service’s Economic Value
requires strong contract administration, effec-     Added Variable Pay Program as adversarial.
tive program oversight, and sound budget            The Postal Service will need to address those
processes to make informed decisions. OIG           perceptions in order to resolve persistent labor
audits will focus on the following:                 management problems.
                                                         Since its inception, the OIG has been
◆ Financial system integrity:
                                                    working with the Postal Service to address these
  ◆   Financial statement                           issues. However, labor management relations
  ◆   Field installations                           continues to be one of the toughest areas to ade-
  ◆   Cost and revenue analyses
                                                    quately address. To date, the OIG has received
  ◆   Treasury-related issues
                                                    over 2,800 individual labor management com-
◆ Budget:                                           plaints. Because of the emotional involvement,
  ◆ Planning                                        potential financial impact, and the length of
  ◆ Execution                                       time to resolve these issues for the employee,
  ◆ Systems                                         management, and Postal Service, it is important
                                                    that OIG’s involvement in this area be mean-


                                                                                                         PAGE 21
          ingful and positive. Therefore, in order to deal       ◆ System performance and integrity
          with the sheer magnitude of complaints, the            ◆ Systems development and
          OIG focuses primarily on systemic issues and             implementation
          conducts Postal-wide reviews. These reviews
                                                               ◆ Computer security:
          are designed to identify and prevent potential
          problems that can detract from a healthy and           ◆ Access
          productive work environment. OIG audits                ◆ Data protection
          focus on the following:                                ◆ Data integrity

          ◆ Workplace climate:                                 ◆ Developmental:
            ◆ Conflict prevention and resolution                 ◆ Automation of core functions
            ◆ Threat assessment programs                         ◆ Process re-engineering
            ◆ Occupational safety and health
                                                               ◆ eCommerce:
          ◆ Employee management:
                                                                 ◆ Business partnerships and joint ventures
            ◆   Training and development                         ◆ Brand integrity
            ◆   Succession planning                              ◆ Justification, cost, budgeting, and risk
            ◆   Workforce planning
            ◆   Performance and compensation                   Overseeing the Inspection Service
            ◆   Diversity                                            Enabling legislation requires the OIG to
                                                               conduct oversight of the Inspection Service in
          Leveraging Technology to Enhance                     addition to OIG’s audit and investigative
          Productivity                                         responsibilities. As a law enforcement agency, it
                The Postal Service is seeking ways to lever-   is essential that the Inspection Service be held
          age technology to improve its service, produc-       to the highest standards of conduct to maintain
          tivity, and profitability. While it depends on       the public’s trust and the Postal Service’s repu-
          technology to deliver more than 650 million          tation of reliability.
          pieces of mail every day, the Postal Service must          OIG audits focus on the following:
          continue to adapt quickly to each new wave of
          technology to maintain its competitive position      ◆ Public trust:
          in the market. The unprecedented growth in             ◆ Function and role
          computer interconnectivity and Internet usage          ◆ Operational effectiveness
          is revolutionizing the way the nation communi-         ◆ Management controls
          cates and conducts business and is reshaping
          customer expectations.                               PERFORMANCE RESULTS
                To address these technology challenges, the         Each year, the OIG establishes annual per-
          Postal Service plans to invest approximately         formance goals to support its strategic goals.
          $17 billion through FY 2005 on capital invest-       During FY 2000, the OIG accomplished nearly
          ments, some of which are technology-related          90 percent of its plan. For FY 2001, the OIG is
          investments. These investments are intended          redesigning its annual performance goals to
          to automate and modernize mail processing and        include a new measurement system.
          acceptance, enhance communications and
          access to information, and extend the Postal
          infrastructure to better support core business
          processes and electronic products and services.
          In addition, the Postal Service continues to
          focus on eBusiness and computer security to
          protect these investments. OIG audits focus on
          the following:
          ◆ Information systems:
            ◆ Information infrastructure and
              architecture


PAGE 22   GOALS AND STRATEGIES
INSPECTION SERVICE
    The Inspection Service continues to support the Postal Service’s CustomerPerfect! model,
which consists of three voices—Voice of the Customer, Voice of the Employee, and Voice of the
Business. The management cycle of planning, implementation, and review provides a practical
and tangible method for establishing Inspection Service goals. As a result of this process, the
Inspection Service identified five goals and ten indicators for FY 2000 as shown below:




            Inspection Service
            FY 2000 Goals and Indicators

                              GOALS                                  INDICATORS


               Increase Customer Confidence               ◆ Customer Satisfaction Measurements-

CUSTOMER       in the Security & Integrity of the Mail      Residential
                                                          ◆ Volume Thefts




                                                           ◆ Number of Robberies
                                                           ◆ Robbery Solution Rate
                      Ensure Employee Safety
                                                           ◆ Number of Assaults
                                                           ◆ Number of Credible Threats
EMPLOYEE
               Enhance the Workplace Environment           ◆ Performance Management Profiles
               to Improve Organizational Performance       ◆ Recruitment




                      Prevent Loss of Revenue               ◆ Fraudulent Schemes Involving
                      and Assets                               Underpayment of Postage

BUSINESS
                           Reduce Costs                      ◆ Fraudulent Compensation
                                                               Costs Avoided




                                                                                                  PAGE 23
PAGE 24   GOALS AND STRATEGIES
Organizational Dynamics




    DID YOU
    KNOW?
   What is the OIG’s primary
   responsibility?
   The primary responsibility of the OIG is
   to conduct audits and investigations to
   prevent, detect, and report fraud, waste,
   and abuse, and to promote efficiency in
   the programs and operations of the Postal
   Service.




                                               PAGE 25
                                                                                                    through independent investigations,
                                              This section describes the OIG and the
                                                                                                    audits, and reviews.
                                              Inspection Service organization visions,
                                              values, culture, and diversity that assist        ◆   Serves as an objective venue for all
                                              with providing value added service to the             Postal Service employees and other
                                              Postal Service. In order to differentiate             stakeholders to report fraud, waste, abuse,
                                                                                                    mismanagement, and other improprieties
                                              the work reported by the OIG and
                                                                                                    and concerns, with protection from man-
                                              Inspection Service, the pages containing
                                                                                                    agement retaliation.
                                              the work reported by the Inspection Ser-
                                              vice have been color screened.                    ◆   Identifies cost savings, enhances contract
                                                                                                    and program administration, and
                                                                                                    increases employee integrity and program
                                                                                                    efficiency.
                                             OFFICE OF INSPECTOR
                                             GENERAL                                                 To improve Postal Service programs and
                                                                                                operations, the OIG provides objective infor-
                                             AN INDEPENDENT VOICE                               mation, analysis, and recommendations. The
                                                                                                OIG is continuing to work with Postal Service


                                             T
                                                     he OIG is an independent agency
                                                                                                management to inform them of the duties and
                                                     within the Postal Service and is under
                                                                                                responsibilities of an independent OIG and
                                                     the general supervision of nine presi-
                                                                                                demonstrate how the OIG adds value to Postal
                                             dentially-appointed Postal Service Governors.
                                                                                                Service processes.
                                             From 1988 until the establishment of the OIG
                                             in 1997, the Chief Postal Inspector performed      OIG SUCCESSFULLY DEFENDS ITS
                                             dual roles as the Inspector General and Chief      INDEPENDENT STATUS
                                             Postal Inspector and reported to the Postmaster         As described in OIG’s last semiannual
                                             General. In January 1997, Karla W. Corcoran        report, the OIG faced challenges to its indepen-
                                             was appointed the first independent Inspector      dent status in February 2000, when the General
                                             General of the Postal Service. The OIG, in car-    Accounting Office issued an “Independence
      Number of OIG Products                 rying out its responsibility under the Inspector   Preliminary Views” document for comment.
      In Last Five Semiannual Periods        General Act:                                       This document proposed changes to generally
                                             ◆   Provides Congress, the Governors, and          accepted government auditing standards.
300                                              Postal Service management with timely,         According to the proposed changes, Inspectors
                                     274
                                                 objective, and complete information and        General who are appointed by an agency head
                                                 analysis of Postal Service operations.         would not be considered organizationally inde-
250
                                                                                                pendent, and their reports would be required to
                                             ◆   Conducts audits and investigations of all
                                                 Postal Service operations and activities,      identify their lack of independence. Thus,
                             191
200
                                                 including ratemaking, contract adminis-        despite the independence provided by the
                                                 tration, labor management, computer            Inspector General Act, these proposed changes
150
                     139                         intrusion, electronic commerce, com-           had the potential of leaving OIG stakeholders
                                                 puter security, and marketing.                 and the public with the misperception that the
              101                                                                               work performed by the OIG was influenced by
                                             ◆   Maintains oversight of Inspection Service
100                                                                                             management. If the changes were incorporated,
                                                 operations and performs independent
        64                                                                                      Congress, the Governors, and the public might
                                                 reviews of complaints against its
50                                               employees.                                     question the credibility and objectivity of OIG
                                                                                                reports.
                                             ◆   Facilitates audit resolution, which pro-
                                                                                                     The OIG voiced its concerns to the
 0 9/30/98 3/31/99 9/30/99 3/31/00 9/30/00       vides a mechanism for resolving findings
                                                 and recommendations where the OIG              General Accounting Office, Congress, and
                                                 and Postal Service management disagree.        other members of the federal and nonfederal
                                                                                                audit community about the preliminary views
                                             ◆   Adds value to Postal Service operations,
                                                                                                document. In addition, the OIG obtained an
                                                 contributes to a more economical and
                                                                                                independent legal opinion and provided written
                                                 efficient organization, and helps the
                                                                                                comments to the General Accounting Office.
                                                 Postal Service maintain its integrity


                                   PAGE 26   ORGANIZATIONAL DYNAMICS
The Inspector General also met with the             all of its employees that reflect the tremendous
Comptroller General in July 2000 to discuss the     diversity of the Postal community. Diversity is
proposed changes and the detrimental effect         a tool for achieving the OIG’s mission and
they might have on how the OIG’s work is per-       enhancing its organizational effectiveness by
ceived. The OIG’s efforts were successful, and      using the creative energies of employees who
in July 2000, the Comptroller General advised       contribute different approaches, solutions, and
the OIG that it would continue to be viewed as      innovations.
organizationally independent. Subsequently,              The OIG workforce is diverse in age, race,
the preliminary views document was modified         ethnicity, gender, and background, as well as
to recognize the independence of the Postal         education, professional accomplishments, work
Service OIG, as well as all other Inspector         experience, and work style. The OIG work-
General offices.                                    force includes Certified Public Accountants,
                                                    Certified Internal Auditors, Certified Fraud
OIG VISION AND VALUES
                                                    Examiners, Certified Information Systems
     The vision of the OIG is “A Constellation      Auditors, and Certified Acquisition Auditors.
of Talented People Making a Difference.” This       OIG employees also hold law enforcement spe-
vision reflects the OIG’s mission to shed light     cialty certifications in areas such as polygraph
on problems and opportunities by emphasizing        examinations. In addition, many OIG employ-
five fundamental values:                            ees have undergraduate or advanced degrees,
◆   Teamwork—synergy derived from peo-              while other employees are continuing to work
    ple with diverse backgrounds and ideas          towards professional and academic achieve-          OIG Values
    working together to achieve more effec-         ments. OIG teams include auditors, evaluators,
    tive results.                                   criminal investigators, lawyers, technicians, and
◆   Leadership—applying interpersonal               administrative personnel formerly from federal
    influence to inspire others to move in a        and state government agencies, private indus-
    meaningful direction with competence            try, non-profit organizations, and the Postal
    and commitment.                                 Service.
◆   Creativity—taking an innovative                      During the past six months, the OIG car-
    approach to business problems or ques-          ried out an aggressive hiring initiative to staff
    tioning and challenging the quality of          the organization with additional highly-skilled
    conventional work, with the goal of             employees. As of September 30, 2000, OIG
    improving Postal Service operations.            had 656 employees, an increase of 40 percent
◆   Communication—providing open, pos-              from March 31, 2000. Of the 656 employees,
    itive and honest exchange of information        50 percent were women and 47 percent were
    and ideas while showing respect for the         minorities. The senior staff is composed of 39
    contributions and opinions of others.           percent women and 28 percent minority. Based
                                                    on the latest U.S. Bureau of Census estimates,
◆   Conceptualization—visualizing the big
    picture and understanding how an indi-          the OIG has met or exceeded the U.S. percent-
    vidual action affects the bottom line or        age of total population for women, and for each
    ultimate goal of the organization by            minority group, except for Hispanics and
    “keeping one’s eye on the ball.”                Native Americans.
                                                                                                        The OIG created an Employee Advisory
                                                    Employee Advisory Council                           Council in September to partner with OIG
OIG CULTURE AND EMPLOYEES                                                                               management to help maintain a produc-
                                                         To help ensure a productive, high-quality,
                                                    and positive workplace, OIG created an              tive, high quality, and positive work place
Value and Benefit of a Diverse Culture                                                                  environment.
     The OIG’s culture is defined by the diver-     Employee Advisory Council in September 2000
sity of its employees, who share the organiza-      to partner with OIG management. The
tion’s core values of teamwork, leadership,         Council consists of a broad cross-section of
creativity, communication, and conceptualiza-       non-management employees from headquarters
tion. The OIG is committed to creating and          and field offices. Council members represent
maintaining a workplace that is enriched by the     employees’ perspectives by providing a commu-
talents, contributions, and full participation of   nications link between employees and senior


                                                                                                         PAGE 27
                                             management and making recommendations on                ner, and for exceptional work and accom-
                                             OIG policies, procedures, and programs.                 plishments in ensuring diversity during
                                                                                                     that hiring initiative.
                                             Building, Funding, and Supporting the
                                                                                                 ◆   The Designation of Functions Team for
                                             OIG’s Workforce
                                                                                                     their work in revising the designation of
                                                  The Postal Service Governors recently
                                                                                                     functions between the OIG and the
                                             approved the OIG FY 2001 budget of $113 mil-
                                                                                                     Inspection Service to better serve the
                                             lion, which will allow the OIG to increase its
                                                                                                     interests of the Postal Service.
                                             staff to 725 employees. The Governors also
                                             approved the opening of four new field offices in        These awards represent about one-fifth of
                                                                                                 the total awarded to the entire OIG commu-
                                             Tampa, Florida; Boston, Massachusetts;
                                                                                                 nity and more than one-half of those awarded
                                             Pittsburgh, Pennsylvania; and Portland,
                                                                                                 to the Executive Council on Integrity and
                                             Oregon.                                             Efficiency community.
                                             NOTABLE OIG ACHIEVEMENTS
                                                                                                 OIG ATTENDS INTERNATIONAL
                                             OIG RECEIVES AWARDS OF                              AUDIT BENCHMARKING
                                             EXCELLENCE                                          SYMPOSIUM
                                                  The OIG received seven Awards of                    The Assistant Inspector General for Audit
OIG employees received a special award       Excellence and 21 Honorable Mentions Awards         and other OIG staff attended the international
for their work on the Designation of
                                             from the President’s Council on Integrity and       symposium for Postal Service Audit
Functions between the OIG and the
Inspection Service which will better         Efficiency and the Executive Council on             Departments in Ottawa, Canada. The meeting
serve the interests of the Postal Service.   Integrity and Efficiency. The following OIG         brought together heads of postal audit depart-
                                             teams were recognized with Awards of                ments from several countries to benchmark
                                             Excellence:                                         audit practices. The OIG made presentations
                                                                                                 on two of its best practices, and found that OIG
                                             ◆   The Transportation Team for exemplary
                                                                                                 audit methods and coverage were more
                                                 reporting and auditing of transportation
                                                 issues and identifying over $200 million        advanced in several areas. For example, the
                                                 in savings to the Postal Service.               OIG proactively identifies computer security
                                                                                                 issues by conducting intrusion tests as part of
                                             ◆   The Corporate Call Management
                                                                                                 information systems audits. The OIG also dis-
                                                 Program Team for their identification
                                                                                                 tinguishes itself through its fraud detection and
                                                 of nearly $1 billion in potential cost
                                                                                                 prevention activities, which other audit depart-
                                                 avoidance.
                                                                                                 ments have only recently considered as an audit
                                             ◆   The Video Audit Team for the produc-            assurance function.
                                                 tion of the first video audit report to
                                                 Postal Service management.                      OIG TECHNOLOGY AT ITS BEST
                                             ◆   The International Stamp Collection                  The OIG successfully completed imple-
                                                 Program Team for their quick response           mentation, deployment, and testing of its Wide
                                                 cost and benefit analysis, which                Area Network as follows:
                                                 identified a $3.9 million loss and led to
                                                                                                 ◆   The OIG implemented network services
                                                 the cancellation of the Postal Service’s
                                                                                                     at all existing OIG offices for high-speed
                                                 International Stamp Collection Program.
                                                                                                     network connectivity. These network
                                             ◆   The Telecommunication Cost Avoidance                services include access to OIG Intranet,
                                                 and Recoveries Team for their identifica-           Internet, Postal Service mainframes, and
                                                 tion of approximately $108 million in               OIG internal business applications.
                                                 cost avoidance and recoveries in the
                                                                                                 ◆   The OIG deployed a secured remote dial-
                                                 Postal Service’s telecommunications pro-
                                                                                                     in access to OIG Local and Wide Area
                                                 gram.
                                                                                                     Network to provide staff and temporary
                                             ◆   The OIG Recruitment and Staffing Team               offices network connectivity with exist-
                                                 and OIG Diversity Outreach Team for                 ing workstation architecture.
                                                 efficiently and effectively completing a
                                                 major staffing initiative in a timely man-


                                PAGE 28      ORGANIZATIONAL DYNAMICS
◆   The OIG tested its existing internal digi-      CHAIRMAN OF THE BOARD OF
    tal network, which is used to support           GOVERNORS VISITS OIG
    computer applications, for voice commu-
                                                         The Chairman of the Postal Service Board
    nications. This will enable the OIG to
                                                    of Governors visited the OIG at its open house
    leverage existing technology and save
                                                    in St. Louis, Missouri. Guests included repre-
    money.
                                                    sentatives from federal, state, and local audit
OIG PARTICIPATES IN A PILOT                         and investigative organizations. In addition,
TRAINING PROGRAM                                    the Chairman provided a keynote address for
     OIG personnel assisted with a pilot techni-    the OIG financial statement team during its
cal investigative equipment program to train        annual training and planning conference.
law enforcement agents attending the Federal        OIG PARTICIPATION IN THE
Law Enforcement Training Center. The pro-           COMBINED FEDERAL CAMPAIGN
gram has successfully taught the basics of tech-         The OIG’s Dallas, Texas office recently
nical investigations, such as laws, safety, and     received the highly prestigious “Pacesetter”
consensual monitoring techniques, to agents         award for the 1999 Combined Federal
pursuing this area as a collateral duty. To date,   Campaign. Each year, the Combined Federal
two classes were held and 20 special agents from    Campaign presents awards to organizations that
the OIG community have graduated.                                                                        An OIG employee provided training on
                                                    increase their donations by at least 5 percent
                                                                                                         Money Laundering and International
OIG PARTICIPATES IN AN INTER-                       over the previous year. The participation rate in    Banking to Russian National police offi-
NATIONAL PROGRAM IN RUSSIA                          the Dallas office for the 1999 campaign was 54       cers at the Kazan Law Institute in Russia.
    The OIG was invited to join forces with         percent. The award was presented during the
the Department of State, the Department of the      kick-off meeting for the 2000 Combined
Treasury, the Bureau for International Narcotics    Federal Campaign in the Dallas regional office.
and Law Enforcement Affairs, the Federal Law        CHALLENGES FACING THE OIG
Enforcement Training Center, and the Russian             As an independent entity within the Postal
Department of the Interior. This group pre-         Service, the OIG faces numerous challenges as
sented a training program entitled                  it looks to the future. The key challenges
“International      Banking      and    Money       include:
Laundering” at the Kazan Law Institute in
Russia and provided examples of investigative       ASSUMING ADDITIONAL
and legislative efforts used to combat money        RESPONSIBILITIES
laundering in the United States.                         Under the revised Designation of
                                                    Functions with the Inspection Service, the OIG
OIG PARTICIPATES IN LAW                             will perform all audits within the Postal Service,
ENFORCEMENT COMMUNITY
                                                    and the Inspection Service will discontinue per-
ACTIVITIES
                                                    forming audits. The OIG will investigate all
     On May 12, 2000, OIG employees partici-
                                                    procurement fraud within the Postal Service,
pated in the National Police Challenge 50, a
                                                    and the Inspection Service will discontinue pro-
50-kilometer road relay race held in the District
                                                    curement/expenditure investigations, except
of Columbia. The annual event benefited a
                                                    cash and money orders. The OIG also will
nonprofit organization, Concerns of Police
                                                    investigate thefts of Postal funds resulting from
Survivors, which assists family members of
                                                    improper expenditures, including compromise
police officers who were killed in the line of
                                                    of program integrity. The Inspection Service
duty. The competition drew over 48 law
                                                    will conduct all revenue investigations, and         OIG employees participated in the annual
enforcement teams from the Washington
                                                    embezzlements where there is no formal con-          “Law Enforcement Torch Run” which
Metropolitan area.                                                                                       benefits Special Olympics.
                                                    tract and payments are made in cash or money
     On June 8, 2000, OIG employees partici-
                                                    orders.
pated in the Special Olympics Law
Enforcement Torch Run. The employees
proudly carried the OIG banner during their leg
of the run.


                                                                                                          PAGE 29
                 Designation of Functions
                                                            as of May 2000


                  OFFICE OF
            INSPECTOR GENERAL                                                                            INSPECTION SERVICE



• AUDIT                                                                                      • REVENUE/FINANCIAL INVESTIGATIONS
  – All audits                                                                               – Theft or embezzlement of postal cash and
                                                                                               money orders by employees and others
                                                                                               where there is no formal contract
• DISBURSEMENT INVESTIGATIONS                                                                – Fraudulent activity relating to mailings,
  – Contract/procurement fraud                                                                 postage, and meters
  – Improper expenditures except cash
     and money orders                                                                        • FRAUDULENT WORKERS’ COMPENSATION
  – IMPAC Card
                                                                                             • FRAUD AGAINST CONSUMERS, BUSINESS,
                                                                                               AND GOVERNMENT (NON-POSTAL)
• HEALTH CARE FRAUD - USPS NEXUS                                                             • HEALTH CARE FRAUD - OTHER
  – Provider and contractor fraud
                                                                                             • SECURITY CONSULTATION ON ELECTRONIC
  – Health benefit program fraud
                                                   JOINT FUNCTIONS                             PRODUCTS AND SERVICES

• EMPLOYEE CORRUPTION                                                                        • CRIME PREVENTION AND SECURITY
                                              • RESPONSIBILITY FOR
  – Bribery                                      – e-business/e-commerce will be             • CRIMES OF VIOLENCE
  – Gratuities                                      determined in accordance with the
  – Conflict of Interest                            principles set forth in this document.   • DRUGS IN THE WORKPLACE

                                              • FUTURE E-COMMERCE ACTIVITIES WILL BE         • MAIL THEFT
• COMPUTER INTRUSION                            REVIEWED JOINTLY BY THE OIG AND              • PROHIBITED MAILINGS
                                                INSPECTION SERVICE ON AN ONGOING             – Child Exploitation
• FRAUD AWARENESS BRIEFINGS                     BASIS.                                       – Bombs
  RELATED TO OIG RESPONSIBILITIES                                                            – Drugs
                                                                                             • ROBBERIES
• SECURITY PROGRAMS
  – Employment backgrounds (as request-                                                      • BURGLARIES
     ed by the Board of Governors)
                                                                                             • MONEY ORDERS, FINANCIAL
                                                                                               INSTRUMENTS, AND POSTAL PROPERTY
• EXECUTIVE INVESTIGATIONS                                                                     CRIMES
  – Excludes crimes of violence
                                                                                             • SECURITY PROGRAMS
                                                                                             – Facilities, Mail, and Products
• QUI TAM                                                                                    – Employee Background Investigations
                                                                                             – Emergency Preparedness
• TORT CLAIM FRAUD                                                                           – International Security
                                                                                             – Service Investigations
• INSPECTION SERVICE OVERSIGHT                                                               • ASSET FORFEITURE PROGRAM




                 PAGE 30          ORGANIZATIONAL DYNAMICS
ADAPTING TO CHANGES IN
STAFF AND FIELD OFFICES
     During the last six months, the OIG
increased its staff from 470 to 656 employees.
Adding nearly 200 new employees and four new
field offices has been a challenge, requiring the
OIG to rely on state-of-the-art technology to
communicate with its field offices and head-
quarters. Communication, one of the OIG’s
core values, is crucial to maintaining the flow of
information. The OIG has already made great
strides in this area—its September All Hands
meeting held in Rosslyn, Virginia, was broadcast
to field offices via videoconferences, and was
also shown on the OIG’s Intranet.

REORGANIZING TO BETTER
SERVE THE POSTAL SERVICE
     The OIG revised its internal structure to
better reflect Postal Service business processes
and the new designation of functions. To help
the OIG better respond to customer needs, the
Inspector General named a Deputy Inspector
General to work closely with the Inspector
General on day-to-day operations. In addition:
◆   An Assistant Inspector General for
    eBusiness was named to recognize the
    significant role that technology plays in
    the Postal Service.
◆   Audit responsibility was consolidated for
    the Postal Service’s core business
    processes under the Assistant Inspector
    General for Business Operations.
◆   Revenue Protection was renamed
    Business Protection to reflect the new
    designation of functions.
◆   Internal enabling functions were consoli-
    dated under the Assistant Inspector
    General for Internal Business.
◆   Oversight and Business Evaluations was
    restructured to place greater emphasis on
    oversight of the Inspection Service and
    labor-management.
◆   Executive field liaisons were established
    to quickly address issues unique to the
    field.




                                                     PAGE 31
                                                                                                     Uniformed Postal Police Officers provide
                                          INSPECTION SERVICE                                    security around the clock at postal facilities.


                                          F
                                                 or more than two centuries, the role of the    The Postal Police Officers at facility control
                                                 Inspection Service has been to preserve        centers monitor burglar alarms to provide pro-
                                                 the public trust in the Postal Service. The    tection for Postal Service employees, property,
                                          Inspection Service enforces over 200 statutes         and assets. The Postal Police Officers also pro-
                                          related to crime against the mail, the Postal         vide escorts for the Postal Service for high-value
                                          Service, Postal Service employees, and cus-           shipments, such as certain registered mail and
                                          tomers. The Inspection Service’s mission has          postal remittances.
                                          been refined over the years by statutes related to         Postal Inspectors work cooperatively
                                          the mail, creation of an independent OIG, and         nationwide with the OIG, the Department of
                                          the needs and requirements of the Postal              Justice, and other federal, state, and local law
                                          Service and its customers. The Inspection             enforcement agencies on joint efforts. The
                                          Service provides an essential service to the          expertise of the Inspection Service is recognized
                                          American public and the Postal Service by             internationally, with Postal Inspectors assigned
                                          ensuring the security and sanctity of the mail        to the U.S. National Central Bureau of Interpol
                                          and the safety of Postal Service employees. The       in the District of Columbia and to Interpol
                                          Inspection Service has almost 4,300 employees,        Headquarters in Lyon, France. The Inspection
Postal Police Officers, the uniformed     including approximately 2,000 Postal                  Service has a leading role in the Postal Security
branch of the Inspection Service, pro-    Inspectors, about 1,400 uniformed Postal Police       Action Group, a committee within the
vide security at Postal Facilities.       Officers, and about 900 professional support          Universal Postal Union, which has established
                                          associates.                                           the following priorities:
                                               The national headquarters of the
                                                                                                ◆   Prevent injuries to customers resulting
                                          Inspection Service is organized into functional
                                                                                                    from dangerous goods in the mail.
                                          groups that report to the Deputy Chief
                                          Inspectors for Business Investigations, Criminal      ◆   Prevent the loss or theft of mail entrusted
                                                                                                    by customers to world postal administra-
                                          Investigations, Professional Standards and
                                                                                                    tions.
                                          Resource Development, and Administration.
                                          The Inspection Service includes 18 field divi-        ◆   Prevent revenue and asset losses of world
                                          sions, which report directly to two Deputy Chief          postal administrations.
                                          Inspectors for Field Operations.               Five   ◆   Preserve customers’ confidence in the
                                          Operations Support Groups also support the                mail.
                                          field offices.                                            Postal Inspectors are active members in
                                               The Inspection Service Forensic                  councils and groups, such as the:
                                          Laboratories, located at five sites, support field
                                          office investigations and provide state-of-the-art    ◆   Financial Crimes Enforcement Network.
                                          technology. Inspection Service offices are            ◆   Organized Crime Council.
                                          linked nationally through electronic systems          ◆   International Policy Committee of the
                                          with online connections to the National Crime             International Association of Chiefs of
                                          Information Center and the National Law                   Police.
                                          Enforcement Telecommunications System.
                                                                                                ◆   International Association of Financial
                                               Postal Inspectors conduct criminal investi-          Crimes Investigations.
                                          gations and arrest violators for postal offenses,
                                                                                                ◆   Securities and Commodities Fraud
                                          serve warrants and subpoenas, and present evi-
                                                                                                    Working Group.
                                          dence to prosecutors for action. Inspectors
                                          respond to emergencies involving Postal               ◆   Economic Crimes Council.
                                          Service crimes, natural disasters, and other          ◆   National Health Care Anti-Fraud
                                          problems that affect the Postal Service. With             Association.
                                          the completion of the FY 2000 financial instal-       ◆   National Law Enforcement Explorers’
                                          lation audits, the Inspection Service will no             Committee.
                                          longer perform audits.
                                                                                                ◆   Asset Forfeiture Policy Advisory Group.


                                PAGE 32   ORGANIZATIONAL DYNAMICS
Postal Inspectors also work with the following           identify opportunities to improve quality
organizations regarding child pornography                of service and security of mail at interna-
cases:                                                   tional airports.
◆   The Child Exploitation and Obscenity             ◆   The Chief Postal Inspector chaired the
    Section of the Department of Justice.                19th meeting of the Postal Security
◆   The National Center for Missing and                  Action Group in Switzerland. This
    Exploited Children.                                  group is comprised of postal security
                                                         experts from 48 member and 28 observer
◆   The Standing Working Party on Offenses
                                                         countries in the Universal Postal Union,
    Against Minors, which is an interna-
                                                         who address key security programs and
    tional organization sponsored by Interpol.
                                                         issues.
      The Inspection Service’s forensic special-
ists and technical financial analysts play a vital
role in supporting investigative, audit, and
security functions of the Inspection Service.
These professional technical employees per-
form a variety of tasks, which include:
◆   Providing forensic examinations.
◆   Developing, procuring, and deploying
    electronic security and surveillance
    equipment.
◆   Providing photography, video, and
    graphics support.
◆   Publishing policies, reports, manuals,
    handbooks, and consumer publications.
◆   Developing and maintaining manage-
    ment systems.
◆   Providing direct contact with Congress
    and the public.
◆   Supplying administrative support.
     The following are examples of Inspection
Service proactive efforts in the area of interna-
tional mail security:
◆   The International Security Group targets
    initiatives to improve the safety, security,
    and reliability of international mail prod-
    ucts for the Postal Service. The group
    also develops security strategies and ini-
    tiatives to improve the quality of service
    and security of the mail for the 189 mem-
    ber countries of the Universal Postal
    Union. The Postal Security Action
    Group continually focuses on contempo-
    rary problems and issues that affect the
    safety, security, and integrity of interna-                                                        The Inspection Service’s new seal
    tional communications products.                                                                    incorporates the Postal Service eagle in
                                                                                                       a five-pointed star.
◆   Postal Inspectors coordinated
    International Mail Quality
    Assurance/Airport Security Reviews in
    Australia, Colombia, and Japan to


                                                                                                       PAGE 33
PAGE 34   ORGANIZATIONAL DYNAMICS
Organizational Structure




   DID YOU
   KNOW?
  What is the background of OIG’s
  staff?
  The OIG staff includes auditors, evalua-
  tors, criminal investigators, lawyers,
  technicians, and administrative person-
  nel from federal and state government
  agencies, private industry, nonprofit
  organizations, and the Postal Service.




                                             PAGE 35
                                                  Office of Inspector General
                                                   Organizational Structure
                                                                           (as of September 30, 2000)


                                                         SPECTOR                                                            INSPECTOR
                                                    NT IN        GE                                                      NT           GE
                                                   A               N                                                   TA
                                                  T                                                                  IS
                                                IS                                                                  S




                                                                                                                                                            N
                                               S




                                                                                              ER
                                                                                                                   S




                                                                                                                                                             ER
                                              S




                                                                                                              A
                                                                                                A
                                                      Audit
                                          A




                                                                                                                                                               AL
                                                                                                 L
                                                      (BUSINESS OPERATIONS)                                            Investigations
                                                                                                                       (BUSINESS PROTECTION)
                                                      AIG–Debra Ritt (Acting)
                                                      Deputy AIG Robert E. Emmons                                      AIG–Billy Sauls
                                                      Deputy AIG John M. Seeba (Acting)                                Deputy AIG Daniel O'Rourke
                                                      Directors:                                                       Deputy AIG Ronald K. Stith
                                                      Accepting & Processing – Stew Dorris                             Directors:
                                                      Support Operations – Gwen Johnson                                Business Integrity – Dennis Riley
                                                      Delivery – Chris Nicoloff                                                             Michael Shiohama
                                                      Financial – John Cihota (Acting)                                 Contracts – Kim Stroud
                                                                  Sheila Bruck                                         Facilities – Anthony T. Cannarella
                                                      Marketing – Larry Chisley                                        Health Care Fraud – Katherine K. Johnson
                                                      Transportation – Joe Oliva
                              AL
                           NER
                         GE
                     R
                   TO                                                             Inspector General
              EC




                                                                                  Karla W. Corcoran                                                 Oversight and
            SP




                    eBusiness                                                     Deputy                                                            Business Evaluations
   ISTANT IN




                    AIG–Norm Hancock                                              Inspector General                                                 AIG–Debbie Pettitt (Acting)
                    Deputy AIG Donna Edsall                                       Sylvia L. Owens                                                   Deputy AIG Vacant




                                                                                                                                                                                             ERAL
                    Directors:                                                    Directors:                                                        Directors:
                    Computer Intrusion – Howard Cox                               Congressional & Public Relations – Laura Whitaker                 Hotline – Bob Pemberton
                    Developmental – Tracy LaPoint                                 Quality Assurance/Internal Affairs – George Davis                 Labor Management – Bennie Cruz




                                                                                                                                                                                          GEN
                                                                                  Strategic Planning/Internal Quality – Russ Barbee
ASS




                    Electronic Commerce – Robert Batta                                                                                                                   Joyce Hansen
                    Forensic & Technical Services – Tommy Hampton               General Counsel                                                     Oversight – Cathleen Berrick
                    Information Systems – Dave Berran                             Thomas Coogan




                                                                                                                                                                                          OR
                    Information Technology – David Sidransky                    Deputy General Counsel Ronnie Wainwright
                                                                                Director:




                                                                                                                                                                                        CT
                                                                                Legal Services – Gladis Griffith                                                                    E
                                                                                                                                                                                  SP
                                                                                                                                                                                IN
                                                                                                                                                                              T
                                                                                                                                                                      ASSISTAN


                                                    Field Liaison                                                  Internal Business
                                                    Colleen McAntee                                                AIG–Kirt West
                                                    Ronald Merryman                                                Deputy AIG Wayne Goleski
                                                                                                                   Directors:
                                                                                                                                                                      AL




                                                    Atlanta           New York                                     Administrative Resources – Steve Spratt
                                                                                                                                                                     N ER




                                                    Chicago           Minneapolis                                  Communications & Policy – Jim Nugent
                                                    Dallas            Raleigh                                      Human Resources – Eufemia Lucero
                                                                                                                   Workplace Enhancement – Sharon Solomon
                                                    Denver            San Mateo
                                                                                                                                                                  GE




                                                    Los Angeles       St. Louis
                                                                                                                                                                R




                                                                                                 E                                                              TO
                                                                                             V
                                           EX




                                               EC                                         TI                                                                C
                                                    UT                                  TA                                                           S   PE
                                                         IV E                       N                                    A SS
                                                                  R EP RESE                                                      ISTANT IN




                                               PAGE 36            ORGANIZATIONAL STRUCTURE
This section describes the organization of          Postal Service employees and customers about
the OIG and the Inspection Service. In              the OIG mission, and promoting the vision of
order to differentiate between the OIG and          the OIG.
the Inspection Service, the pages concerning
the Inspection Service have been color
                                                    GENERAL COUNSEL TO THE
                                                    INSPECTOR GENERAL
                                                                                                                 DID YOU
screened.
                                                    Thomas Coogan
                                                                                                                 KNOW?
                                                    Deputy General Counsel,
OFFICE OF INSPECTOR                                 Ronnie Wainwright                                   Is employee diversity impor-
GENERAL                                             LEGAL SERVICES TEAM                                 tant to OIG?
     The OIG supports the Postal Service’s          Director, Gladis Griffith - provides legal
business and public policy objectives. It is a                                                          The OIG is proud of the diverse
                                                    advice to the Inspector General and the OIG
unique, nontraditional, diverse organization        staff on criminal, civil, and administrative        talents, skills, and professional
that conducts audits, evaluations, investiga-       issues; processes subpoenas; responds to Free-      experience of our staff. The OIG
tions, and other core functions identified by the   dom of Information Act and Privacy Act
Inspector General Act of 1978, as amended.          requests; serves as liaison with the Postal Ser-    believes diversity has enhanced
     The OIG’s core values of teamwork, lead-       vice Law Department and the Department of           our work environment.
ership, communication, creativity, and concep-      Justice legal staffs; and manages compliance
tualization are demonstrated by teams that          with Office of Government Ethics regulations.
focus on improving Postal Service business
processes and overall organizational achieve-       ASSISTANT INSPECTOR GENERAL
ment. The following section describes the OIG       FOR AUDIT
                                                    (BUSINESS OPERATIONS)
organizational structure as of September 30,
2000.                                               Debra Ritt (Acting)

DEPUTY INSPECTOR GENERAL                            Deputy Assistant Inspectors General,
                                                    Robert E. Emmons and
Sylvia L. Owens - assists the Inspector
                                                    John M. Seeba (Acting)
General and the OIG Management Commit-
tee in leading the organization.                    ACCEPTING & PROCESSING TEAM

CONGRESSIONAL AND PUBLIC RELA-                      Director, Stew Dorris - conducts audits and
TIONS TEAM                                          reviews focusing on mail acceptance and col-
                                                    lection operations, and mail processing and dis-
Director, Laura Whitaker - serves as liaison
                                                    tribution processes.
and responds to requests from Congress, the
Board of Governors, and the media; and coor-        SUPPORT OPERATIONS TEAM
dinates congressional testimony and presenta-       Director, Gwen Johnson - provides inves-
tions.                                              tigative support to all performance teams and
QUALITY ASSURANCE/INTERNAL                          conducts audits and reviews of Postal Service
AFFAIRS TEAM                                        support operations, including general counsel,
Director, George Davis - conducts internal          quality, government relations, and customer
reviews of OIG operations and procedures to         service.
ensure that they are effective and appropriate      DELIVERY TEAM
and reviews allegations against OIG employees.      Director, Chris Nicoloff - conducts audits
STRATEGIC PLANNING/INTERNAL                         and reviews to enhance delivery processes and
QUALITY TEAMS                                       operations and improve customer satisfaction.
Director, Russ Barbee – anticipates and             FINANCIAL TEAMS
plans for current and future changes in the
                                                    Directors, John Cihota (Acting) and
Postal Service, the OIG operations, and tech-
                                                    Sheila Bruck - conducts audit work in support
nology by identifying workload, providing
                                                    of independent public accounting firm’s annual
research and statistical analysis, informing
                                                    financial audit opinion and conducts other


                                                                                                       PAGE 37
                                             financial-related audits to identify areas for         ASSISTANT INSPECTOR GENERAL
                                             improvement.                                           FOR INTERNAL BUSINESS
                                             MARKETING TEAM                                         Kirt West
                                             Director, Larry Chisley - examines and                 Deputy Assistant Inspector General,
                                             evaluates the major sources of revenue from            Wayne Goleski
                                             marketing, advertising, stamp services, and
                                                                                                    ADMINISTRATIVE RESOURCES TEAM
                                             retail and international mail business opera-
                                             tions, as well as monitors Postal Service rate         Director, Steve Spratt - provides the OIG
                                             cases.                                                 staff with facilities, procurement, financial,
                                                                                                    budget, and other services necessary to accom-
                                             TRANSPORTATION TEAM                                    plish the OIG mission.
                                             Director, Joe Oliva - conducts audits and
                                                                                                    COMMUNICATIONS & POLICY TEAM
                                             reviews of domestic and international trans-
                                             portation and logistics operations, specifically       Director, Jim Nugent - provides graphics,
                                             addressing Postal Service fleet operations and         writing, and editorial services; coordinates and
                                             contracts for air, highway, and rail services.         publishes OIG reports as well as other docu-
The OIG Human Resources Team provides                                                               ments for Congress, Governors and Postal Ser-
a variety of important pay and benefit       ASSISTANT INSPECTOR GENERAL                            vice management; and manages development
services by using the talents of a diverse   FOR INVESTIGATIONS
and highly qualified staff.                                                                         of internal policies and procedures.
                                             (BUSINESS PROTECTION)
                                                                                                    HUMAN RESOURCES TEAM
                                             Billy Sauls
                                                                                                    Director, Eufemia Lucero - provides full-
                                             Deputy Assistant Inspectors General,
                                                                                                    service human resources programs to the OIG
                                             Daniel O’Rourke and Ronald K. Stith
                                                                                                    in the areas of employee relations, pay and ben-
                                             BUSINESS INTEGRITY TEAMS                               efits, retirement, awards, performance manage-
                                             Directors, Dennis Riley and Michael                    ment, counseling, and training.
                                             Shiohama - investigate bribery, kickbacks,             WORKPLACE ENHANCEMENT TEAM
                                             embezzlements, and other cases involving
                                                                                                    Director, Sharon Solomon - provides sup-
                                             expenditures and contract fraud, such as defec-
                                                                                                    port and services to the OIG on internal work
                                             tive pricing, product substitution, and cost mis-
                                                                                                    life, organizational climate, diversity, equal
                                             charging.
                                                                                                    employment opportunity, and other workplace-
                                             CONTRACTS TEAM                                         related issues.
                                             Director, Kim Stroud - conducts audits and             ASSISTANT INSPECTOR GENERAL
                                             investigations of purchasing activities and            FOR OVERSIGHT & BUSINESS
                                             operations to improve Postal Service contract-         EVALUATIONS
                                             ing.
                                                                                                    Debbie Pettitt (Acting)
                                             FACILITIES TEAM                                        Deputy Assistant Inspector General,
                                             Director, Anthony T. Cannarella - con-                 (Vacant)
                                             ducts audits, management reviews, and investi-
                                                                                                    HOTLINE TEAM
                                             gations of all aspects of postal facilities, includ-
                                             ing repair, renovation, and new construction.          Director, Bob Pemberton - operates the
                                                                                                    OIG Hotline to provide a vital and confiden-
                                             HEALTH CARE FRAUD TEAM                                 tial communications link for Postal employees,
                                             Director, Katherine K. Johnson - identi-               other stakeholders, and the public to report
                                             fies and investigates medical providers that           fraud, waste, abuse, and mismanagement in the
                                             have falsely billed the Postal Service for work-       Postal Service.
                                             related injury claims; investigates allegations
                                                                                                    LABOR MANAGEMENT TEAMS
                                             about medical providers under contract with
                                             the Postal Service; and conducts audits of sys-        Directors, Bennie Cruz and
                                             temic issues involving the Workers’ Compensa-          Joyce Hansen - conduct audits and reviews of
                                             tion Program.                                          labor management and employee relations


                                PAGE 38      ORGANIZATIONAL STRUCTURE
issues within the Postal Service to assist in     assisted audit techniques for data retrieval and
maintaining a healthy and safe organizational     analysis in support of the OIG administrative,
climate for employees and improving opera-        audit, and investigative staff.
tional efficiency.
                                                  INFORMATION TECHNOLOGY TEAM
OVERSIGHT TEAM                                    Director, David Sidransky - manages com-
Director, Cathleen Berrick - conducts             puter operations and telecommunications
audits and reviews to provide oversight of        within the OIG; operates the local and wide-
Inspection Service programs and operations.       area networks; provides computer security and
                                                  technical support to the OIG staff; and man-
ASSISTANT INSPECTOR GENERAL
                                                  ages agency-wide information systems.
FOR eBUSINESS
Norm Hancock                                      EXECUTIVE REPRESENTATIVE
                                                  FOR FIELD LIAISON
Deputy Assistant Inspector General,
Donna Edsall                                      Colleen McAntee and
                                                  Ronald Merryman
COMPUTER INTRUSION TEAM
                                                  Provides senior-level communication links
Director, Howard Cox - detects and investi-       between the OIG Headquarters and its ten field
gates computer hacking and other high-tech-       offices, and all Postal Service field operations.
nology crimes involving Postal Service com-
puters and telecommunications systems; and        OIG FIELD LOCATIONS
assists in identifying vulnerable computer sys-        As depicted in the chart below, the OIG
tems so that appropriate counter measures may     opened five new field offices, for a total of
be implemented.                                   eleven offices. Field offices supporting head-
                                                  quarters in Rosslyn, Virginia, are located in San
DEVELOPMENTAL TEAM
                                                  Mateo and Los Angeles, California; Denver,
Director, Tracy LaPoint - conducts audits         Colorado; Atlanta, Georgia; Chicago, Illinois;
and reviews of new or redesigned Postal Service   Minneapolis, Minnesota; St. Louis, Missouri;
systems, programs, and operations that are        New York, New York; Raleigh, North Carolina
under development.                                and Dallas, Texas. In FY 2001, the OIG will
ELECTRONIC COMMERCE TEAM                          open four additional offices in Tampa, Florida;
Director, Robert Batta - conducts audits          Boston, Massachusetts; Portland, Oregon and
and reviews in the emerging field of electronic   Pittsburgh, Pennsylvania.
commerce, focusing on new electronic business
initiatives and revenues.                                               OIG Locations Nationwide
FORENSIC & TECHNICAL SERVICES
TEAM
Director, Tommy Hampton - provides tech-
nical support in such areas as surveillance,                                                                       MONTREAL
videography, evidence recovery, firearms, com-                                      MINNEAPOLIS, MN
puter forensics, and polygraph examinations;                                                                                         NEW YORK, NY
                                                   SAN MATEO, CA
and maintains close liaison with technical                                                        CHICAGO, IL                        ROSSLYN, VA

experts in the law enforcement community.                                    DENVER, CO
                                                                                             ST. LOUIS, MO                             RALEIGH,, NC
                                                                                                                                       RALEIGH
                                                     LOS ANGELES, CA                                                          ATLANTA, GA
INFORMATION SYSTEMS TEAM
Director, Dave Berran - audits and reviews                                                DALLAS, TX
major automated Postal management informa-
tion systems to determine whether general and
application controls are properly established
and systems are designed to provide accurate
data to management; and provides computer-



                                                                                                             PAGE 39
                                                      INSPECTION SERVICE
                                                           At the end of FY 2000, the Inspection Ser-                        emergency response, and a more uniform span
                                                      vice completed a realignment of reporting rela-                        of control among division Inspectors-in-Charge
                                                      tionships among field divisions. Over the last                         will enhance the Inspection Service’s ability to
                                                      few years, 30 Inspection Service Field Divisions                       address its goals. The Inspection Service
                                                      have been consolidated to 18. This has resulted                        remains committed to the ongoing evaluation
Chief Postal Inspector
Kenneth C. Weaver                                     in increased efficiency and effectiveness. The                         of organizational performance, employee devel-
                                                      consolidation of specific support functions, the                       opment, and customer service with the goal of
                                                      availability of additional staff resources for                         continuous improvement.




               Inspection Service Organizational Structure
                                                                                      Chief Postal Inspector
                                                                                      KEN C. WEAVER



    Deputy Chief Inspector   Deputy Chief Inspector                      Deputy Chief Inspector                Deputy Chief Inspector    Deputy Chief Inspector
     Security/Technology         Investigations             Professional Standards & Resource Development      Field Operations - East   Field Operations - West
          J. BELZ              K. NEWMAN                                      D. WRIGHT                            L. HEATH                  M. AHERN

            INC                      INC                        INC                          Manager            Inspectors in Charge      Inspectors in Charge     Inspector in Charge
   Information Technology     Fraud, Child Expl.,         Strategic Plng. &              Exec. Resources &            Florida -               Gulf Coast -          Office of Counsel
       R. COCCIA              Asset Forfeiture &         Management Process               Leadership Dev.                                                              L. KATZ
                                                                                                                    M. GREY                   R. DODD
                              Money Laundering           J. STINCHFIELD                     VACANT
                              L. MAXWELL                                                                             Mid Atl. -               Michiana -
            INC                                                                                                                                                    Inspector in Charge
    Corporate Information                                                                Manager Workforce      A. CRAWFORD                W. MITCHELL             Office of Inspections
                                                                INC
        Management                   INC                 Career Development               Strategic Plng.           NY Metro -                 Midwest -            J. SOMERSET
        R. LUERS                Mail Theft &                  Division                    N. ARROYO              J. SKIDMORE               R. BOWDREN
                                Violent Crimes              K. BOND
                                                                                                               No. Jersey/Caribbean -           No. Ca -           Inspector in Charge
           INC                A. CLEMMONS                                                 Manager Training                                                           Congressional &
                                                                                                                   K. BURKE                    A. KIEL
     Computer Crimes &                                         INC                          Assessment                                                                Public Affairs
        Commerce                    INC                                                     S. CLARK                Northeast -               No. Illinois -        D. MIHALKO
                                                            Finance &
        J. EASLEY              Revenue & Asset                                                                      K. JONES                  I. GILLIS
                                                           Adm. Services
                               Protection Prog.                                                                 Philadelphia Metro -          Northwest -
                                                          M. MUNLEY                      Manager Employee
             INC             S. SCHMERBECK                                                                      B. CHAMBERS                 R. MORGAN
                                                                                           Development
    International Security                                   Manager                     N. JOHNSON                 Southeast -            Rocky Mountain -
         D. HILL                     INC                   Newark ISOSG
                               Forensic & Tech.                                                                     I. CARLE                 M. COBOS
                                                         V. BELLINGER
                                   Services                                                                     Washington Metro -              So. Ca -
           INC
          Security
                                R. GEFFEN                                                                          J. ROWAN                 J. FREEMAN
                                                              Manager
      T. DENNENY                                          So. San Francisco                                       W. Allegheny -              Southwest -
                                                               ISOSG                                                J. BIRCH                A. HOLMES
                                                         K. PARAMORE




   INC - Inspector in Charge
   ISOSG - Inspection Service Operations Support Group




                                    PAGE 40           ORGANIZATIONAL STRUCTURE
Customer Service




 OFFICE OF INSPECTOR GENERAL
      External Communications
      Internal Communications
      Specialized Services

 INSPECTION SERVICE
      External Communications
      Specialized Services




                                PAGE 41
                                           This section describes the OIG and                  electronic commerce initiatives to offset the
                                           Inspection Service’s efforts to provide             projected $32.9 billion decrease in First-Class
                                           Customer Service including initiatives by           Mail revenue over the next nine years. Those
                                           support functions to enhance service to             challenges included the need for:
                                           internal customers. Customer satisfac-              ◆   centralizing and involving senior
                                           tion and service is the underlying creed of             management at early stages of project
                                           most successful organizations and busi-                 planning;
                                           nesses. In order to differentiate work              ◆   comprehensive, integrated planning and
                                           reported by the OIG and the Inspection                  setting priorities for new marketing
                                           Service, pages concerning the Inspection                initiatives;
                                           Service have been color screened.                   ◆   effectively planning the budget and
                                                                                                   allocating resources;
                                                                                               ◆   improving systems development, includ-
                                          OFFICE OF INSPECTOR                                      ing projections of return on investment,
                                          GENERAL                                                  data reliability, and functionality, while
                                                                                                   keeping pace with installation schedules;
                                          EXTERNAL COMMUNICATIONS                              ◆   controlling and providing oversight of


                                          T
                                                   he OIG is legally responsible for keeping       contracting activities; and
                                                   Members of Congress and the Postal          ◆   placing a greater emphasis on compre-
                                                   Service Governors fully and currently           hensive, integrated computer security.
                                          informed. The OIG keeps Congress informed
                                          by issuing the Semiannual Report to Congress,        OIG Testimony at Oversight Hearing
                                          testifying at oversight and other hearings, and           On September 19, 2000, the Inspector
                                          briefing Members and their staffs on issues          General testified before the Subcommittee on
                                          related to the Postal Service. The OIG keeps         the Postal Service, House Committee on
                                          the Governors informed through regular brief-        Government Reform. The Inspector General
                                          ings at monthly Board meetings, a monthly            discussed the progress made in building the
                                          activity report from the Inspector General, and      organization as the OIG concludes its fourth
                                          responses to requests for information. The OIG       year, and highlighted how the OIG has helped
                                          also regularly provides Congress and the             the Postal Service address significant manage-
                                          Governors with copies of audit and manage-           ment challenges in four critical areas:
                                          ment advisory reports.
                                                                                               ◆   competing in a rapidly changing market-
                                          CONGRESSIONAL TESTIMONY                                  place and improving customer service
                                               Each year, the Inspector General has testi-         while introducing new products and
                                          fied before Congress on the OIG’s work. The              services to generate revenue;
                                          Act authorizes the OIG to conduct indepen-           ◆   controlling costs through improved
                                          dent audits, investigations, and reviews of Postal       contract administration, budget plan-
Inspector General Corcoran unveils for    Service programs and operations to identify and          ning, and program oversight;
the Governors of the Postal Service the
                                          deter fraud, waste, abuse, and mismanagement.        ◆   improving the workplace climate and
OIG Hotline video which provides an
overview of the Hotline operations.                                                                relations among labor, management, and
                                          OIG Statement on Electronic
                                                                                                   unions; and
                                          Commerce
                                               On September 7, 2000, the Inspector             ◆   using technology to automate and mod-
                                          General provided a written statement on elec-            ernize mail processing and acceptance,
                                                                                                   improve communications, and support
                                          tronic commerce initiatives of the Postal
                                                                                                   core business processes and electronic
                                          Service to the Subcommittee on International
                                                                                                   products and services.
                                          Security, Proliferation, and Federal Services,
                                          Senate Committee on Governmental Affairs.
                                          The Inspector General highlighted challenges
                                          that the Postal Service faces in implementing



                               PAGE 42    CUSTOMER SERVICE
RESPONDING TO REQUESTS                              the Postmaster General’s directive was pub-
FROM CONGRESS AND THE                               lished in Postal Bulletin, September 21, 2000.
POSTAL SERVICE GOVERNORS                                 During this reporting period, the OIG
     One of the OIG’s highest priorities is to      developed a wallet-sized card depicting the
provide accurate and timely responses to            poster. The card contains the Hotline’s toll-free
Congress and the Postal Service Governors.          phone number, email address, toll-free fax, and
The OIG responds to many of these requests by       mailing address. These cards will be distributed
conducting individual reviews and providing         to employees and other stakeholders.
responses. However, the OIG does not nor-           Responding to Hotline Inquiries
mally perform an audit or investigation when             The Hotline receives complaints from
the allegation involves an individual employee      employees, customers, and the general public
issue that can be resolved through contractual      concerning alleged violations of laws, rules, or
grievance-arbitration procedures or the Equal       regulations; mismanagement; waste of funds;
Employment Opportunity process. In those            abuse of authority; or danger to public health
cases, the OIG incorporates individual concerns     and safety. Complaints and allegations received
into a database to identify systemic issues based   by the Hotline are analyzed to identify systemic
on the information from Congress and the            issues affecting the Postal Service.
Governors. When systemic issues have been                The OIG considers all Hotline contacts
identified, the OIG conducts independent            when planning audits and projects. However,
audits and investigations of Postal Service pro-    the Hotline is not a replacement for formal
grams and operations to help ensure their effi-     avenues of problem resolution such as grievance
ciency and integrity.                               arbitration or Equal Employment Opportunity
     During this six-month reporting period, the    processes. During this reporting period, the
OIG completed 50 congressional inquiries.           Hotline received more than 10,000 contacts, of
Appendix H of this report lists the OIG             which:
responses to these inquiries by subject area.
Narratives describing significant OIG work in       ◆   eight percent were referred internally to
response to congressional requests appear in sub-       OIG for resolution or information, and
sequent sections.                                       pertained to allegations of fraud, waste,
                                                        abuse, and mismanagement, or violations
HOTLINE PROVIDES A VITAL                                of health and safety rules;
AND CONFIDENTIAL                                    ◆   thirty-four percent were referred to the
COMMUNICATION LINK                                      Inspection Service and involved allega-
     The OIG Hotline provides a vital and con-          tions of criminal activity, including
fidential communication link between the OIG            threats of violence, mail theft, vandalism,
and individuals who contact the Hotline to              or mail tampering;
report allegations of fraud, waste, abuse, and      ◆   eleven percent were customer service
mismanagement.                                          matters that were referred directly to the
Promoting Hotline Awareness                             Postal Service Consumer Advocate;
     A video representing the OIG Hotline           ◆   forty-five percent were related to miscel-
operations has been developed to increase OIG           laneous requests for information such as
Hotline awareness for Congress, the Governors,          ZIP Codes, postage meters, and other            The OIG Hotline poster must be posted in all
the Postal Service, and the public.                     Postal Service-related matters; and             Postal facilities.
     Previously, the OIG developed a Hotline        ◆   two percent were related to operational
poster that heightened stakeholder awareness to         and human resource issues that were
report incidents of fraud, waste, abuse, and mis-       referred to Postal Service management.
management. On August 3, 2000, the                       The OIG Hotline is staffed from 7:00 a.m.
Postmaster General directed that the poster be      to 7:00 p.m., Eastern Time, Monday through
permanently and prominently displayed for all       Friday (except federal holidays). Calls can be
employees. In addition, an article announcing       made 24 hours a day, 7 days a week. Threats




                                                                                                         PAGE 43
                                           and any other potentially violent work situa-          the public easy access to its reports.
                                           tions are routed immediately to the Postal             OIG reports that have been released can
                                           Police Control Center for action 24 hours a day        be found by clicking on “Audit &
                                           either by an OIG Hotline analyst or through a          Management Advisory Reports” or
                                           caller-directed menu system. Anyone inter-             “Freedom of Information Act” on the
                                           ested in contacting the Hotline can call, toll-        OIG webpage. The webpage also con-
                                           free, 1-888-USPS-OIG (1-888-877-7644);                 tains the OIG Freedom of Information
                                           write to the United States Postal Service, OIG,        Act Reference Guide and links to other
                                           ATTN: Hotline, 1735 North Lynn Street,                 useful reference material pertaining to
                                                                                                  disclosure of information, as well as
                                           Arlington, VA 22209-2020; email the OIG at
                                                                                                  instructions on requesting OIG reports
                                           hotline@uspsoig.gov; or fax information toll-
                                                                                                  that are not posted on the webpage.
                                           free to (866) 756-6741.

                                           REVIEWING LEGISLATION AND                          INTERNAL COMMUNICATIONS
                                           REGULATIONS                                             In addition to responding to official
                                                As required by the Inspector General Act,     requests by Congress and the Governors for
                                           the OIG monitors legislative and regulatory        information, the OIG responds to Postal
                                           developments to advise Congress and the            Service management and other agency requests.
                                           Governors of the impact such legislation and
                                                                                              RESPONDING TO MANAGEMENT
                                           regulations could have on Postal Service pro-
                                                                                              REQUESTS FOR OIG REVIEWS
                                           grams and operations. During the six-month
                                                                                                   The OIG is committed to providing timely
                                           period, the OIG evaluated 51 legislative propos-
                                                                                              and accurate information and recommenda-
                                           als and 31 regulatory initiatives. Highlights of
                                                                                              tions to Postal Service management. The OIG
                                           the legislative and regulatory proposals are
                                                                                              asked Postal Service managers to identify oper-
                                           included at the end of the appropriate section
                                                                                              ations and emerging issues that would benefit
                                           that describes the OIG and the Inspection
                                                                                              from the OIG’s review. Their suggestions are
                                           Service reviews performed in the last six
                                                                                              considered during the annual planning process
                                           months.
                                                                                              and, to the extent practical, are given priority
                                           FREEDOM OF INFORMATION                             consideration for inclusion in the OIG’s Annual
                                           AND SUBPOENA REQUESTS                              Work Plan, which is summarized in the Goals
                                                The OIG responds to many requests for         and Strategies section of this semiannual report.
                                           reports and other information under the            This process creates a unique opportunity to
                                           Freedom of Information Act. In addition, the       provide independent analysis and information
                                           Inspector General is authorized under the          that will assist management officials in fulfilling
                                           Inspector General Act to issue subpoenas for       their responsibilities.
                                           audits and investigations, and in support of
                                                                                              MONITORING COMPUTER
                                           selected investigations for the Inspection
                                                                                              MATCHING REQUESTS FOR
                                           Service. In the last six months:                   POSTAL INFORMATION
                                           ◆ The OIG received 87 requests for infor-               Under the Privacy Act, a matching pro-
The public can access electronic ver-
                                             mation, 69 that the OIG could respond            gram is defined as any computerized comparison
sions of OIG reports by visiting the OIG
webpage at www.uspsoig.gov                   to—8 were answered in full, 1 was with-          involving the automated federal system of
                                             held totally, 53 were partially withheld, 1      records of two or more agencies. Information
                                             was referred to the Inspection Service,          contained in a system of records may be dis-
                                             and 6 were referred outside the OIG.             closed to a recipient agency for use in a com-
                                           ◆ The OIG issued 188 subpoenas—137                 puter matching program pursuant to a written
                                             supporting Inspection Service
                                                                                              agreement between the source and recipient
                                             investigations and 51 supporting OIG
                                                                                              agencies, and after publication in the Federal
                                             investigations.
                                                                                              Register. The Postal Service receives requests
                                           ◆ To comply with the Electronic Freedom
                                             of Information Act, the OIG redesigned           from other government agencies for Postal
                                             its webpage -www.uspsoig.gov - to allow          Service data that are used in computer match-



                                 PAGE 44   CUSTOMER SERVICE
ing programs for a variety of purposes, including     Second, the computer may be a tool of the
statistical studies and law enforcement activi-       offense. This occurs when an individual uses a
ties. Pursuant to the Privacy Act, the Postal         computer to facilitate some traditional offense,
Service Data Integrity Board reviews requests         such as fraud. Third, computers are sometimes
for information needed to perform computer            incidental to the offense but significant to law
matches. The Inspector General is a member of         enforcement because they contain evidence of
the Data Integrity Board, along with the Postal       a crime.
Service Vice President, Employee Resources
                                                      PROVIDING POLYGRAPH
Management; Vice President, General Counsel;
                                                      SERVICES
Chief Financial Officer and Executive Vice
                                                          The OIG polygraph program aids criminal
President, Finance; and the Chief Postal
                                                      investigators and is an effective tool to assist in
Inspector.
                                                      proving guilt as well as innocence. OIG poly-
      During this six-month period, the
                                                      graph examiners represent the OIG within the
Inspector General, as a member of the Data
                                                      polygraph community and on the Federal
Integrity Board, reviewed and approved the fol-
                                                      Polygraph Executive Committee.
lowing requests for computer matching data
from the Postal Service.                              ASSISTING IN DATA ANALYSES
                                                           The OIG’s Computer Assisted Assessment           The OIG forensic staff provides technical
◆    A request from the OIG to approve a
                                                                                                            support to OIG auditors and investiga-
     computer matching agreement with the             Techniques (CAATs) team uses automated
                                                                                                            tors.
     Department of Labor Office of Workers’           methods and tools to extract and analyze elec-
     Compensation Programs to determine               tronic data located on over 900 Postal systems
     whether current Postal Service auto-             in support of OIG audit and investigative
     mated and manual procedures for moni-            efforts. The CAATs team has supported several
     toring Federal Employees Compensation            significant OIG efforts during this reporting
     Act benefit payments made to employees           period, including:
     who have returned to work are adequate;
     and to identify those employees who may          ◆    Collecting and analyzing telecommuni-
     have received dual benefits in violations             cations invoice data in support of the
     of the Act.                                           Facilities Team, resulting in the identifi-
                                                           cation and recovery of $9 million of
◆    Separate requests from state employment               overcharges, with an additional $96 mil-
     agencies in Arkansas, Louisiana, Texas,               lion in cost avoidance.
     California, and North Dakota asking for
     information to identify Postal Service           ◆    Assisting the Health Care team in an
     employees who are former students of the              ongoing investigation in identifying over
     respective education systems. Each state              31,000 fraudulent medical billing records
     will determine whether Postal job duties              effecting over $2.6 million of billings to
     of former students relate to their                    date.
     education.                                       ◆    Conducting extensive analysis of the
                                                           delivery confirmation program to support
 SPECIALIZED SERVICES                                      the Delivery team in assessing the accu-
                                                           racy of delivery status information at five
USING COMPUTER FORENSICS                                   Postal Facilities.
      The OIG Computer Forensics Team is
staffed by specialists trained and certified in the
seizure of computers and the recovery of elec-
tronic evidence. Their mission is to provide
technical support to extract data to help iden-
tify individuals who use computers for criminal
purposes, generally in one of three ways. First,
a computer may be the target of the offense. In
these cases, the criminal’s goal is to steal infor-
mation from or cause damage to a computer.


                                                                                                             PAGE 45
                                                                                              The Deputy Chief Inspector for Criminal
                                      INSPECTION SERVICE                                      Investigations testified at the hearing.
                                           The Inspection Service has adopted
                                      numerous initiatives to improve customer ser-       ENSURING CONSUMER
        DID YOU                       vice. The Inspection Service alerts consumers       PROTECTION
        KNOW?                         and businesses to current crimes by attracting
                                      media attention to Postal crime trends, publiciz-
                                                                                               In an effort to maintain the integrity of the
                                                                                          mail and to ensure the confidence and trust that
                                      ing positive law enforcement accomplishments,       government agencies, businesses, and Postal
                                      circulating media releases, and hosting crime       Service customers place in the Postal Service,
Are mailboxes considered              prevention presentations.                           the Inspection Service conducts mail fraud
federal property?                     EXTERNAL COMMUNICATIONS                             investigations that focus on a variety of
                                                                                          schemes. Because of their complexity and far-
Yes. Federal law (18 USC §                 The Inspection Service is responsible for
                                                                                          reaching implications, mail fraud investigations
                                      communicating its law enforcement and crime
1705) makes it a crime to                                                                 are often conducted jointly with other federal
                                      prevention achievements to the American pub-
                                                                                          and local law enforcement agencies to take
vandalize mailboxes (and to           lic, Congress, the Postal Service, and the law
                                                                                          advantage of the expertise of each agency and to
injure, deface, or destroy any        enforcement community.
                                                                                          maximize resources. Postal Inspectors also work
mail deposited in them).              PROVIDING CONGRESSIONAL                             with other law enforcement agencies and con-
                                      LIAISON                                             sumer groups in prevention efforts to raise
Violators can be fined up to              Members of the Inspection Service               awareness of fraud.
$250,000 or imprisoned for up         attended or testified at the following
                                                                                          ANNUAL REPORT OF
                                      Congressional hearings relating to Postal           INVESTIGATIONS
to three years for each act of
                                      Service and Inspection Service issues:
                                                                                               The 1999 Annual Report of Investigations
vandalism.
                                      ◆   The House Subcommittee on Treasury,             of the Inspection Service was released in March
                                          Postal Service, and General Government          2000. The accomplishments described in the
                                          sponsored a hearing that covered a wide         report are intended to inform the Governors,
                                          range of topics. Topics included H.R. 22,       the Postmaster General, Postal Service man-
                                          the Within Worldwide Customs study,             agers, and employees about Inspection Service
                                          Customs and the Postal Service’s han-           activities and give greater insight into the value
                                          dling of incoming mail, searching out-          and benefits provided by the Inspection Service.
                                          bound mail without a search warrant,
                                          Commercial Mail Receiving Agencies,             SPECIALIZED SERVICES
                                          eCommerce, drugs in the mail, and per-
                                          sonnel reduction.                               PROVIDING FORENSIC SERVICES
                                      ◆   The Committee on Government Reform,                   Inspection Service forensic analysts pro-
                                          Subcommittee on Government                      vide expert examinations and testimony on evi-
                                          Management, Information and                     dence submitted by Postal Inspectors for
                                          Technology, sponsored a hearing that            document, fingerprint, chemical, and physical
                                          focused on proposed legislation to estab-       evidence analyses. Laboratory personnel are
                                          lish a Commission for the                       available to respond to the most critical crimi-
                                          Comprehensive Study of Privacy                  nal investigations of violent crimes to assist in
                                          Protection.                                     processing and evaluating evidence. During
                                      ◆   The Chairman, House Subcommittee on             this reporting period, over 655 sets of finger-
                                          Criminal Justice, Drug Policy and               prints were matched on Automated Fingerprint
                                          Human Resources held a hearing on               Identification System searches yielding 59 iden-
                                          drugs in the mail. The subcommittee             tifications.
                                          heard about the Inspection Service’s ini-
                                          tiatives and stance on the U.S. Customs
                                                                                          USING TECHNICAL SERVICES
                                          Service’s efforts to search outbound mail            Technical services personnel assist and sup-
                                          without warrants. The Inspection                port field division staff in the acquisition and
                                          Service’s efforts to restart a multi-agency     use of various sophisticated equipment and ser-
                                          antidrug initiative were also highlighted.      vices to make their job easier and safer. The


                            PAGE 46   CUSTOMER SERVICE
unit utilizes Postal Inspectors, security techni-         are continuing to assist with processing
cians, and communications specialists to meet             this data.
program objectives. Programs include radio and        ◆   Analysts provided testimony in federal
electronic surveillance and mail screening.               court relating to an individual’s use of a
Information relating to each program follows:             personal computer to commit identity
◆   Installed electronic surveillance equip-              fraud and pass counterfeit checks. The
    ment to assist Postal Inspectors in identi-           individual was found guilty.
    fying suspects in an identity takeover and
    subsequent murder.
◆   Installed long-range surveillance cameras
    to transmit video footage via microwave
    to Postal Inspectors observing an individ-
    ual suspected to have filed fraudulent
    workers’ compensation claims.
◆   Screened over 500 pieces of mail at a
    judicial conference of federal judges,
    which was considered high-risk because
    two judges under the U.S. Marshal’s pro-
    tection received threats. One suspect
    package was identified and subsequently
    cleared by Postal Inspectors.

PROVIDING POLYGRAPH
SERVICES
     Polygraph examinations have proven effec-
tive in resolving cases involving employee
assaults, registered and other mail thefts, allega-
tions of assault, and misappropriation of Postal
funds or property. An example of effective use
of polygraph examinations follows:
◆   An audit of a post office disclosed a dis-
    crepancy in accounting records of a
    postal clerk. A polygraph examination of
    the clerk regarding the discrepancy led to
    the clerk admitting to “borrowing” funds
    from the Postal account. The clerk also
    admitted to altering accounting records
    to cover missing stamp stock.

RECOVERING DIGITAL EVIDENCE
     Inspection Service personnel also preserve,
access, retrieve, and recover evidence stored on
computers, and conducts forensic examinations
of audio and video media. This reporting
period, the Inspection Service received 141 new
requests and completed 23 requests. Examples
of the use of digital evidence follow:
◆   Program managers and analysts nation-
    wide assisted in searches related to fraud
    in the insurance settlement industry.
    Postal Inspectors and program managers


                                                                                                       PAGE 47
PAGE 48   CUSTOMER SERVICE
Performance Reviews




 OFFICE OF INSPECTOR GENERAL
      Accepting and Processing
      Transportation
      Delivery
      Marketing
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Mail Theft
      Service Investigations




                                           PAGE 49
                                              This section highlights audits, reviews,        ROBOTIC TRAY HANDLING
                                         and investigations performed by the OIG and          EQUIPMENT WAS NOT
                                         the Inspection Service in the Performance            OPTIMIZED
                                         area. Report numbers are shown in parenthe-                The OIG audited the $37.7 million
                                         ses after the narrative, as appropriate. Also,       pedestal robot system designed to lift bundled
                                         the OIG legislative and regulatory reviews are       letter mail trays to containers for dispatching.
                                         included at the end of this section. In order to     The audit disclosed that 24 of 42 facilities could
                                         differentiate the work reported by the OIG           not achieve the full benefits of the robot
                                         and Inspection Service, the pages containing         because they lacked tray-feeding mechanisms
                                         the work reported by the Inspection Service          that were essential to its success. Although this
                                         have been color screened.                            project was an organizational initiative, some
                                                                                              managers either refused to install or removed
                                                                                              the pedestal robot because funding was not pro-
                                                                                              vided for the tray feeding mechanisms.
                                         OFFICE OF INSPECTOR                                  Additionally, 18 managers spent an additional
                                         GENERAL                                              $7.2 million to install tray-feeding mechanisms
                                                                                              to complete the system. The audit also dis-

                                         T
                                                  o deliver world-class service, businesses
                                                  and government agencies must excel in       closed that facility managers did not consis-
                                                  performing their core business processes.   tently capture and retain operational data on
                                         For the Postal Service, these core business          system performance needed to assess the bene-
                                         processes and systems encompass accepting,           fits of the robots. The OIG recommended, but
                                         processing, transporting, and delivering the mail    management did not agree, that a tray feeding
The OIG evaluated the performance of     as well as marketing postal products and services    mechanism was necessary for every robot.
the robotic tray handling system.        worldwide. During the past six months, the           However, management agreed to form a task
                                         OIG has completed 24 reviews of key and              force to identify where tray feeding mechanisms
                                         emerging issues relating to the Postal Service’s     could be installed, which met the intent of our
                                         performance of core business processes. The          recommendation. The OIG also recommended
                                         reviews identified opportunities to save about       and Postal Service management agreed to
                                         $84 million during current and future years.         ensure that system performance data is retained
                                                                                              and analyzed to assess the impact on mail pro-
                                         ACCEPTING AND PROCESSING                             cessing operations. (OIG AC-AR-00-004)
                                               On average, over 650 million pieces of mail
                                         are accepted each day by the Postal Service in a     REVENUE ASSURANCE PROCESS
                                         variety of ways, including collections from more     COULD BE IMPROVED
                                         than 300,000 blue collection boxes and residen-           As a result of a congressional request, the
                                         tial and business collection mailboxes. Express      OIG audited the Postal Service’s revenue assur-
                                         Mail, First-Class Mail, and some Priority Mail       ance process to determine whether the Postal
                                         and periodicals are sorted at the more than 300      Service addressed government and business
                                         processing and distribution plants, while            mailers’ concerns about the identification, adju-
                                         Standard Mail is generally handled at the            dication, and collection of revenue deficiencies.
                                         21 bulk mail centers. In order to ensure timely      The revenue assurance process allows postal
                                         and accurate delivery of mail, accepting and         managers to identify lost revenue resulting from
                                         processing procedures must be state-of-the-art.      misclassified and uncollected postage and fees.
                                         Situations that result in delayed mail processing    The audit disclosed that revenue deficiency
                                         must be vigorously evaluated and the underly-        assessments were issued up to two years after
                                         ing causes must be promptly resolved. The            mail acceptance and sometimes were attribut-
                                         Postal Service continues to explore ways to          able to incorrect information provided by postal
                                         enhance the acceptance and processing of mail        employees. The audit also showed that the
                                         through innovative automation. During the            Postal Service did not place enough emphasis
                                         past six months, the OIG issued seven reviews        on preventing and correcting deficiencies and
                                         in the accepting and processing area. Some of        devoted substantial resources to the collection
                                         the more significant audits are discussed below.     of immaterial deficiencies. While the Postal


                               PAGE 50   PERFORMANCE REVIEWS
Service started several initiatives to address      of international mail as follows:
mailers’ concerns, such efforts did not fully
                                                    ◆   In the first audit, the OIG assessed the
address all the issues. The OIG recommended             condition of international mail, deter-
and Postal Service management agreed to train           mined the accuracy of mail condition
mail acceptance employees, provide mailers              reports, and evaluated the operational
with a notice of problems and recommended               status of a new International Service
solutions, and revise revenue deficiency instruc-       Center. The review disclosed that over
tions. However, Postal Service management               200,000 pieces of international mail,
did not agree with OIG’s recommendation to              some of which was unprotected, rain
develop a comprehensive management infor-               soaked, and soiled, was delayed and/or
mation system and to realign the revenue assur-         unprocessed for several days to three
ance reporting structure within districts. The          weeks. In addition, mail condition
OIG and Postal Service management plan to               reports did not include accurate quanti-
resolve the recommendation through the audit            ties or the age of mail on-hand. Also,
resolution process. (OIG AC-AR-00-003)                  the new International Service Center
                                                        Network was not ready to accept and
PREVENTIVE MAINTENANCE                                  process mail. As a result, customer com-
MAY NOT ALWAYS BE                                       plaints increased from about three per
PERFORMED                                               week to three per day. The OIG recom-
     At the request of the Postal Service’s Chief       mended and Postal Service management
Operating Officer and Executive Vice                    agreed to stage and house mail in cov-
President, the OIG audited the Preventive               ered areas, and that the new Internation-
Maintenance Program for mail processing                 al Service Center would be responsible
equipment to evaluate the data included in the          for processing all international mail.
                                                        (OIG AC-MA-00-002)
maintenance management information system
and to determine whether preventive mainte-         ◆   The OIG’s second audit assessed the
nance was performed as scheduled. The                   process of establishing International Ser-
Preventive Maintenance Program is designed to           vice Center Networks and the impact of
improve and prolong equipment life, avoid               the Economic Value Added Variable Pay
unplanned maintenance activity, and decrease            program on the processing of interna-
                                                        tional mail. The audit of this $535 mil-
the overall maintenance costs. The audit dis-
                                                        lion project disclosed that Postal Service
closed that the system did not always provide
                                                        management significantly revised the
reliable data necessary to successfully manage
                                                        project scope without requesting Board
this program. As a result, Postal Service offi-         of Governors approval. The audit also
cials could not ensure that preventive mainte-          determined that international mail was
nance was always performed as scheduled, mail           not considered in determining manager
processing interruptions were minimized, and            performance awards under the Economic
unsafe working conditions were avoided. The             Value Added Variable Pay program. The
OIG recommended and Postal Service manage-              OIG recommended and Postal Service
ment agreed to evaluate the current mainte-             management agreed to modify the pro-
nance reporting and scheduling system and               ject funding request to reflect all signifi-
assess its usefulness. (OIG AC-AR-00-001)               cant scope changes and report these              Examples of unprocessed, unprotected,
                                                        modifications to the Board of Governors.         and damaged international mail identified
PROCESSING OF INTERNATION-                              Management also agreed to examine the
                                                                                                         during an OIG audit.
AL MAIL NEEDS IMPROVEMENT                               development of goals and measurement
     The Postal Service established a network           systems for international mail.
of International Service Centers to process             (OIG AC-AR-00-005)
international mail. For FY 1999, the Postal
Service reported that it received $1.6 billion      TRANSPORTATION
from international mail services, which                  Transportation of mail is a vital part of the
accounted for 2.7 percent of the $60.4 billion in   Postal Service’s mission of binding the nation
total revenues. The OIG conducted two audits        together by providing prompt, reliable, effi-


                                                                                                           PAGE 51
                                         cient, and universal mail delivery. To fulfill this   rates for route diversions. Postal Service man-
                                         mission, the Postal Service spends in excess of       agement agreed with OIG’s recommendations
                                         $4.4 billion annually to transport mail by air,       to charge extra trip costs to originating centers,
                                         rail, and highway transportation. Most trans-         provide adequate equipment, conduct dispatch
                                         portation is provided by contractors, however,        reviews, renegotiate diversion rates, and use reg-
                                         the Postal Service operates its own trucks for        ular trips for transporting equipment.
                                         some highway routes. During the past six              (OIG TR-AR-00-008 and
                                         months, the OIG performed five transporta-            OIG TR-AR-00-009)
                                         tion-related audits, the most significant of
                                                                                               IMPROPER EXECUTIVE USE OF
                                         which are highlighted below:
                                                                                               CHAUFFEURS AND POSTAL
                                         PROPOSED CHRISTMAS AIR                                VEHICLES
                                         NETWORK COULD SAVE AN                                      The OIG audited the use of chauffeurs and
                                         ADDITIONAL $8 MILLION                                 Postal vehicles by Postal Service executives to
                                              Based on a request from Postal Service           determine whether the executives complied
                                         management, the OIG audited the dedicated             with federal law and postal policy. The audit
                                         Christmas Air Network to evaluate its effec-          disclosed improper use of official vehicles and
                                         tiveness and potential for cost savings. This         chauffeurs involving nine executives. These
                                         $137 million dedicated network is contractor-         misuses continued over prolonged periods
                                         operated and is intended to provide consistent,       because controls over vehicle use, such as daily
                                         timely, and reliable two-day service during the       logs, were either inadequate or nonexistent.
                                         Christmas season. The audit identified oppor-         The OIG recommended and Postal Service
                                         tunities to achieve an additional $8 million in       management agreed to implement controls over
                                         savings annually beyond that being proposed in        administrative vehicles. In addition, manage-
                                         a current management initiative. The audit            ment advised the OIG that they would update
                                         also offered an alternative plan that selectively     current guidance emphasizing federal law and
                                         replaced air routes between origin and hub, or        postal policy. Further, the OIG provided a sep-
                                         hub and destination, without bypassing the            arate letter requesting that the Deputy
                                         Christmas hubs. The Postal Service expressed          Postmaster General take administrative action,
                                         concern that the OIG’s plan did not meet the          including restitution, as appropriate.
                                         same parameters as their plan; however, they          (OIG TR-AR-00-010)
                                         agreed to fully analyze the OIG’s proposal for
                                                                                               DELIVERY
                                         potential implementation during Christmas
                                         2001. (OIG TR-AR-00-011)                                   Universal service—delivering mail to
                                                                                               everyone, everywhere in America, at uniform
The OIG audited the Postal Service’s     EXPENDITURES FOR HIGHWAY                              rates—is the cornerstone of the Postal Service’s
use of highway contractors to trans-     TRIPS COULD BE REDUCED                                mission. To fulfill this mission, the Postal
port mail.                                    During this reporting period, the OIG con-       Service developed a delivery network of approx-
                                         ducted two audits of expenditures for extra           imately 233,000 mail routes that are serviced by
                                         highway trips: one audit for a facility in the        nearly 300,000 letter carriers and 200,000 deliv-
                                         Southwest Area and one audit in the Mid               ery vehicles. During FY 1999, the Postal
                                         Atlantic Area. The audits determined that the         Service delivered over 200 billion pieces of mail
                                         Postal Service could reduce its expenditures by       to 130 million homes and businesses—an aver-
                                         using the proper equipment to optimize trailer        age of 1,500 pieces of mail for every household
                                         space, increasing oversight of transportation         and business in America. During the last six
                                         operations, and ensuring that expenditures are        months, the OIG issued the following report:
                                         charged to the correct facilities. In addition, in
                                         the Mid Atlantic Area, the OIG determined             MAIL DELIVERY DELAYS IN THE
                                                                                               SOUTHWEST AREA
                                         that three major processing centers could save
                                         about $2.5 million over five years by eliminating         In response to an employee allegation, the
                                         trips to move unprocessed mail and equipment          OIG audited mail delays at three Southwest
                                         and by discontinuing the payment of special           Area postal facilities and found 75,000 pieces of
                                                                                               unprocessed time-sensitive mail, such as tax


                               PAGE 52   PERFORMANCE REVIEWS
documents, insurance policies, and medical and       could increase revenues by $6 million annually
educational information. Mail accumulated            by charging the full rate of shipping and han-
because managers did not complete daily              dling costs for philatelic products sold by mail,
reviews. The audit also identified uncollected       telephone, or the Internet. In addition, the
postage and fees caused by managers not review-      OIG found that the Stamp Fulfillment Service’s
ing accumulated mail on a daily basis to ensure      performance measures were generally consistent
proper processing and delivery.                      with industry standards and accurately assessed
     The OIG suggested and Postal Service            fulfillment operations with one exception.
management agreed to take immediate action           Improvements were needed to integrate the
to correct these deficiencies. The OIG also sug-     order entry and automated fulfillment systems
gested and management agreed to determine            to provide consistent and timely processing of
whether the conditions observed during this          customer orders to help ensure organizational
review existed in other Southwest Area facili-       goals always meet industry standards.
ties. (OIG DE-MA-00-001)                                   The OIG recommended that Postal
                                                     Service management increase shipping charges
MARKETING
                                                     to cover actual costs, establish order entry pro-
     The Postal Service operates in a competi-       cessing goals that meet industry standards, take
tive environment. The Postal Service’s ability       steps to process orders more efficiently, and
to maintain or increase its market share is essen-   expand access to customer service representa-
tial to provide universal service at affordable      tives. Management agreed to reevaluate ship-
rates. During this reporting period, the OIG         ping and handling charges, but did not agree to
performed eight reviews of marketing, including      establish goals for order entry that are consistent
stamp operations. The most significant market-       with industry standards. Further, management
ing-related reviews are highlighted below:           agreed with the remaining findings and recom-
REVENUES AND COMMISSIONS                             mendations and proposed responsive solutions
PAID TO A SALES FORCE                                to address concerns identified in the report.
CONTRACTOR COULD NOT                                 (OIG MK-AR-00-001)
BE VERIFIED
                                                     POSTAL RATEMAKING PROCESS
     The OIG audited the Postal Service’s use of
                                                     SIMPLIFIED FOR CUSTOMERS
a sales force contractor to sell Postal Service
                                                          The OIG issued a report on the Postal
expedited mail products to small and medium-
                                                     ratemaking process to provide interested readers
sized businesses. The audit disclosed that the
                                                     with an easy to read guide describing the com-
Postal Service paid the contractor over $5 mil-
                                                     plex ratemaking process. The process is built
lion in commissions based on unverified
                                                     around an independent Postal Rate
reported revenue. The revenue could not be
                                                     Commission, which receives proposed new
verified because the Postal Service did not have
                                                     rates from the Postal Service Board of
an accurate system to determine whether the
                                                     Governors. The Commission conducts formal             The OIG reviewed the operations of the
number of products reported by the contractor                                                              Postal Service’s Philatelic Center located
                                                     hearings, submits opinions, and recommends
were actually mailed through the Postal                                                                    in Kansas City, Missouri.
                                                     rates for postal products and services to the
Service. The OIG recommended and Postal
                                                     Governors for final approval.
Service management agreed to recover commis-
                                                     (OIG MK-LA-00-002)
sions for unsupported revenues, establish con-
trols to ensure contractor-reported revenue          LEGISLATIVE AND REGULATORY
increases are verified, and limit program expan-     REVIEWS
sion until internal controls are established.
(OIG MK-AR-00-002)                                   ENACTED LEGISLATION

REVENUES FROM STAMP                                  Public Law 106-253 - Semipostal
FULFILLMENT SERVICES COULD                           Authorization Act
BE INCREASED                                              During this reporting period, the President
    The OIG audited Stamp Fulfillment                signed into law the Semipostal Authorization
Services and determined that the Postal Service      Act. The Act authorizes the Postal Service to


                                                                                                             PAGE 53
                                       issue semipostal stamps as fundraisers for various         The OIG has conducted an audit that
                                       charitable causes, and extends the Breast             raised concerns about the Postal Service’s abil-
                                       Cancer Research Stamp until July 29, 2002.            ity to accurately account for its costs in produc-
        DID YOU                        Semipostals are stamps that sell for more than
                                       face value. The difference between the face
                                                                                             ing and marketing semipostal stamps. The
                                                                                             Postal Service needs adequate controls in place
        KNOW?                          value and the stamp’s selling price, less the costs   to ensure that other ratepayers are not subsidiz-
                                       of producing and distributing the stamp, is           ing the costs for semipostal stamps.
                                       given to the cause depicted on the stamp. The
                                                                                             H.R. 4636 / S. 2686 -
Are all Hotline complaints con-        OIG has evaluated the Breast Cancer Research
                                                                                             Nonprofit Relief Act of 2000
                                       Stamp program, and expects to review future
fidential?                             semipostal programs to ensure their integrity
                                                                                                  This legislation would modify rates on
                                                                                             nonprofit mailings. In January 2000, the Postal
The identities of the people who       and efficiency.
                                                                                             Service Board of Governors proposed postage
make complaints or provide infor-      PROPOSED LEGISLATION                                  rate increases for all classes of mail. The rate
                                                                                             request is currently pending before the Postal
mation regarding alleged wrongdo-      Semipostal Stamp Legislation                          Rate Commission. Under the current rate
ing are kept confidential unless            Since OIG’s last Semiannual Report to            request, rates for nonprofit mail would surpass
                                       Congress, several bills providing for the             rates for corresponding commercial mail. The
the individual gives permission for    issuance of semipostal stamps have been intro-        Postal Service has proposed legislation to cor-
disclosure or if disclosure is         duced in Congress, as follows:                        rect the rate anomaly. The OIG will consider
required.                              ◆ H.R. 5269 -                                         including appropriate steps in future reviews to
                                       National Parks Preservation Stamp Act                 develop independent and objective informa-
                                                                                             tion to assist Congress in its decisionmaking.
                                       ◆ H.R. 5043 -
                                       Book Stamp Act
                                       ◆ H.R. 4872 / S. 2870 -
                                       Vanishing Wildlife Stamp Act
                                       ◆ H.R. 4492 / S. 2932 -
                                       Establishment of a World War II
                                       Memorial
                                       ◆ H.R. 4659 -
                                       Stamp Out Domestic Violence Act
                                       of 2000
                                       ◆ H.R. 4526 -
                                       American Battle Monuments
                                       Commission
                                            Each of these bills requires the Postal
                                       Service to establish a special rate of postage no
                                       higher than 125 percent of the current First-
                                       Class rate. A stamp for this amount would then
                                       be issued to publicize a worthy cause. Postal
                                       patrons who desire to support the cause
                                       depicted on the stamp would pay the higher
                                       rate to purchase the stamp. The Postal Service
                                       would give the charitable organization the
                                       amount it received over the First-Class rate, less
                                       any reasonable costs it incurred in printing, sell-
                                       ing, and distributing the stamps.




                             PAGE 54   PERFORMANCE REVIEWS
                                                          this individual was able to obtain funds
INSPECTION SERVICE                                        exceeding $150,000.
     The Inspection Service is responsible for        ◆   Postal Inspectors and Federal Bureau of
investigations that ensure the sanctity of the            Investigations agents arrested two foreign
mail. This section describes some of its work in          nationals for selling credit card conve-
the areas of mail theft and service investigations.       nience checks that were stolen from the
                                                          mail. The arrests were based on informa-
MAIL THEFT
                                                          tion obtained through undercover buys of
     Postal Inspectors are committed to reduc-            convenience checks by federal law
ing mail theft to maintain the public’s confi-            enforcement agents. These convenience
dence in the Postal Service and preserve the              checks, which were previously reported
sanctity of the mail. Postal Inspectors are cur-          stolen prior to delivery to postal cus-
rently working with major mailers to prevent              tomers, led to the arrest of a postal
mail theft and related problems. During this              employee for mail theft. The employee
reporting period, Postal Inspectors arrested              admitted to stealing credit cards from the
nearly 2,800 employees and non-employees or               mail and selling them to the suspects.
contractors for mail theft. Mail theft targets            The investigation further revealed the
include not only items of obvious value in the            two foreign nationals who were arrested
mail, such as jewelry, computers, cash, credit            had been associated with credit card con-
                                                          venience check losses that exceeded $3
cards, and checks, but mail containing personal
                                                          million.
and financial information. The following are
examples of reviews reported in the last six
                                                      EMPLOYEE MAIL THEFT
months.
                                                           The overwhelming majority of Postal            The Inspection Service enforces over
NON-EMPLOYEE MAIL THEFT                               Service employees work conscientiously to           200 statues related to crime against the
     Thieves frequently concentrate on targets        move the nation’s mail to its proper destination,   U.S. mail, the Postal Service, and Postal
that offer a large volume of mail. Inspection         and they take their responsibilities seriously.     employees and customers.
Service efforts are continuing to lessen the vul-     Unfortunately, a small number of employees
nerability of such targets to attack. There has       abuse the public’s trust. It is the job of the
been a 48 percent decrease in collection box          Inspection Service to identify these individuals
attacks over the same period last year. Examples      and take steps to have them prosecuted and
of case activity related to mail theft by non-        removed from the Postal Service. An example
employees are highlighted below:                      of case activity related to mail theft by employ-
                                                      ees follow:
◆   Members of a Mail Theft Task Force
    searched the residence of a gang leader           ◆   Postal inspectors arrested a mail handler
    and recovered approximately 2,500 pieces              at an airmail facility for theft and posses-
    of mail. Included in this mail were over              sion of U.S. Treasury checks. The
    100 credit cards and thousands of blank               employee admitted to selling checks after
    personal checks. Postal Inspectors devel-             they were obtained from an airline
    oped information during the search indi-              employee who had access to mail des-
    cating that the gang was responsible for              tined to various states throughout the
    nearly 75 attacks at postal facilities in the         United States.
    Texas area. To date, one member of the
    gang has been arrested and warrants are           SERVICE INVESTIGATIONS
    pending for others.                                    Service investigations are conducted to
◆   Members of an organized crime task force          address localized service-related concerns or to
    arrested a foreign national at a commer-          verify the accuracy and timeliness of reports of
    cial mail receiving agency. The individ-          mail processing conditions or delivery services.
    ual who was arrested assumed the identity         For example, the Inspection Service reviewed
    of a resident and opened several fraudu-          the Census 2000 mailing at selected sites and
    lent credit card and business checking            identified opportunities for improving the effi-
    accounts. Through the use of this scam,           ciency of the Census 2010 mailing.



                                                                                                            PAGE 55
PAGE 56   PERFORMANCE REVIEWS
Financial Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Financial-Related Reviews
      Contracting and Facilities Reviews
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      District and Installation Financial Audits
      Revenue Investigations
      Embezzlements




                                               PAGE 57
                                      This section highlights audits, reviews,            not in the best interest of the Postal Service.
                                      and investigations performed by the OIG             For example, the Postal Service:
                                      and the Inspection Service in the financial
                                                                                          ◆   Paid approximately $250,000 in reloca-
        DID YOU                       management area. Report numbers are
                                      shown in parentheses after the narrative,
                                                                                              tion benefits to two senior executives
        KNOW?                         as appropriate. Also, the OIG legislative
                                                                                              who moved 20 miles with no change in
                                                                                              job location. The OIG questioned
                                      and regulatory reviews are included at the
                                                                                              whether these relocation benefits were
                                      end of this section. In order to differenti-            used to augment the salary of these exec-
Why does the OIG include              ate the work reported by the OIG and                    utives and exceeded the statutory pay
inspection Service activity in        Inspection Service, the pages containing                cap. As a result, the Board of Governors
                                      the work reported by the Inspection Service             recently passed a resolution that
the Semiannual Report to Con-
                                      have been color screened.                               strengthened controls by adding reloca-
gress?                                                                                        tion benefits to the list that require
Including Inspection Service                                                                  Board approval. (OIG FR-FA-00-010)

activity in the Semiannual Report
                                     OFFICE OF INSPECTOR                                  ◆   Paid its executives miscellaneous reloca-
                                     GENERAL                                                  tion expenses of $10,000 or $25,000
to Congress provides a complete                                                               without having to document expenses


                                     T
                                              he Postal Service is a $65 billion busi-        incurred. Through benchmarking, the
accounting to stakeholders on                 ness that relies on strong financial man-       OIG found that the Postal Service paid
efforts within the Postal Service             agement controls to maximize revenue            executives up to five times more for mis-
                                     and minimize costs. In the past six months, the          cellaneous expenses than private industry
to combat fraud, waste, abuse, and   OIG has completed 130 financial management               and other government agencies. Postal
mismanagement.                       reviews. These efforts resulted in about $116            Service management agreed to develop
                                     million in questioned costs and funds put to bet-        and modify criteria used for requesting
                                     ter use. In addition, the OIG has conducted              payments and to review the expense
                                     investigations resulting in 3 convictions, 13            allowance for miscellaneous payments.
                                     arrests, 11 indictments, and investigative recov-        However, management did not agree to
                                     eries and restitution of about $10 million.              withhold miscellaneous payments until
                                     These projects add value to the Postal Service           after the executive relocates. The OIG
                                     by identifying opportunities for cost savings and        and the Postal Service plan to resolve
                                     improving financial management, contracting,             this recommendation through the audit
                                                                                              resolution process. (OIG FT-AR-00-001)
                                     and facilities practices.
                                                                                          ◆   In addition, another OIG audit found
                                     FINANCIAL-RELATED AUDITS                                 that the Postal Service made equity loss
                                          Financial-related audits examine areas that         payments to executives in accordance
                                     have significant financial implications and offer        with postal relocation policy.
                                     the Postal Service an opportunity to save                (OIG FT-AR-00-004)
                                     resources. The OIG has taken a proactive
                                     approach to identify areas that offer potential      CONTINUED INVESTIGATION OF
                                     cost savings and improve Postal operations. In       DINERO SEGURO PROGRAM
                                     the past six months, the OIG has completed           LEADS TO MORE ARRESTS
                                     over 44 financial-related audits and investiga-           Dinero Seguro (translation: “Sure Money”)
                                     tions. The most significant reviews and investi-     is a program that enables customers to wire
                                     gations are highlighted below:.                      money electronically from 870 post offices in
                                                                                          California, Texas, and Illinois to recipients at
                                     EXECUTIVE RELOCATION                                 any Bancomer (the Postal Service’s Mexican
                                     EXPENSES SCRUTINIZED                                 banking partner in this program) branch in
                                          In response to requests by Congress and the     Mexico. Following the audit of the Dinero
                                     Board of Governors, the OIG conducted several        Seguro money transfer program, which was
                                     audits on relocation benefits paid to Postal         reported in the previous Semiannual Report to
                                     Service executives and employees. Two OIG            Congress, OIG personnel continued using
                                     reviews disclosed that relocation payments were      sophisticated computer analysis techniques to


                           PAGE 58   FINANCIAL MANAGEMENT REVIEWS
review more than 500,000 transactions to iden-      FINANCIAL OPINION WORK
tify suspicious activity. The review identified a   CONTINUING
series of suspicious transactions by various             The OIG is continuing to conduct finan-
senders. This led to a joint investigation by the   cial opinion work at three accounting service
OIG and other federal law enforcement agen-         centers and the headquarters. These audits sup-
cies, which uncovered a scheme involving drug       port the independent public accounting firm’s
traffickers using the Dinero Seguro money           overall opinion of the Postal Service’s financial
transfer program to wire drug proceeds from the     statements. The results of the adjustments will
United States to Mexico. During this reporting      be reported in the next Semiannual Report to
period, four additional arrests have been made      Congress. In addition, the OIG served as co-
for distribution of controlled substances, con-     contracting officer’s representative with Postal
spiracy, and money laundering. The following        Service Finance for the work performed by the
items were seized: 40 kilograms of cocaine, over    independent public accounting firm.
15 kilograms of methamphetamines, 2 vehicles,
and over $27,000 in cash.                           COST AND REVENUE
                                                    ANALYSIS DATA GENERALLY
CONTROLS OVER MONEY                                 IN COMPLIANCE
ORDERS NEED TO BE IMPROVED                                The OIG conducted audits to observe sta-
     During FY 1999, the Postal Service sold        tistical tests for the Postal Service’s FY 2000
approximately 221 million money orders to its       Cost and Revenue Analysis in 33 districts. The
customers. The OIG conducted the following          tests are used to validate the costs and revenues
audits to assess controls over money orders:        supporting Postal rates. Although the OIG
◆   The OIG audited internal controls over          found that the data collectors generally con-
    the accounting for blank money order            ducted the tests in accordance with postal poli-
    destruction at an accounting service cen-       cies and procedures, 17 had test errors and         OIG financial-related reviews support the
    ter. The OIG found that center person-          minor weaknesses in management controls.            external auditors opinion.
    nel did not promptly update the records         The OIG issued individual reports to address
    showing the destruction of blank money          the errors and weaknesses noted and will issue a
    orders. As a result, the opportunity to         summary report providing Postal Service man-
    detect fraud was delayed at least 21            agement with recommendations to address sys-
    weeks. (OIG FT-FA-00-001)                       temic issues. (OIG FF-FA-00-001 through
◆   The OIG audited controls over the stor-         OIG FF-FA-00-033)
    age of blank money orders and imprinters
    and found they were not properly inven-         OIG ASSISTS WITH COMBATING
    toried or safeguarded. Postal Service           POTENTIAL TERRORISM
    management agreed to implement better                The OIG assisted the Federal Bureau of
    internal controls over money orders.            Investigations and the Immigration and
    (OIG FT-FA-00-001)                              Naturalization Service in the investigation of
◆   An OIG audit disclosed the Postal Ser-          individuals suspected of smuggling cigarettes to
    vice’s processes and procedures for inter-      raise money for the Hezbollah, an armed Islamic
    national list service money orders did not      group in Lebanon that the United States has
    comply with the Bank Secrecy Act,               designated as a terrorist group. The group put
    which was enacted to deter money laun-          aside several thousand dollars in cash for the
    dering. Specifically, controls and proce-       Hezbollah from the trafficking of cigarettes and
    dures were not in place to ensure that          from fund raising activities. The investigation
    personnel complied with requirements            led to the execution of 18 search warrants and      OIG identified unsecured money
    for recordkeeping and reporting to the          17 arrests. The individuals were charged in fed-    order imprinters at a Material
    Department of the Treasury. The OIG             eral court with mail fraud, money laundering,       Distribution Center.
    recommended and Postal Service man-             and immigration violations.
    agement agreed to restrict expansion of
    the service until it is compliant with the
    Bank Secrecy Act.
    (OIG FT-AR-00-002)


                                                                                                          PAGE 59
                                                             TORT CLAIMANT ARRESTED AND                                     CONTRACTING AND FACILITIES
                                                             CHARGED WITH PERJURY                                           REVIEWS
                                                                   As a result of an OIG investigation, a tort                   In FY 2000, the Postal Service purchased
                                                             claimant was indicted on perjury charges stem-                 $7.2 billion in supplies and services, equipment,
                                                             ming from a $1 million lawsuit the claimant                    transportation, and facilities. Contracts for
                                                             filed against the Postal Service. The claimant                 these services included over $572 million in
                                                             filed the lawsuit as a result of a car accident with           noncompetitive purchases and $348 million in
                                                             a Postal vehicle. Although the claimant’s car                  credit card purchases. The Postal Service is also
                                                             sustained only $63.55 in property damage, the                  one of America’s largest owners, developers, and
                                                             claimant later alleged physical and emotional                  managers of real estate, committing over $1 bil-
                                                             trauma totaling $1 million as a result of the acci-            lion in FY 2000 for repair, renovation, and new
                                                             dent. However, the claimant failed to disclose a               construction of facilities, and paying $780 mil-
                                                             prior car accident occurring the month before in               lion in rent.
                                                             which the claimant suffered substantial injuries.                   The OIG is responsible for contract audits
                                                             Sentencing is pending.                                         designed to assist Postal Service contracting
                                                                                                                            officers in determining fair and reasonable con-
Types2 and Number of                                         POSTAL CHECK DIVERTED FOR                                      tract prices, as well as providing them with
Contract Audits Initiated                                    PERSONAL USE
                                                                                                                            reviews of contractor accounting systems. In
                                                                  The OIG investigated the diversion and                    the past six months, the OIG conducted
                              4                              alteration of a Postal Service check in the                    86 reviews of contracting and facilities-related
                             CLAIMS
                                                             amount of about $192,000 issued to a contrac-                  issues with the assistance of a contract audit
                                           5
       16                                OTHER               tor. The investigation determined that the                     agency, which specializes in pre-award and
     PROPOSALS
                                                             check was diverted to an individual, altered                   post-award contract audits. Also, the OIG has
                                                             with a new payee name, and deposited into a                    many open criminal investigations targeting
                                      14                     mutual fund account. Based on OIG investiga-                   fraud and corruption in these areas. The most
                                  INCURRED COSTS
         7                                                   tive efforts, the corporation holding the mutual
      SYSTEMS                                                                                                               significant contracting and facilities reviews are
                                                             fund account refunded the amount to the Postal                 highlighted below.
                    1                                        Service.
                 DEFECTIVE
                 PRICINGS                                                                                                   CONTRACT AUDITS IDENTIFIED
                                                             BULK MAILER RETURNS POSTAL                                     OVER $56 MILLION IN
                                                             SERVICE FUNDS                                                  QUESTIONED COSTS
                                                                  The OIG and Inspection Service investi-                        In the past six months, the OIG completed
                                                             gated a bulk mailer to whom the Postal Service                 47 contract audits, resulting in over $56 million
                                                             inadvertently issued a check for about $32,000.                in questioned and unsupported costs. The
                                                             Bulk mailers are offered lower postage rates                   audits focused on whether contractors had:
                                                             based on the weight and number of pieces
                                                             mailed. These bulk mailers have an account                     ◆    Incurred costs and cost proposals that
                                                                                                                                 were allowable and reasonable.
                                                             with the Postal Service in which funds are
                                                             deducted for postage. If there is a credit balance             ◆    Submitted defective pricing data.
                                                             in the account, the Postal Service can issue a                 ◆    Accounting and billing systems that were
                                                             refund check to the mailer. In this case, the                       adequate for allocating costs to the Postal
                                                             Postal Service issued a check to the wrong                          Service.
                                                             mailer and the mailer cashed the check. When                   ◆    Estimating systems that were adequate for
                                                             the Postal Service demanded the money back                          preparing reasonable cost proposals.
                                                             via certified mail, the mailer signed for the mail
                                                                                                                            The chart in the margin shows the number of
                                                             but made no attempt to contact the Postal
                                                                                                                            audits, by type, completed in this reporting
                                                             Service. Due to the investigative efforts of both                     2
                                                                                                                            period .
                                                             agencies, the mailer reimbursed the Postal
                                                                                                                                 In addition to raising questions about costs,
                                                             Service for the full amount.
                                                                                                                            the audits disclosed that some major Postal

                                                             2
                                                               Incurred cost audits evaluate the reasonableness of costs incurred by contractors; proposal audits evaluate the rea-
                                                             sonableness of contractor cost estimates; defective pricing audits are performed to determine whether contract prices sig-
                                                             nificantly increased because of defective contractor pricing data; and contractor systems, such as accounting, estimat-
                                                             ing, and billing systems are reviewed to determine their adequacy to account for contract costs.

                                                   PAGE 60   FINANCIAL MANAGEMENT REVIEWS
Service contractors did not have adequate             were not based on proper budget data.
accounting, estimating and billing systems.           However, the proposal was prepared in
Following is a summary of 11 significant con-         accordance with Postal procurement
tract audits completed in the last six months:        requirements and is therefore considered

◆   Audits of three cost proposals submitted
                                                      acceptable to negotiate a fair and reason-              DID YOU
                                                      able contract price. Postal Service con-
    by a contractor valued at $80 million             tracting officers were still in the process             KNOW?
    disclosed questioned and unsupported              of determining whether to withhold
    costs of $15.1 million. The audit agency          questioned costs identified by this audit.
    also audited the contractor’s estimating
    system and determined that it was not
                                                      (OIG CA-CAR-00-055)                           What is the OIG’s web address?
    adequate for developing reliable cost esti-   ◆   Four audits of about $2 million in costs      The OIG’s web address is
    mates due to a lack of written policies           submitted for payment by a Postal Ser-
                                                      vice construction contractor resulted in      www.uspsoig.gov. It also can be
    and procedures, adequate cost develop-
    ment procedures, adequate training for            the full amount being questioned as to        accessed on the Postal web address,
    estimating personnel and independent or           reasonableness and allowability because
    self-governance quality assurance                 the contractor did not have adequate or       www.usps.com, by first clicking on
    reviews. The contractor agreed with               complete accounting records or systems
                                                                                                    “About USPS,” and then clicking
    these findings regarding the estimating           to support the costs. Consequently, there
    system and agreed to correct the defi-            was no assurance that the contractor’s        on “Office of Inspector General.”
    ciencies. The OIG recommended that                costs were chargeable to the Postal Ser-
    the Postal Service insert a clause in any         vice. The Postal Service contracting
    contracts negotiated based on these pro-          officer agreed with OIG’s recommenda-
    posals to allow the Postal Service to             tion to withhold payment of these costs.
    recover excess costs if the contractor’s          (OIG CA-CAR-00-020,
    actual costs were less than it had pro-            OIG CA-CAR-00-022,
    posed. Postal Service contracting officers         OIG CA-CAR-00-023, and
    were still in the process of determining           OIG CA-CAR-00-025)
    whether to withhold questioned costs          ◆   An audit of a subcontractor’s proposal in
    identified by these audits.                       the amount of $3.3 million for three
    (OIG CA-CAR-00-031,                               million mail trays resulted in the full
     OIG CA-CAR-00-041,                               amount of the proposal being questioned,
     OIG CA-CAR-00-054, and                           because the subcontractor refused to
     OIG CA-CAR-00-065)                               provide records to support the proposed
◆   An audit of a second contractor’s $294.1          costs. The Postal Service contracting
    million proposal disclosed $17.7 million          officer advised us that based on the audit,
    in questioned costs primarily due to              the subcontractor was no longer being
    overstated materials and the costs of             considered as a source for the mail trays.
    purchased parts. The OIG again recom-             (OIG CA-CAR-00-051)
    mended that the Postal Service include a      ◆   A review of a contract initially issued for
    clause in any negotiated contract based           $1.7 billion disclosed that the contractor
    on the proposal to allow recovery of              had no official estimating system in place
    excess costs if it is later found that the        for preparing reasonable costs proposals.
    company’s actual costs were less than its         At the end of this reporting period, the
    proposed costs. Postal Service contract-          OIG was reviewing the reasonableness
    ing officers were still in the process of         and allowability of additional cost claims
    determining whether to withhold                   submitted by the contractor totaling
    questioned costs identified by this audit.        about $160 million. The OIG is also
    (OIG CA-CAR-00-064)                               working with Postal Service manage-
◆   An audit of another contractor’s $224.6           ment to determine how much of an addi-
    million proposal disclosed $10.6 million          tional $265 million in claims from this
    in questioned costs. The company’s cost           contractor will be audited.
    and pricing data was considered inade-
    quate because some of its cost estimates


                                                                                                    PAGE 61
          TELECOMMUNICATIONS                                            did not agree that $19 million could have been
          CONTRACTOR PAYS AN                                            saved because the modifications were necessary
          ADDITIONAL $9.2 MILLION                                       to successfully complete the project.
          SETTLEMENT                                                    (OIG FA-AR-00-004)
                An OIG investigation and review of a $3
                                                                        WARRANTY CLAIMS FOR $1.8
          billion telecommunications contract and the                   MILLION NOT SUBMITTED FOR
          contractor’s accounting and billing process                   REIMBURSEMENT
          resulted in the Postal Service recovering
                                                                             An OIG audit of the Postal Service Tractor
          $9.2 million for outage credits3, overcharges,
                                                                        Warranty Repair Program determined that the
          and costs for defective and substandard materi-
                                                                        Postal Service had not been reimbursed over
          als and incomplete work during this semiannual
                                                                        $1.8 million for warranty repair work performed
          reporting period, bringing the total recoveries to
                                                                        by its Vehicle Maintenance Facilities. Postal
          over $12.2 million. Also, Postal Service man-
                                                                        Service officials stated that this occurred
          agement agreed to implement OIG recommen-
                                                                        because a Postal-wide claims processing system
          dations, which could avoid up to $96 million in
                                                                        had not been implemented due to computer
          overcharges over the remaining eight years of
                                                                        design and implementation problems. Postal
          the contract. (OIG FA-MA-00-007)
                                                                        Service management agreed with the OIG’s rec-
          $23 MILLION IN REPAIRS NOT                                    ommendations to recover these costs as appro-
          DETECTED PRIOR TO PURCHASE                                    priate and to establish a system to ensure that
               An OIG audit, conducted at the request of                tractor repair costs under warranty are recovered
          the vice president, Facilities, disclosed that the            in the future. (OIG CA-AR-00-001)
          Postal Service could have avoided $23 million                 2002 WINTER OLYMPICS
          in roofing, heating, and air conditioning repairs             RENOVATION PLANS WERE
          that were not detected at the time the building               INCOMPLETE
          was purchased for a Western Area processing                        Based on the results of the OIG review of
          and distribution center. This occurred because                the Atlanta Olympics facilities plan, Postal
          the Postal Service had not conducted the                      Service management requested that the OIG
          required detailed engineering study before it                 review the Western Area district facilities por-
          purchased the building. Postal Service manage-                tion of the 2002 Winter Olympics Plan. The
          ment agreed to define the requirements for engi-              audit disclosed that the costs for work to be per-
          neering studies and to establish controls to                  formed at 24 facilities were not accurately rep-
          ensure that required studies are conducted                    resented in the project funding document.
          before future acquisitions of major facilities.               Because the appropriate level of approval is
          (OIG FA-AR-00-005)                                            dependent upon the cost of the work, the pro-
          USE OF INDUSTRY CONTRACT                                      ject funding document may not have been
          MODIFICATION STANDARDS                                        approved at the appropriate level. In addition,
          COULD REDUCE COSTS                                            the project was being implemented without a
               The OIG audited the Postal Service’s                     purchase plan or project code and related costs
          major construction contracting process and                    had not been properly identified. Postal Service
          found the Postal Service incurred $19 million in              management agreed with the OIG’s recommen-
          excess costs because it had not used industry                 dations to accurately report the facilities work
          standards for modifying contract costs. These                 needed and related costs.
          standards require that modifications of the orig-             (OIG FA-AR-00-002)
          inal contract price should not exceed 5 percent               CONTRACTING OPPORTUNITIES
          for new construction and 15 percent for alter-                INCREASED FOR SMALL,
          ation projects. Postal Service management                     WOMEN-OWNED, AND
          agreed with the OIG’s recommendations to                      MINORITY BUSINESSES
          identify the cause for contract modifications                    In response to a request from the Ranking
          and reduce the dollar amount of future modifi-                Minority Member, House Postal Subcommittee,
          cations when possible. However, management
          3
              Outage credits are amounts due the Postal Service because of system failures.

PAGE 62   FINANCIAL MANAGEMENT REVIEWS
the OIG conducted a review of the Postal           ADDITIONAL $151,000
Service’s process for award of $150 million in     ADJUSTMENTS MADE TO
advertising contracts. The review disclosed        AUTOMATION CONTRACT
that the Postal Service did not require compa-          During an investigation into the produc-
nies to provide a plan to show how they would      tion and use of a flat sorting machine, the OIG
subcontract their advertising work to provide      identified potential overcharges pertaining to a
additional opportunities to minority compa-        claim submitted by the contractor. After nego-
nies. As a result of this review, Postal Service   tiations with contractor representatives, the
management agreed to require companies to          contract was reduced by $151,000. Including a
submit these plans. Thus, contracting opportu-     credit of $35,000, which was reported in the
nities could increase for small, minority, and     previous Semiannual Report to Congress, the
women-owned businesses. Further, for the           total amount reduced to date is over $185,000.
$150 million in advertising contracts awarded,
management agreed to include a clause that         CONTRACTORS’ CHARGES
would allow the Postal Service to reduce con-      QUESTIONED
tract prices as appropriate, based on OIG’s            The OIG conducted several investigations
audits of contractors’ cost proposals.             and reviews that questioned contractor charges:
(OIG CA-LA-00-001)                                 ◆   An OIG investigation disclosed that due
                                                       to a discrepancy in billing rates, a
POSTAL MANAGERS INDICTED
                                                       telecommunications company over-
ON MONEY LAUNDERING
CHARGES                                                charged the Postal Service. The over-
                                                       charges occurred as a result of the Postal
     A joint investigation by the OIG, the
                                                       Service being billed for the contractor’s
Inspection Service, and the Internal Revenue           commercial rates rather than contractual
Service disclosed that two former Postal Service       government rates. The contract was
managers devised a scheme to defraud the               adjusted to reflect credit for the billing
Postal Service of several million dollars. The         discrepancy.
Postal employees allegedly conspired with the
                                                   ◆   The OIG investigated an architectural
owner of two computer companies to submit
                                                       engineering company for billing the
fraudulent invoices to the Postal Service for          Postal Service for work not performed.
computers and supplies not received. While             The company agreed to settle the case by       Some of the expensive jewelry items
under investigation, the couple fled the United                                                       seized by OIG agents in a fraud investiga-
                                                       reimbursing the Postal Service, including
States to Venezuela. The Inspection Service                                                           tion.
                                                       interest for almost four years.
working with the Venezuelan authorities appre-
                                                   ◆   An OIG investigation identified over-
hended them in Caracas where they had been             payments to a contract airline carrier
traveling under false Venezuelan identification        that charged the Postal Service incorrect
documents. The Venezuelan government                   transportation rates on mail. As a result,
immediately deported them to the United                the airline reimbursed the Postal Service
States where they were arrested in Florida. The        for the entire amount.
couple laundered almost a half million dollars
of their ill-gotten gains to banks in Venezuela    CONTRACTORS
and the Bahamas. As of September 30, 2000,         SUSPENDED/DEBARRED
the OIG has recovered over $496,000 in cash            Two OIG investigations reported the fol-
from both countries. In addition, OIG special      lowing contractor suspensions and debarments:
agents recovered high-quality multi-carat dia-
                                                   ◆   As the result of a multi-agency task force
mond rings and earrings, gold necklaces, pearl
                                                       investigation led by the OIG, 35 envi-
necklaces, expensive watches, gold coins, gold         ronmental services contractors were sus-
pens, and imported crystal. As a result of the         pended from doing business with the
international investigation, the couple was            government. The investigation revealed
indicted on conspiracy, money laundering, and          that the contractor submitted false test-
fraud charges.                                         ing data on underground storage tanks to
                                                       the Postal Service, Department of
                                                       Defense, and other federal agencies.

                                                                                                        PAGE 63
          ◆   Based on a Congressional referral, the           POSTAL CONTRACTS
              OIG found that a contractor breached             TERMINATED FOR DEFAULT
              the terms and conditions of its contract              An OIG investigation determined that a
              for the construction of a new post office.
                                                               contractor produced substandard cabinets for
              The contractor failed to adhere to gener-
                                                               the Postal Service that did not meet contract
              ally acceptable construction and quality
                                                               specifications. As a result, eight contracts have
              control practices. The contractor was
              debarred for three years from conducting         been terminated for default. The estimated loss
              business with the Postal Service.                to the Postal Service is over $285,000.
                                                               LEGISLATIVE AND REGULATORY
          TERMINATING FACILITY LEASE                           REVIEWS
          COULD SAVE OVER $2 MILLION
                                                                    During this reporting period, the OIG did
               An OIG review confirmed allegations that        not identify any significant legislation or regula-
          the Postal Service was renting a building under      tions affecting Postal Service financial manage-
          a 20-year lease that was not being used. The         ment, contracting, and facilities areas.
          review disclosed that the Postal Service could
          save over $2 million by terminating the lease for
          the building, which had remained vacant since
          lease inception. Postal Service management
          agreed with the OIG’s recommendation and
          requested approval to sublease the unused build-
          ing. (OIG FA-MA-00-004)

          OPPORTUNITY TO ENHANCE
          INTERNAL CONTROLS OVER
          PROPERTY DISPOSAL
               At the request of a Postal Service
          Governor, the OIG reviewed property disposal
          at a Great Lakes Area postal facility and dis-
          closed that Postal Service officials may not have
          properly accounted for the property because
          they had not conducted an inventory since
          1990. In addition, the review identified oppor-
          tunities to improve information on the location
          of capital property. The results of the review are
          being considered for a more comprehensive
          property audit. (OIG FA-LA-00-002)

          POSTAL MANAGER ARRESTED
          FOR VEHICLE REPAIR SCAM
                A Postal manager in the Northeast Area
          was arrested by OIG special agents on embez-
          zlement charges. Postal vehicles are usually
          repaired by Postal vehicle maintenance facili-
          ties; however, vehicle maintenance managers
          are authorized to have contractors perform the
          work when necessary. The manager conspired
          with a contractor to repair the family’s vehicles
          at government expense. Between 1995 and
          1998, the contractor inflated bills for Postal
          vehicles by $87,000 to cover the costs of repairs
          to the manager’s personal vehicles. Judicial
          action is pending.


PAGE 64   FINANCIAL MANAGEMENT REVIEWS
                                                      plan to improve internal controls and
INSPECTION SERVICE                                    collect revenue deficiencies.
     Within the financial management area,
the Inspection Service performed District         REVENUE INVESTIGATIONS
Accounting Office and financial installation           The Inspection Service conducts revenue                  DID YOU
audits as well as revenue investigations and
embezzlement actions. (Note: As a result of
                                                  investigations to help ensure that Postal Service
                                                  revenue is properly assessed and collected.
                                                                                                                KNOW?
the Designation of Functions between the          Priority is given to investigations of alleged
Inspection Service and the OIG, the Inspection    schemes to avoid payment of postage and to
Service will no longer perform financial audits   identify, pursue, and seek prosecutive actions
                                                                                                      What should you do if you
as of October 1, 2000.)                           against violators through civil, administrative,    receive a mailing promising you
                                                  and criminal remedies.
DISTRICT AND INSTALLATION                                                                             a free prize, or if you have been
                                                       Postal Inspectors focus on revenue investi-
FINANCIAL AUDITS
                                                  gations where there is customer intent to           victimized in a free prize promo-
The Inspection Service conducted District         defraud the Postal Service. In the last six
Accounting Office audits to evaluate controls
                                                                                                      tion through the mail?
                                                  months, there were 26 arrests and 9 successful
over district accounts and the security over      criminal prosecutions resulting from revenue        You should contact your local post-
district computer systems. Inspectors also        investigations. Also, Inspectors reported the       master or the nearest Inspection
conducted financial installation audits to        results of 16 revenue investigations during this
review the adequacy of internal controls at       reporting period, which identified $27.2 million
                                                                                                      Service office.
the installation level. During this reporting     in revenue deficiencies. Examples of revenue
period, the Inspection Service reported the       investigations follow:
results of 175 financial installation and Dis-    ◆   The president and the production man-
trict Accounting Office audits. Two exam-             ager of a presort company were indicted
ples are noted below:                                 on charges of mail fraud. The indict-
◆ A financial audit of a Processing and               ment alleged that the two individuals
     Distribution Center identified deficien-         defrauded the Postal Service through a
     cies in trust fund management. The               series of postage schemes. Because the
     audit identified a $498,000 variance in          two individuals represented a potential
     accounting systems in trust funds for            flight risk, the U.S. Attorney’s office
     postage due business reply mail. District        ordered their arrest the day following the
     and local employees were unaware of the          indictments. In addition to the criminal
     variance, its source, or how long the            charges involved, the government also
     system had been out of balance. Postal           filed a civil suit against the individuals,
     Service management agreed with the               seeking damages and penalties of over
     findings and recommendations to                  $23 million.
     strengthen internal controls over the        ◆   The owner of an area mailing service was
     management of customer trust funds.              arrested for tampering with a postage
◆   A financial audit of a Business Mail              meter, resulting in losses to the Postal
    Entry Unit identified over $14,000 in             Service of $2.1 million. The owner
    revenue deficiencies. Postal Inspectors           made a counterfeit key that provided
    found that procedures were insufficient           access to the meter’s inner workings.
    to ensure that mailing statements were            The owner pled guilty to an 18-count
    controlled, required reviews were con-            indictment, and sentencing is pending.
    ducted, bypass mailings were identified,      ◆   The president and owner of a presort
    and revenues were collected. Improved             company was indicted on charges of mail
    procedures and regular review of Periodi-         fraud, false statements, and conspiracy.
    cals, First-Class, and Standard Mail              The indictment charged that the owner
    would prevent revenue losses caused by            deliberately disguised large volumes of
    errors. Postal Service management                 mail, resulting in losses to the Postal
    agreed with Inspection Service                    Service of $1.3 million.
    recommendations and began an action



                                                                                                      PAGE 65
          ◆   A direct mail company executed a 13-            ◆   A postal clerk pled guilty to misappropri-
              month meter-tampering scheme, which                 ation of funds and income tax evasion in
              caused the Postal Service to lose at least          an embezzlement case where the Postal
              $547,000. One of the company’s                      Service lost $725,000. The Postal
              employees created a special tool to defeat          employee manipulated the postage vali-
              the meter’s security features. A civil suit         dation imprinter accounts in the Inte-
              filed against the company’s owner                   grated Retail Terminal system. The
              resulted in the recovery of $450,000.               employee resigned from the Postal Ser-
                                                                  vice and has made full restitution to the
          EMBEZZLEMENTS                                           Postal Service in the amount of
               Embezzlement is fraudulently appropriating         $725,000.
          property for individual gain. Within the Postal     ◆   A federal grand jury returned a 12-count
          Service, under the revised Designation of               indictment against a former postmaster
          Functions, embezzlements under the primary              for mail fraud, embezzlement and making
          jurisdiction of the Inspection Service include          false entries when issuing postal money
          stealing from cash drawers by Postal Service or         orders. The former postmaster was
          contractor employees; kiting schemes involving          charged with embezzling over $60,000 in
          postal money orders or falsified financial              money order. The postmaster pled guilty
          records; and the theft of merchandise from retail       and was sentenced to six months home
          stores.                                                 detention, three years probation, and a
                                                                  fine.
               Postal Inspectors investigated 97
          employee embezzlements this reporting period,
          which documented losses of $1.9 million.
          Examples of Inspection Service embezzlement
          activities follow:
          ◆   An analysis of trust fund revenue
              accounts and deposits at a post office dis-
              closed a possible embezzlement of funds
              by the postmaster. An investigation con-
              ducted by Postal Inspectors identified the
              postmaster as the subject responsible for
              the embezzlement of more than $672,000
              over a period of 14 years. The postmas-
              ter admitted purchasing seven new per-
              sonal vehicles and a condominium with
              the postal funds.




PAGE 66   FINANCIAL MANAGEMENT REVIEWS
Technology Reviews




   OFFICE OF INSPECTOR GENERAL
        Developmental Reviews
        Computer Security
        Electronic Commerce
        Computer Intrusion Detection Activities
        Legislative and Regulatory Reviews

   INSPECTION SERVICE
        Electronic Commerce




                                              PAGE 67
                                                                                               and has completed six audits of major projects
                                           This section highlights audits, reviews,
                                                                                               currently under development during the report-
                                           and investigations performed by the OIG
                                                                                               ing period. Some of the most significant reviews
                                           and the Inspection Service in the
                                                                                               are highlighted below:
                                           technology area. Report numbers are
                                           shown in parentheses after the narrative,           INFORMATION INFRASTRUCTURE
                                           as appropriate. Also, the OIG legislative           DOES NOT SUPPORT STRATEGIC
                                           and regulatory reviews are included at              GOALS
                                           the end of this section. In order to                     The OIG audited the Postal Service’s
                                           differentiate the work reported by the              efforts to develop and integrate its information
                                           OIG and Inspection Service, the pages               infrastructure in early planning phases to assess
                                           containing the work reported by the                 the justification, management controls, fund-
                                           Inspection Service have been color                  ing, and integration. The infrastructure, esti-
                                           screened.                                           mated at $2.3 billion, integrates the core
                                                                                               business areas of receiving, processing, trans-
                                                                                               porting and delivering mail for resource man-
                                          OFFICE OF INSPECTOR                                  agement and decisionmaking.
                                                                                                    The audit disclosed that the Program was
                                          GENERAL                                              not fully aligned with the Postal Service’s strate-
                                               The Postal Service recognizes that technol-     gic goals and plans, expected benefits were not
                                          ogy, including electronic commerce, is key to        adequately supported, a comprehensive funding
                                          productivity and affordability. Through tech-        strategy was not completed, and other business
                                          nology, the Postal Service is able to deliver more   areas impacting the Program were not appropri-
                                          than 650 million pieces of mail every day and        ately integrated. Postal Service management
                                          maintain its network of over 38,000 post offices     agreed with the OIG’s recommendations to
                                          and facilities. Its technology strategy is to pro-   enhance management of the Information
                                          vide convenient access to all customers on a         Platform Program. (OIG DA-AR-00-004)
                                          daily basis through increasingly sophisticated
                                          retail systems, expansion in new electronic          RETAIL SYSTEM NOT
                                                                                               PERFORMING AS PLANNED
                                          access channels, and electronic linkages that
                                          integrate customer and postal processes. In               The OIG conducted a series of audits on
                                          addition, the Postal Service is using modern         developing and deploying the $500 million
OIG reviewed a new Point of Service ONE   technology (eCommerce initiatives) to improve        Point of Service ONE system. The Point of
System which replaced aging and obso-     and build on its existing services and relation-     Service ONE system, which has been imple-
lete integrated retail terminals.
                                          ships with customers, to continue filling the        mented in stages, is the new Postal Service retail
                                          needs that the Postal Service has traditionally      system intended to replace aging and outdated
                                          served.                                              integrated retail terminals at the windows of
                                               OIG technology reviews encompass                post offices. During the last six months:
                                          developmental systems, computer security, and        ◆   The OIG audited the stage two deploy-
                                          electronic commerce, in addition to computer             ment of the Point of Service ONE system
                                          intrusion detection activities. In the past six          and found that the Postal Service has
                                          months, the OIG performed thirteen reviews in            made significant progress in developing,
                                          the technology area. Significant reviews are             deploying, and improving the Point of
                                          highlighted below:                                       Service ONE system since OIG’s previ-
                                                                                                   ous audit. However, the system being
                                          DEVELOPMENTAL REVIEWS                                    deployed has not met all contract
                                               The Postal Service is developing numerous           requirements or the functionality origi-
                                          business systems and types of mail processing            nally envisioned. The OIG recommend-
                                          equipment that will improve performance,                 ed and Postal Service management
                                          enhance service, and reduce operating costs.             agreed to incorporate lessons learned
                                          The OIG understands the importance of                    from the project in future retail systems
                                          reviewing these systems as they are developed            development, develop a contingency



                              PAGE 68     TECHNOLOGY REVIEWS
    plan for network failures, and record help      COMPUTER SECURITY
    desk calls. However, management did
                                                         The Postal Service relies on a massive
    not agree with the OIG’s recommenda-
                                                    computer infrastructure to accomplish and
    tion to provide electronic backup of
    retail transactions. The OIG and Postal         streamline operations, manage one of the
    Service plan to resolve this recommenda-        largest civilian workforces in the world, and
    tion through the audit resolution process.      move billions of pieces of mail each year. To
    (OIG DA-AR-00-006)                              bolster its position as a major participant in
                                                    electronic commerce, the Postal Service has
◆   The OIG evaluated the deployment of
                                                    initiated several information technology pro-
    the Point of Service ONE system to
    determine its impact on the financial           jects to enhance efficiency and revenue.
    accounting system used to report retail         However, computer security needs to be main-
    discrepancies. The audit disclosed that         tained and improved to reduce the risk of fraud,
    the accounting system contained over            inappropriate disclosure of sensitive data, and
    62,000 unresolved adjustments that              disruption of critical operations and services. A
    totaled $61.8 million and were up to 11         comprehensive review is highlighted below:
    years old. These adjustments were gener-
    ated at both Point of Service ONE and
                                                    COMPUTER SECURITY REQUIRES
                                                    HIGHER PRIORITY
    integrated retail terminal sites. The
    adjustments resulted from untimely clear-             The OIG audited the Postal Service’s com-
    ance of discrepancies before deploying          puter security program to determine whether a
                                                    comprehensive program has been established to        OIG’s audit identified strengths and rec-
    the new system and delays in resolving
                                                                                                         ommended improvements for the MERLIN
    clerks’ discrepancies that could not be         protect automated assets and sensitive data.
                                                                                                         system.
    cleared until grievance-arbitration cases       The audit disclosed that managers needed to
    were resolved. In addition, because the         develop a more comprehensive integrated com-
    system automatically detects discrepan-         puter security program and make computer secu-
    cies, the number of accounting adjust-          rity a higher priority. The audit also disclosed
    ments increased. Postal Service manage-         that Postal Service managers were not fully
    ment agreed with the OIG’s recommen-            aware of their responsibilities for computer secu-
    dations to review the best method for           rity and did not place emphasis on planning and
    resolving accounting adjustments and            budgeting for computer security. Further, poli-
    communicate the results of grievance-
                                                    cies and procedures for computer security were
    arbitration cases to district accounting
                                                    not developed, implemented, and kept current.
    officials. (OIG DA-AR-00-005)
                                                    Finally, the OIG identified technology and
NEW SYSTEM FOR VALIDATING                           staffing issues involving the lack of background
BULK MAIL COULD BE                                  clearances and experience levels and the diffi-
IMPROVED                                            culty in attracting and retaining qualified secu-
     The OIG audit evaluated the functional         rity personnel because of salary constraints. In
capabilities, consistency, and reliability of the   this report, the OIG agreed to management’s
preproduction of the Postal Service’s system        alternative proposal to a six-month trial place-
designed to automate the acceptance and veri-       ment of the national security group within the
fication of bulk business mail, known as the        office of the Chief Technology Officer. The
Mailing Evaluation, Readability, and Lookup         national security group is the corporate-level
Instrument (MERLIN). The audit disclosed            organization responsible for the creation, and
that the system should be generally successful      administration of computer security policy
and provide a consistent and reliable technol-      postal-wide. The OIG originally recommended
ogy for mail acceptance. However, improve-          placing that group within the office of the
ments are needed to avoid erroneous reporting       Deputy Postmaster General. Therefore, the
and the potential loss of postal revenue. Postal    OIG plans to conduct a follow up security
Service management agreed to work with the          review to determine whether the agreed upon
vendor to address the OIG’s issues.                 actions address the issues identified in this
(OIG DA-AR-00-003)                                  report. (OIG IS-AR-00-004)



                                                                                                          PAGE 69
                                        ELECTRONIC COMMERCE                                    COMPUTER INTRUSION
                                             Businesses worldwide are facing threats and       DETECTION ACTIVITIES
                                        opportunities presented by electronic com-                  The OIG Computer Intrusion Team inves-
                                        merce. Like many other businesses, the Postal          tigates violations of federal law pertaining to
                                        Service is expecting little or no growth in its tra-   computer activity, such as the Computer Fraud
                                        ditional markets (e.g., First-Class Mail) and rec-     and Abuse Act. Law enforcement activities
                                        ognizes the need to add new revenue sources            include developing and implementing intrusion
                                        and provide systems and services to meet sup-          detection systems for law enforcement purposes,
                                        plier and customer needs.                              working with Postal management in responding
                                             One major initiative the Postal Service           to computer-based attacks, and conducting
                                        recently implemented is called eBillPay, which         criminal investigations of attacks.
                                        allows customers to pay their bills online             OIG ASSISTS IN INSTALLING
                                        through a central, secure Internet website. The        INTRUSION DETECTION SYSTEMS
                                        Postal Service recently launched other initia-              The OIG worked with Postal Service man-
                                        tives such as Electronic Postmark and Post             agement to install Intrusion Detection Systems
                                        Electronic Courier Service, and continues to           within Postal Service networks in order to
                                        build a strong Internet presence in hopes of           determine whether Postal systems are being
                                        becoming the carrier of choice for merchandise         intentionally compromised or crippled by exter-
                                        purchased on the Internet. The Postal Service,         nal or internal users. These systems will allow
The USPS webpage at usps.com            however, faces a formidable challenge in imple-
provides information on the new                                                                management to identify threats and assist the
                                        menting electronic commerce strategies for the         OIG to quickly respond to threats related to tra-
eBillPay program and other emerging
electronic commerce initiatives.        new century. Clearly, the advent of electronic         ditional mail operations as well as sophisticated
                                        commerce will forever change the way the               eBusiness applications containing sensitive cus-
                                        Postal Service conducts business.                      tomer information.
                                             The OIG is committed to helping the
                                        Postal Service meet this challenge. The OIG            OIG TESTS SECURITY OF POSTAL
                                        has established a separate electronic commerce         COMPUTERS
                                        team directly involved in day-to-day consulta-              The OIG began testing postal networks
                                        tion and review of electronic commerce initia-         and eBusiness applications to ensure they are
                                        tives, and has a number of other teams available       reasonably secure. The OIG uses proven soft-
                                        to perform related reviews and investigations.         ware, hardware, and hacker tools that report
                                        The OIG will continue to evaluate the Postal           both the security holes and the ways to fix them.
                                        Service’s efforts to move successfully and             These tests are designed to identify unautho-
                                        securely into the electronic marketplace of the        rized modems, which can allow new ways to
                                        21st century. The most significant review is           gain unauthorized access to a computer net-
                                        highlighted below:                                     work. Once vulnerabilities are known, the OIG
                                                                                               informs Postal Service management of the vul-
                                        NEW ONLINE PAYMENT SYSTEM                              nerabilities so they can make business decisions
                                        REVIEWED FOR SECURITY AND
                                                                                               about the level of risk they are willing to toler-
                                        PRIVACY REQUIREMENTS
                                                                                               ate on a network or application. Rigorous test-
                                             The OIG audited the implementation of
                                        the Postal Service’s online bill presentment and       ing of eBusiness computer systems prior to their
                                        payment system, to determine whether the               exposure to the Internet is a routine exercise for
                                        Postal Service met information system security         prudent businesses.
                                        and federal privacy requirements. The audit dis-
                                        closed that the Postal Service should adjust its
                                        policies and procedures to meet the needs of
                                        electronic commerce partnerships and alliances
                                        and better address computer and network secu-
                                        rity and privacy issues. Postal Service manage-
                                        ment generally agreed with the OIG’s
                                        recommendations and initiated corrective
                                        actions during the audit. (OIG EC-AR-00-001)


                              PAGE 70   TECHNOLOGY REVIEWS
OIG ASSISTS THE POSTAL                               this law and include appropriate steps in future
SERVICE WITH DEVELOPING                              reviews to develop independent and objective
A COMPUTER INCIDENT                                  information to assist Congress in its decision-
RESPONSE TEAM                                        making.
     The OIG has assisted Postal Service man-
                                                     PROPOSED LEGISLATION
agement with developing a Postal Computer
Incident Response Team as well as the processes      S. 1912 - Electronic Commerce Tech-
to support the Response Team’s handling of           nology Promotion Act
computer security incidents. The Response                  This legislation is designed to facilitate the
Team, based at the National Systems Security         growth of electronic commerce and to signal
Center, will prioritize incidents as they occur      strong support of the electronic commerce mar-
and engage the OIG’s team of computer intru-         ket by promoting its use within federal govern-
sion investigators when criminal activity is sus-    ment agencies and small and medium-sized
pected. As the Response Team continues to            businesses. This legislation does not apply to
become the focal point for protecting the            the Postal Service. However, it has the poten-
integrity, confidentiality, and availability of      tial to diminish postal revenue as more individ-
Postal networks, Postal Service operations and       uals and businesses use electronic
eBusiness initiatives will remain successful even    communications instead of First-Class Mail.
as the number of network security incidents          The OIG will continue to monitor this legisla-
continue to rise across the Internet.                tion and will include appropriate steps in future
                                                     reviews to develop independent and objective
LEGISLATIVE AND REGULATORY                           information to assist Congress in its decision-
REVIEWS                                              making.
ENACTED LEGISLATION                                  H.R. 4516 - Treasury/Postal Appropri-
Public Law 106-229 - The Electronic                  ations Bill
Signature in Global and National                          This legislation, in addition to the routine
Commerce Act                                         postal appropriation for free and reduced rate
     Congress recently enacted the Electronic        mail and prior year losses, requires Inspectors
Signature in Global and National Commerce            General to submit a report to Congress disclos-
Act, which promotes the use of electronic sig-       ing agency activity on using computer software
natures and enacts a federal law prohibiting         cookies. Cookies collect, review, or create lists
states from discriminating against entities con-     containing personally identifiable information
ducting business using electronic communica-         about individuals who access the agency’s
tion and signatures. Government agencies are         Internet website. The report to Congress would
encouraged to use electronic records and signa-      also include whether the agency entered into
tures, but can still require paper documents and     any agreements with third parties to obtain per-
written signatures if they establish a compelling    sonally identifiable information. The OIG has
governmental interest relating to law enforce-       initiated an audit to determine how the Postal
ment or national security.                           Service collects and uses sensitive information
     This law does not apply to the Postal           from customer web-based transactions.
Service. However, the Postal Service antici-         S. 1993 - Reformation of Government
pates a decline in postal revenue as more indi-      Information Security by Strengthening
viduals and businesses use electronic                Information Security Practices
communications instead of First-Class Mail.          Throughout the Federal Government
This legislation calls for a study on the effec-         This proposed legislation amends the
tiveness of electronic delivery versus documents     Paperwork Reduction Act. Although the
delivered via the mail, which could highlight        Paperwork Reduction Act does not apply to the
the potential loss in First-Class Mail revenues as   Postal Service, a specific provision, referencing
a result of increasing reliance on electronic        the Government Performance and Results Act,
commerce. The OIG will continue to monitor           would require the Postal Service to mention its


                                                                                                            PAGE 71
                                     information security efforts in its annual strate-
                                     gic plan. The OIG will continue to monitor
                                     this legislation and take appropriate steps once
        DID YOU                      it is enacted.

        KNOW?                        OFFICE OF MANAGEMENT AND
                                     BUDGET REQUESTS
                                     eGovernment Initiative
Does the OIG investigate                   The Office of Management and Budget
                                     recently solicited comments from federal agen-
individual labor management          cies at the request of the Chairman and the
complaints?                          Ranking Member of the Senate Governmental
                                     Affairs Committee, regarding various
Generally, the OIG does not          eGovernment initiatives. The OIG commented
review individual employee           on one of the initiatives, “Free Digital
                                     Certificate Availability for All Citizens,” which
complaints; however, the OIG
                                     stated that the Postal Service had developed a
has conducted reviews of some        digital certification process that would allow
complaints to develop an under-      certificate holders to send and secure electronic
                                     mail free of charge.
standing of the postal culture and         The OIG is unaware of any Postal Service
employee concerns.                   plan to provide this free service. Further, the
                                     OIG suggested that any digital signature pro-
                                     gram proposed by the federal government must
                                     include the implementation of a public key
                                     infrastructure to enable the digital signature to
                                     effectively replace handwritten signatures.
                                     Without a reliable infrastructure, the authentic-
                                     ity of digital signatures could be in doubt.
                                           The OIG believes that the Inspector
                                     General community should generally support
                                     eGovernment initiatives as a way to provide
                                     greater access to government information and
                                     service. However, the program should be care-
                                     fully reviewed to determine whether the transi-
                                     tion from paper-based to electronic transactions
                                     has unintentionally compromised or removed
                                     critical internal controls that are designed to
                                     detect and deter fraud in government programs.

                                     DUAL ROLES
                                          The OIG is responsible for conducting
                                     audits and reviews of developmental programs,
                                     eCommerce, and overall information systems of
                                     the Postal Service. In addition, the OIG inves-
                                     tigates violations of federal law pertaining to
                                     computer activity. The Inspection Service is
                                     responsible for assuring the security of the Postal
                                     Service’s products and services that involve
                                     technology.




                           PAGE 72   TECHNOLOGY REVIEWS
INSPECTION SERVICE
     The Inspection Service plays an important
role in the support of Postal Service eCommerce
initiatives and technical applications. The
Inspection Service monitors and reviews the
security of individual systems before and after
implementation, this includes eCommerce ini-
tiatives.
ELECTRONIC COMMERCE
     The Inspection Service monitors the devel-
opment of new postal electronic products and
services and consults with Postal Service man-
agers on the capabilities for security, loss preven-
tion, revenue protection, and data retention.
Members of the Inspection Service have devel-
oped and conducted training on computer
crimes, particularly those involving the Internet,
and provide program management and guidance
to field divisions conducting online investiga-
tions.
     The Inspection Service continues to review
security clearance requirements for the Postal
Service’s new electronic product, eBillPay. The
Inspection Service is evaluating the risks associ-
ated with contractor employees having access to
sensitive customer information.




                                                       PAGE 73
PAGE 74   TECHNOLOGY REVIEWS
Labor Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Violence in the Workplace
      Workplace Climate
      Health Care
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Workplace Climate
      Postal Robberies
      Drugs in the Workplace
      Workers’ Compensation




                                           PAGE 75
                                         This section highlights audits, reviews, and           improve the work environment, the Postal
                                         investigations performed by the OIG and                Service commissioned a workplace safety study.
                                         the Inspection Service in the labor                    The study reported that Postal Service employ-
                                         management area. Report numbers are                    ees believed they were at greater risk than the
                                         shown in parentheses after the narrative,              average worker in the United States to be a vic-
                                         as appropriate. Also, the OIG legislative              tim of workplace violence; however, they were
                                         and regulatory reviews are included at the             no more likely to be victims of violence than
                                         end of this section. In order to differentiate         employees in the national workforce. The OIG
                                         the work reported by the OIG and                       contributed to the study by providing the
                                         Inspection Service, the pages containing               Commission with information and other assis-
                                         the work reported by the Inspection Service            tance as requested. The study reinforced and
                                         have been color screened.                              referenced many of the OIG’s findings regarding
                                                                                                workplace violence and recommendations to
                                                                                                prevent violence and improve the work envi-
                                         OFFICE OF INSPECTOR                                    ronment. During this reporting period, the
                                         GENERAL                                                OIG completed 12 reviews of workplace vio-
                                                                                                lence issues, several of which are presented
                                              The Postal Service has characterized labor
                                                                                                below:
                                         management as one of the most important chal-
                                         lenges in achieving its goals in the 21st century.     IMPROVEMENTS COULD BE
                                         To operate effectively in a rapidly changing           MADE IN THE VIOLENCE
                                         environment, the Postal Service has recognized         PREVENTION AND RESPONSE
                                         the need to give employee issues a higher prior-       PROGRAM
                                         ity and enhance each employee’s contribution                 In a series of reviews, the OIG examined
                                         to organizational performance. The OIG sup-            the Postal Service’s Violence Prevention and
                                         ports the Postal Service in its overall goal of fos-   Response Program to assess the adequacy of pro-
                                         tering an inclusive and welcoming workplace            gram criteria and the program’s implementation
                                         consistent with the Postal Service values of fair-     in six Southeast Area districts and one
                                         ness, opportunity, safety, and security.               Southwest Area district. These reviews dis-
                                              The labor management area includes issues         closed that the criteria were adequate to assist
                                         involving workplace violence, workplace cli-           management in reducing the risk of workplace
                                         mate, workplace safety, and health care. While         violence and to effectively respond to workplace
                                         the OIG has worked diligently and closely with         disruptions. However, the reviews disclosed
                                         the Postal Service and Congress to address these       that although all seven district offices had estab-
                                         issues, labor management continues to be one of        lished threat assessment teams, two of the dis-
                                         the OIG’s greatest challenges. The OIG has             tricts did not establish violence prevention
                                         received over 2,800 individual labor manage-           programs and threat assessment teams until two
                                         ment complaints since its inception. Because of        years after the implementation date. In addi-
                                         the emotional involvement, potential financial         tion, four districts did not have customized
                                         impact, and the length of time it takes to resolve     threat assessment plans at each facility to fully
                                         these complaints, the OIG’s involvement in this        monitor individual threats through resolution.
                                         area must be meaningful. During this reporting         The OIG recommended and Postal Service
                                         period, the OIG conducted 55 reviews in the            management generally agreed to improve con-
                                         labor management area.                                 trols to ensure the effectiveness of the violence
                                                                                                prevention and response programs.
                                         VIOLENCE IN THE WORKPLACE                              (OIG LB-AR-00-003 through
The Postal Service has prepared a             Both the OIG and the Postal Service are
Crisis Management Plan to help postal
                                                                                                OIG LB-AR-00-010)
managers prepare for and handle          dedicated to preventing violence and consider
                                         early intervention and cooperation with man-           OIG EVALUATES ALLEGATIONS
crisis situations.
                                                                                                OF HOSTILE WORKING
                                         agement and employee groups essential.
                                                                                                ENVIRONMENTS
                                         Recognizing that workplace stress was an issue
                                                                                                    The OIG reviewed several allegations of
                                         and comprehensive steps were needed to


                               PAGE 76   LABOR MANAGEMENT REVIEWS
hostile working environments at Postal Service      managers estimated that bonuses might be
facilities.                                         about $325 million at the same time the Postal
                                                    Service is requesting a rate increase, projecting
◆   An OIG review of a district facility work
    environment identified a confrontational        a negative net income, and considering a reduc-
    and hostile workplace climate that had          tion in workforce. The OIG is continuing to
    the potential for violence. Specifically,       analyze the reasonableness of the formula used
    the OIG found evidence of confronta-            to calculate bonus payments under the variable
    tional communication styles, verbal             pay program. (OIG LB-AR-00-001)
    abuse, and aggressive management prac-
                                                    HEALTH CARE
    tices, including threatening and intimi-
    dating behavior. Management agreed to                 In FY 2000, the Postal Service paid over
    provide training to improve communica-          $670 million for employee injury claims, a $90
    tions, work with union officials to             million increase over the $580 million paid in
    improve labor management relations,             FY 1999. Controlling injury claims costs con-
    provide diversity training, and continue        tinues to be a key to the Postal Service’s finan-
    assessing workplace climate issues              cial well-being because the Postal Service is
    through meetings with facility manage-          self-insured for workers’ compensation costs and
    ment and employees.                             makes payments out of operating funds, which
    (OIG LB-FR-00-001)                              directly affects the Postal Service’s net income.
◆   A separate OIG review at a district facili-           The OIG assists in protection of the health
    ty confirmed allegations that a supervisor      and welfare of the Postal Service’s workforce by
    was harassing employees. However, the           conducting audits and investigations to prevent
    OIG found that district and local man-          and detect fraud, waste, abuse, and mismanage-
    agement had already investigated the            ment related to Postal Service health care pro-       To assist Postal managers in respond-
    allegation and had disseminated informa-        gram costs. As part of its investigative program,     ing to threats of violence, the Postal
    tion to the facility to raise awareness and     the OIG has initiated proactive projects to           Service has issued guidance on how to
    enforce postal policy regarding inappro-                                                              prepare for and handle these difficult
                                                    identify improper billing practices, such as false    situations.
    priate behavior. (OIG LR-LA-00-002)             claims and false statements by health care
                                                    providers. OIG audit efforts include evaluating
WORKPLACE CLIMATE
                                                    the increase in medical costs within the injury
     The Postal Service believes that signs of      compensation program. In the past six months,
workplace stress are present and that comprehen-    the OIG completed ten reviews. Some of the
sive steps are needed to improve the workplace      OIG’s more significant initiatives in this area
climate, including aligning human resources with    are highlighted below:
business requirements. In addition, the Postal
Service implemented the Postal Employees’           HEALTH CARE SWINDLERS
Safety Enhancement Act in September 1998 to         PROSECUTED
comply with Occupational Safety and Health               As a result of a task-force investigation that
Act requirements, which include monetary            included the OIG, four individuals were
penalties for noncompliance. To assist the Postal   arrested during this reporting period and
Service in this area, the OIG conducted several     charged in state court for violations related to
reviews of workplace climate and conditions, one    health care fraud. The individuals allegedly
of which is highlighted below:                      fabricated or stole employee health insurance
                                                    information from the Postal Service and the
ECONOMIC VALUE ADDED                                state of Florida government to generate and
VARIABLE PAY PROGRAM
                                                    submit fraudulent claims to the Federal
REVIEWED
                                                    Employees’ Health Benefits Program, the
     The OIG reviewed the Economic Value
                                                    Florida State Medicaid Program, and other pri-
Added Variable Pay Program, under which
                                                    vate insurance companies. These claims
bonuses are calculated for approximately 84,000
                                                    resulted in payments to the individuals of $20
executive and administrative employees each
                                                    million. In addition, under the federal asset for-
year. The OIG disclosed that Postal Service
                                                    feiture laws, the OIG seized a 1996 sports utility


                                                                                                            PAGE 77
                                            vehicle that had been purchased with ill-gotten     plaints filed with the agency by employees, for-
                                            gains. Three individuals have pled guilty.          mer employees, or applicants for employment
                                            Judicial action is pending against the remaining    with the agency.
                                            individual.                                              This legislation directs the Equal
                                                                                                Employment Opportunity Commission to post
                                            PSYCHOTHERAPY SERVICES
                                                                                                on its website summary statistical data relating
                                            RENDERED BY UNLICENSED
                                            PROVIDER                                            to: (1) hearings requested before an administra-
                                                                                                tive judge of the Commission on complaints
                                                 An OIG joint investigation resulted in the
                                                                                                involving the agency, and (2) appeals filed with
                                            indictment and arrest of a health care provider
                                                                                                the Commission from final agency actions on
                                            for billing psychotherapy services the physician
                                                                                                such complaints. This legislation, which is not
                                            was not licensed to perform. The investigation
                                                                                                expected to have a major impact on the Postal
                                            determined that the provider falsely claimed
                                                                                                Service, will be monitored by the OIG and con-
                                            that a physician provided or supervised the psy-
                                                                                                sidered for inclusion in future reviews.
                                            chotherapy sessions.
                                                                                                H.R. 3842 / S. 2703 -
                                            INJURY COMPENSATION
                                            PROCESS COULD BE IMPROVED                           Postmasters Fairness and Rights Act
                                                                                                     This bill amends the provisions of Title 39,
                                                 Based on a congressional inquiry, the OIG
                                                                                                United States Code, relating to the manner in
                                            identified opportunities for improving the
                                                                                                which pay policies, schedules, and fringe benefit
                                            Postal Service limited duty program in one of its
                                                                                                programs for postmasters are established. The
                                            districts by providing training to supervisors,
                                                                                                legislation would require the Postal Service to
                                            explaining the importance of completing injury
                                                                                                propose changes in pay policies, schedules, and
                                            claim forms properly, and segregating payment       fringe benefit programs for postmasters, within
                                            responsibilities for contract physicians. While     45 days of the date on which a collective bar-
                                            the limited duty program was generally effec-       gaining agreement is made with the largest
                                            tive, district officials agreed with OIG recom-     Postal union. The bill provides for arbitration
                                            mendations to establish procedures to improve       should the postmasters and the Postal Service
                                            the program. (OIG LB-AR-00-002)                     be unable to reach agreement. The bill also
                                            HEALTH CARE PROVIDER REIM-                          defines “postmaster” and “postmasters’ organiza-
                                            BURSES THE POSTAL SERVICE                           tion” and gives the postmasters’ organizations
                                                 The OIG and the California Department          the right to participate in the planning and
OIG agents seize a sport utility vehicle                                                        development of pay policies and schedules,
                                            of Insurance conducted a joint investigation
under the federal asset forfeiture laws                                                         fringe benefit programs, and other programs
                                            concerning health care providers who billed the
during a health care fraud investigation.                                                       relating to supervisory and other managerial
                                            Postal Service for workers’ compensation
                                                                                                employees. This legislation is expected to have
                                            claims. During the investigation, an overpay-
                                                                                                an impact on Postal Service negotiations with
                                            ment to a provider was identified. The provider
                                                                                                management associations.
                                            reimbursed the Postal Service and the investi-
                                            gation is ongoing.                                  DUAL ROLES
                                            LEGISLATIVE AND REGULATORY                               The OIG has investigative and oversight
                                            REVIEWS                                             authority for issues involving health care within
                                                                                                the Postal Service, including the Workers’
                                            PROPOSED LEGISLATION                                Compensation Program. Unlike other federal
                                                                                                agencies, the Postal Service pays workers’ com-
                                            H.R. 4362 -                                         pensation claims from postal revenues versus
                                            Equal Employment Opportunity                        appropriations, thereby affecting the Postal
                                            Complaint Data Disclosure Act                       Service’s net income. The OIG investigates
                                                 This bill specifically includes the Postal
                                                                                                allegations involving provider fraud. The
                                            Service in its definition of “Federal executive
                                                                                                Inspection Service assists the OIG by investi-
                                            agency.” It directs each agency to post on its
                                                                                                gating fraudulent claims and receipt of benefits
                                            public website specified summary statistical data
                                                                                                by individual employees.
                                            relating to equal employment opportunity com-


                                PAGE 78     LABOR MANAGEMENT REVIEWS
                                                     ◆    An individual was arrested and charged
INSPECTION SERVICE                                        with the theft of Postal funds from a con-
     The Inspection Service reviews a number              tract station. During the investigation,
of labor management relations areas, including            this individual initially reported being
workplace climate, postal robberies, drugs in the         robbed while counting the cash drawers
workplace, and workers’ compensation investi-             at the contract station but subsequently
gations.                                                  admitted to the theft of the Postal funds
                                                          after several inconsistencies were found
WORKPLACE CLIMATE                                         in statements provided to the Postal
     The Inspection Service is committed to               Inspectors.
employee safety in the workplace, and partners       ◆    An individual was arrested by Postal
with Postal Service management and employee               Inspectors and charged with three armed
groups in early interventions and other efforts           Postal robberies and 18 armed bank rob-
to prevent violence in the workplace. There               beries that occurred in the Gulf Coast
were 24 arrests for assaults and threats in this          area.
reporting period. Examples of significant inves-     ◆    An individual was sentenced to eight
tigations follow:                                         years in custody, five years probation, a
                                                          fine, and ordered to make restitution to
◆   In a three-day trial, an individual was
                                                          the Postal Service for a post office rob-
    convicted of assaulting a federal employ-
                                                          bery.
    ee and using and discharging a weapon
    during a crime of violence. The shooter
                                                     DRUGS IN THE WORKPLACE
    who was found to be mentally ill, but not
    legally insane, was incarcerated without              Postal Inspectors investigate the posses-
    bail and faces a mandatory ten-year              sion, personal use, and sales of narcotics by
    sentence on weapons charges and an               Postal Service employees or others while on
    additional ten years on assault charges.         Postal property or on duty. Information regard-
◆   A Postal police officer was severely             ing the possession or personal use of illegal drugs
    assaulted while performing a routine             by Postal employees is referred through Postal
    perimeter patrol at a General Mail Facili-       Service management to the Employee
    ty. The officer was struck in the back of        Assistance Program for attention. In the last six
    the head with a steel pipe, which caused         months, Postal Inspectors arrested seven indi-
    multiple fractures to the skull. Postal          viduals for the sale of drugs on Postal property.
    police officers subdued the attacker, who        Examples of investigations follow:
    was arrested and charged with attempted
                                                     ◆    A casual mail handler who was employed
    murder, assault, and two counts of
                                                          at an airmail service center was arrested
    attempted robbery.
                                                          for possession and distribution of mari-
                                                          juana. After the investigation was com-
POSTAL ROBBERIES
                                                          pleted, the employee was terminated
     The Inspection Service regards the preven-           from employment with the Postal
tion of robberies as one of its highest organiza-         Service.
tional priorities and affords task force attention
                                                     ◆    After selling crack cocaine to undercover
to facility, letter carrier, and other Postal rob-
                                                          Postal Inspectors, a maintenance custodi-
beries to deter these attacks on employees.
                                                          an at a Postal facility was arrested and
Letter carrier robberies are generally committed          charged in federal court with felony
for the purpose of stealing mail and Postal keys          distribution of crack cocaine.
to mail receptacles, while robberies of facilities
are committed for cash and money orders. The         WORKERS’ COMPENSATION
Inspection Service investigated 31 robberies in           The Inspection Service assists the OIG by
this reporting period. Robbery-related arrests       investigating fraudulent claims and receipt of
and convictions for the last six-month period        workers’ compensation benefits by individual
totaled 50 and 30, respectively. Examples of         employees. Unlike other federal agencies, these
investigations follow:                               claims are paid from Postal revenues versus


                                                                                                           PAGE 79
          appropriations, thereby affecting the Postal             after allegedly sustaining an injury to the
          Service’s net income.                                    head, neck, and back. However, Postal
               Prosecution of workers’ compensation                Inspectors revealed that the claimant was
          fraud serves as a deterrent and prevents future          working as a waitress and owned and
          benefit payments from being made to violators.           operated a beauty salon. The claimant
          Normally, prosecution is based on showing that           was sentenced to six months imprison-
          the allegedly disabled claimant is receiving             ment and three years probation and
                                                                   ordered to pay $6,000 in restitution. The
          outside earnings and failing to report them to
                                                                   Postal Service realized future cost savings
          the Department of Labor. Inspection Service
                                                                   of over $726,000.
          investigations resulted in $95.5 million in long-
          term and continuation-of-pay cost savings for        ◆   A former letter carrier was sentenced in
          this fiscal year, compared to $86.6 million for          U.S. District Court to three years proba-
          the same period last year. In the last six months,       tion, six months home confinement with
                                                                   electronic monitoring, 400 hours of com-
          nine individuals were arrested for workers’ com-
                                                                   munity service and a $10,000 fine, with
          pensation fraud. Examples of investigations
                                                                   restitution of over $47,000 to the Social
          follow:
                                                                   Security Administration and $72,000 to
          ◆   A former letter carrier was sentenced for            the Postal Service. Postal Inspectors
              making false statements to obtain federal            found the carrier collected dual benefits
              employee compensation benefits, mail                 from the Department of Labor and the
              fraud, and theft of government property.             Social Security Administration, and
              Postal Inspectors revealed that the                  failed to report employment activities to
              alleged wheelchair-bound claimant had                either agency as required. As a result of
              falsified almost every aspect of the claim           the investigation, the Postal Service real-
              that actually occurred while the employ-             ized future cost savings of over $651,000
              ee served on active duty with the mili-              in workers’ compensation benefits.
              tary. Additionally, the claimant’s spouse,
              who is a nurse’s aid, was approved as the
              primary care attendant thereby increasing
              monthly benefits to about $3,300. As a
              result of this investigation, the claimant
              was sentenced to one year and one day in
              prison and three years supervised proba-
              tion, and was ordered to pay about
              $52,000 in restitution and a $500 assess-
              ment. Civil actions are pending to
              recover other costs. This investigation
              resulted in $1.2 million in future cost
              savings for the Postal Service.
          ◆   A former Postal maintenance supervisor
              was sentenced to seven months imprison-
              ment, seven months confinement at a
              halfway house, three years probation, and
              mental health counseling, and was
              ordered to pay over $24,000 in restitu-
              tion. Postal Inspectors found the former
              employee had been working as a regis-
              tered nurse since 1984 while claiming to
              be totally disabled. As a result, the
              Postal Service realized a future cost sav-
              ings of over $1 million.
          ◆   A former distribution clerk had not
              worked for the Postal Service since 1988



PAGE 80   LABOR MANAGEMENT REVIEWS
Oversight of the
Inspection Service




 OFFICE OF INSPECTOR GENERAL
      Oversight of the Inspection Service
      Legislative and Regulatory Reviews




                                            PAGE 81
                                                                                           Inspection Service’s ability to attract and retain
                                       This section highlights audits, reviews,
                                                                                           senior forensic scientists. Specifically, the
                                       and investigations performed by the OIG
                                                                                           Federal Bureau of Investigation and the
                                       in conducting its oversight of the Inspec-
       DID YOU                         tion Service. Report numbers are shown
                                                                                           Department of Treasury received congressional
                                                                                           approval to establish special pay and benefit
       KNOW?                           in parentheses after the narrative, as
                                       appropriate. Also, the OIG legislative
                                                                                           programs to attract scientists and technicians
                                                                                           for positions that have historically had recruit-
                                       and regulatory reviews are included at
                                                                                           ing and retention problems. Both agencies have
                                       the end of this section.
How does the OIG handle                                                                    included forensic scientist positions in these
                                                                                           special programs. The OIG found that
requests for information?                                                                  although the Inspection Service had been work-
Public requests for OIG               OFFICE OF INSPECTOR                                  ing with the Postal Service to resolve the pay

information are processed
                                      GENERAL                                              parity issue, it did not have a similar special pro-
                                                                                           gram to attract and retain senior forensic scien-


                                      O
                                               ne of the primary reasons the OIG was
pursuant to the Freedom Of                                                                 tists. After receiving the OIG report, the Chief
                                               established within the Postal Service
                                                                                           Postal Inspector was able to establish a compen-
Information Act(FOIA) by OIG                   was to provide oversight of Inspection
                                                                                           sation program that provided pay parity for
                                      Service activities. The OIG’s work in this area
staff. FOIA requests may be                                                                forensic scientists. (OIG OV-MA-00-002)
                                      provides an independent voice with objective
made in writing, or the public can    information and analyses of Inspection Service       BUDGET PLANNING AND FOR-
review reports and other              operations and issues.                               MULATION PROCESS REVIEWED
                                                                                                An OIG review of the Inspection Service
information posted on the OIG          OVERSIGHT OF THE
                                       INSPECTION SERVICE                                  budget planning and formulation process found
website at www.uspsoig.gov                                                                 that the Inspection Service did not establish a
                                            As a law enforcement agency, it is essential
                                                                                           process for annually determining personnel
                                      that the Inspection Service be held to the high-
                                                                                           requirements and for allocating these resources
                                      est standards of conduct to maintain the public’s
                                                                                           by location. In addition, the OIG found that
                                      trust and the Postal Service’s reputation of reli-
                                                                                           the process could be improved by linking bud-
                                      ability. In the last six months, the OIG focused
                                                                                           getary resources to performance-related goals
                                      on administrative and budgeting challenges fac-
                                                                                           and functions. Further, the OIG found that the
                                      ing the Inspection Service. These challenges
                                                                                           Inspection Service did not issue a written
                                      included pay parity for forensic scientists, con-
                                                                                           request for estimated expenses from field divi-
                                      sistency in the implementation of the discipli-
                                                                                           sions when developing its operating budget.
                                      nary and awards programs, and the alignment of
                                                                                           The Chief Postal Inspector agreed with OIG
                                      budgetary resources to performance-related
                                                                                           recommendations to improve the budget plan-
                                      goals and functions. During this reporting
                                                                                           ning and formulation process.
                                      period, the OIG completed 17 oversight reviews
                                                                                           (OIG OV-AR-00-005)
                                      as well as numerous monitoring actions, some of
                                      which are highlighted below:                         IMPROVEMENTS NEEDED IN DIS-
                                                                                           CIPLINARY PROCESS FOR NON-
                                      PAY PARITY RECOMMENDED FOR                           BARGAINING EMPLOYEES
                                      INSPECTION SERVICE FORENSIC
                                                                                                An OIG review of the Inspection Service’s
                                      SCIENTISTS
                                                                                           disciplinary process for nonbargaining employ-
                                           The OIG reviewed concerns that forensic
                                                                                           ees found that field inspectors conducted inter-
                                      scientists were underpaid when compared to
                                                                                           nal investigations of individuals located in the
                                      their federal counterparts, resulting in personnel
                                                                                           same division. Further, headquarters oversight
                                      recruiting and retention problems. The review
                                                                                           of internal investigations assigned to field
                                      disclosed that while junior forensic scientists
                                                                                           inspectors was not fully documented. In addi-
                                      had pay parity with their federal counterparts,
                                                                                           tion, potential violations of the Inspection
                                      senior forensic scientists did not. The review
                                                                                           Service Code of Conduct were not always
                                      also identified that other federal agencies had
                                                                                           reported to headquarters as required.
                                      recently established special pay programs for
                                      forensic scientists, which could worsen the


                            PAGE 82   OVERSIGHT OF THE INSPECTION SERVICE
      The Chief Postal Inspector agreed with          conduct that affect the performance of duties or
OIG recommendations to assign significant             when managers have information of employee
internal investigations to the headquarters           misconduct. The OIG’s oversight team reviews
office responsible for internal investigations and    the results of internal investigations, including
less serious offenses, to field inspectors assigned   conclusions reached and recommended actions.
to a division other than the division where the       At the beginning of the reporting period, the
individual under investigation is assigned. The       Inspection Service had 35 open internal inves-
Chief Postal Inspector also agreed to establish       tigations. During the reporting period 38 cases
controls to ensure that potential violations of       were closed, and 34 new cases were opened. As
the Code of Conduct are reported to headquar-         of September 30, 2000, 31 cases remained open.
ters as required. (OIG OV-AR-00-004)
                                                      LEGISLATIVE AND REGULATORY
INSPECTION SERVICE AWARDS                             REVIEWS
PROGRAM FOR LAW
ENFORCEMENT EMPLOYEES                                 ENACTED LEGISLATION
FAIRLY ADMINISTERED
                                                      Public Law 106-168 - Deceptive Mail                    Inspection Service-Related
      An OIG review of the Inspection Service
                                                      Prevention and Enforcement Act                         Hotline Cases Closed
awards program for law enforcement employees
                                                           The Deceptive Mail Prevention and
found that the program was fairly administered.
                                                      Enforcement Act, passed in December 1999,                                                 5
However, the OIG found that the awards pro-
                                                      granted administrative subpoena authority to                                         REFERRED TO
gram could be improved by requiring consistent                                                                                          INSPECTION SERVICE
                                                      the Postmaster General. Prior to enactment,
justifications and statements of purpose, and
                                                      only the Postal Service Inspector General had                                                    4
ensuring that awards are appropriately reported                                                                           17
                                                      authority to issue administrative subpoenas. As               POSSIBLE SYSTEMIC
                                                                                                                                                       OIG
to the Internal Revenue Service. The Chief                                                                                                          REVIEWED
                                                      a result of the Act, the Postal Service issued                     REVIEW
Postal Inspector agreed with OIG recommen-
                                                      proposed regulations implementing the sub-
dations to improve the awards program and to
                                                      poena authority. The OIG commented on the
ensure that cash equivalent and noncash tangi-
                                                      proposed regulations, recommending that:
ble awards are also reported as income to the
Internal Revenue Service.                             ◆   Subpoenas be issued only in investiga-
(OIG OV-AR-00-003)                                        tions where specific cases have been
                                                          opened by the Inspection Service con-
REVIEW OF COMPLAINTS                                      cerning a particular person or entity.
REGARDING THE INSPECTION
                                                      ◆   Ambiguous language concerning the
SERVICE
                                                          subpoena issuing authority of the Postal
     The OIG’s oversight of the Inspection                Services’ General Counsel be clarified.
Service provides customers, employees, and
                                                      ◆   Material produced by the subpoena not
other interested persons with an independent
                                                          be subject to a broad exemption from the
avenue to address their complaints. At the
                                                          Freedom of Information Act.
same time, the OIG provides the Inspection
Service with an unbiased review of accusations        ◆   The underlying statute’s new reporting
that, if left unresolved, could harm its reputa-          requirements should be listed in the bill.
tion as a professional law enforcement agency.             In response to OIG’s concerns, the Postal
During this reporting period, the OIG received        Service modified the rule to satisfy the OIG’s
8 new complaints, and closed 26 hotline com-          primary concern that subpoenas be issued only
plaints as shown on the chart on this page.           to investigate cases opened by the Inspection
                                                      Service pertaining to a particular person or
MONITORING INSPECTION
                                                      entity. The Postal Service also modified the
SERVICE INTERNAL
INVESTIGATIONS                                        rule to satisfy the OIG’s concern that the pro-
                                                      posed rule seemed to require that the Postal
    The OIG’s oversight team is responsible for
                                                      Service General Counsel must sign any sub-
monitoring the conduct of internal investiga-
                                                      poena presented. A new section has been
tions of Inspection Service non-executive
                                                      added, clarifying that the General Counsel has
employees. These investigations are conducted
                                                      discretion to issue or deny a subpoena.
when there are allegations of employees’ mis-

                                                                                                          PAGE 83
PAGE 84   OVERSIGHT OF THE INSPECTION SERVICE
Other Significant
Reviews




 OFFICE OF INSPECTOR GENERAL
      Executive Investigations
      Subcommittee Request
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Physical Security
      Narcotics Offenses and Trafficking
      Child Exploitation
      Prohibited Mail
      Postal Burglaries
      Mail Fraud
      Money Laundering

                                           PAGE 85
                                                              Reform, who inquired whether the OIG had
           This section highlights reviews and
                                                              comments on proposed rules implementing the
           investigations performed by the OIG and
                                                              Postal Service judicial officer’s subpoena author-
           the Inspection Service in other significant
                                                              ity. Specifically, concerns existed about a provi-
           areas. Also, the OIG legislative and reg-
                                                              sion of the proposed rule permitting a subpoena
           ulatory reviews are included at the end of
                                                              to be issued with the space for the name of the
           this section. In order to differentiate the
                                                              person to be served left blank. The presiding
           work reported by the OIG and Inspection
                                                              officer, who is authorized to issue a subpoena in
           Service, the pages containing the work
                                                              blank to a party, is either an administrative law
           reported by the Inspection Service have
                                                              judge or the judicial officer.
           been color screened.
                                                                   The OIG found that the practice of issuing
                                                              subpoenas in blank is not unusual. The Federal
                                                              Rules of Civil Procedure permit subpoenas to be
          OFFICE OF INSPECTOR                                 issued in blank to a party requesting it. This is
          GENERAL                                             similar to the latitude given to administrative
                                                              law judges. Therefore, it did not appear to be


          I
              n addition to reviews summarized earlier in
              this Semiannual Report, the OIG has com-        inappropriate for the Postal Service to issue sub-
              pleted 35 reviews of other significant issues   poenas in blank. The OIG provided a letter
          related to Postal Service operations.               indicating no objections to the proposed rule.

          EXECUTIVE INVESTIGATIONS                            LEGISLATIVE AND REGULATORY
                                                              REVIEWS
               The OIG is responsible for reviewing alle-
          gations involving senior-level Postal execu-        PROPOSED LEGISLATION
          tives for criminal violations and misconduct,
          including retaliation against individuals who       Legislation Amending the Inspector
          have previously provided the OIG with infor-        General Act
          mation about possible fraud, waste, abuse, and          Various bills were proposed in this session
          mismanagement. Examples of two investiga-           of Congress that would impact Offices of
          tions follow:                                       Inspectors General.

          ◆   In an investigation of a Postal Service         ◆   H.R. 2013 would amend the Inspector
              Career Executive Service employee, the              General Act to provide for the appoint-
              OIG determined that the employee used               ment of the Inspector General of certain
              a Postal desktop computer to view porno-            federal agencies by the President of the
              graphic websites. The executive admit-              United States.
              ted to misuse of the computer and               ◆   H.R. 305 would amend the Inspector
              subsequently was disciplined.                       General Act to establish an Office of
          ◆   In another investigation of a Postal                Inspector General Oversight Council.
              Service Career Executive Service                ◆   S. 870 would amend the Inspector
              employee, the OIG determined that the               General Act to increase the efficiency
              employee improperly used the govern-                and accountability of Offices of Inspectors
              ment-sponsored credit card to withdraw              General within federal departments.
              cash for gambling purposes. The
                                                              ◆   S. 1707, which we discussed in the pre-
              employee admitted using the card for per-
                                                                  vious Semiannual Report to Congress,
              sonal use on 16 occasions. The execu-
                                                                  would make the Inspector General of the
              tive was disciplined.
                                                                  Tennessee Valley Authority a presiden-
                                                                  tially-appointed position and would
          SUBCOMMITTEE REQUEST
                                                                  establish a forensic laboratory for the
          Judicial Officer’s Subpoena Authority                   Inspector General community.
              The OIG addressed an inquiry from the               Of the four bills, S. 870 and S. 1707 seem
          Chairman of the Subcommittee on the Postal          to have the broadest impact and the greatest
          Service, House Committee on Government              chance for enactment. S. 870 prohibits the


PAGE 86   OTHER SIGNIFICANT REVIEWS
receipt of any cash award or cash bonus by an
Inspector General. However, the legislation
compensates for this by increasing the rate of
pay of specified Inspectors General, including
the Postal Service Inspector General, from
Level IV to Level III of the Executive Schedule.
It also provides for an external review of the
Office of Inspector General at least every three
years by the General Accounting Office or a
private entity, and a reporting of the results to
appropriate congressional committees.
     S. 870 also changes the OIG’s congres-
sional reporting requirement to an annual
report. However, a semiannual activities report
may still be requested by a congressional over-
sight committee or the Comptroller General.




                                                    PAGE 87
                                                                         during this semiannual period for drug traffick-
          INSPECTION SERVICE                                             ing and money laundering via the mail.
               The Inspection Service conducted numer-                   Seizures from the mail for this period included
          ous investigations and reviews relating to signif-             over 7,300 pounds of illegal narcotics and about
          icant issues in the following areas: physical                  243,000 units of steroids. Investigations also
          security; narcotics offenses and trafficking; child            resulted in the seizure of over $2.6 million in
          exploitation; prohibited mail; postal burglaries;              cash and monetary instruments, 21 vehicles, 67
          mail fraud including fraud against consumers,                  firearms, and 2 residences. Examples of signifi-
          fraud against businesses, and fraud against gov-               cant investigations follow:
          ernment; and money laundering.                                 ◆     Postal Inspectors, Drug Enforcement
          PHYSICAL SECURITY                                                    Agency agents, and local Sheriff deputies
                                                                               investigated four businesses in the Iowa
               The Inspection Service devotes significant
                                                                               area known for receiving drug parapher-
          resources to prevent crimes by conducting                            nalia through the mail. The investiga-
          employee and customer awareness training pro-                        tion resulted in seizing individual items
          grams and implementing security measures.                            valued at about $3 million.
          Potential problems and deficiencies are identi-
                                                                         ◆     A task force of Postal Inspectors, Internal
          fied and priorities set based on trend analyses of
                                                                               Revenue Service agents, and local police
          criminal activity. When trends are identified,
                                                                               officers was formed to investigate mari-
          prevention and security measures are developed                       juana trafficking between the New York
          to reduce or eliminate the risk of criminal activ-                   and Los Angeles areas. The investiga-
          ity against the mail, the Postal Service, and its                    tion involved large-scale activities over
          employees. Some of the more significant phys-                        at least a four-year period that included
          ical security activity4 that occurred during this                    more than one ton of marijuana and $2.1
          period is highlighted below:                                         million.
          ◆    The Inspection Service continued its                      ◆     Two individuals were convicted of federal
               efforts to increase the security of collec-                     conspiracy, and cocaine and metham-
               tion boxes. Modified locks and other                            phetamine distribution in a District court
               security countermeasures were installed                         in California. The convictions culmi-
               in California. Several other districts are                      nated a long and highly successful nar-
               scheduled to have the security counter-                         cotics investigation by multiple law
               measures installed in the near future.                          enforcement agencies involving the dis-
                                                                               tribution of crystal methamphetamine by
          ◆    The Inspection Service kicked off the
                                                                               a trafficking organization operating out of
               National Security Messaging Program in
                                                                               California. The traffickers transported
               June 2000. This campaign is a coopera-
                                                                               large quantities of crystal methampheta-
               tive effort designed to encourage all
                                                                               mine to Hawaii for distribution. The
               Postal Service employees to help improve
                                                                               investigation resulted in the arrests of 35
               security at their workplace. Employees
                                                                               individuals and several seizures of per-
               are asked to wear identification badges,
                                                                               sonal property.
               politely challenge strangers in postal
               facilities and on loading docks, ensure
                                                                          CHILD EXPLOITATION
               doors are locked, and identify and report
               security deficiencies.                                          Postal Inspectors employ proactive inves-
                                                                         tigative techniques to identify and bring to jus-
          NARCOTICS OFFENSES AND                                         tice individuals who use the mail to distribute or
          TRAFFICKING                                                    knowingly receive child pornography. During
                The Inspection Service interdicts mailings               this reporting period, 26 child molesters were
          of illegal drugs and drug proceeds to protect                  identified and stopped as a result of the
          postal employees from violence related to drug                 Inspection Service’s efforts to rid the mail of
          trafficking, and to preserve the integrity of the              child pornography. In addition, 43 children
          mail. Postal Inspectors, working with other law                were rescued from further incidents of ongoing
          enforcement agencies, arrested 787 individuals                 child sexual abuse, and two other previously vic-
          4
           Some investigative statistics in this section do not include 4th quarter results because the statistics were not availible
          prior to publication of this report.
PAGE 88   OTHER SIGNIFICANT REVIEWS
timized children were identified. Postal              of Alcohol, Tobacco and Firearms special
Inspectors nationwide are investigating 516           agents, and local police rendered the
cases involving child exploitation. During this       bomb safe. The investigation is continu-
reporting period, Inspection Service efforts          ing in an effort to identify the person or
have resulted in 145 arrests and 105 convic-          persons responsible.
tions. Some of the more significant child         ◆   An individual in Maryland pled guilty
exploitation cases are highlighted below:             and was sentenced in circuit court for
                                                      mailing a “hoax mail bomb.” The indi-
◆   An individual was sentenced to four con-
                                                      vidual was sentenced to a 10-year sus-
    secutive life terms, and another was sen-
                                                      pended sentence and two years
    tenced to two life terms, for their
                                                      probation.
    involvement in a child pornography ring
    in Oklahoma. Charges are pending
                                                  POSTAL BURGLARIES
    against four other codefendants. Search
    warrants resulted in the seizure of video-         The Inspection Service employs sophisti-
    tapes and photographs depicting the sex-      cated burglary prevention techniques and
    ual abuse of two children. Defendants         detection devices to make postal facilities less
    include the parents of these children.        vulnerable to attack. Burglaries may result in
                                                  property losses, mail thefts, and repair expenses
◆   Multiple felony charges for child sexual
    abuse were brought against an individual      for damage to postal facilities as a result of
    following a joint investigation in            forced entries. In the last six months, there
    California. The investigation revealed        were 93 arrests and 83 convictions related to
    that this offender sought out and pro-        burglaries compared to 91 arrests and 85 con-
    cured young minor females between the         victions for the previous reporting period. For
    ages of 9 and 16 for “modeling” through       example:
    newspaper advertisements. Thousands of
                                                  ◆   Postal Inspectors and state police
    photographs were seized, and in at least
                                                      responded to a burglary at a Connecticut
    seven cases, young girls were sexually
                                                      contract station. The investigation dis-
    abused during the photo sessions.
                                                      closed that a 300-pound safe containing
◆   Postal Inspectors and Federal Bureau of           approximately $5,600 of postage stock
    Investigation agents arrested a California        was missing. The unopened safe and its
    youth choir leader for receiving child            contents were recovered.
    pornography by mail. This suspect was
    identified through an international           MAIL FRAUD
    investigation of a child pornography ring          Postal Inspectors protect Postal customers,
    operating out of Chile.                       business mailers, and local, state, and Federal
                                                  governments from schemes involving invest-
PROHIBITED MAIL
                                                  ments, insurance, Medicare/Medicaid fraud,
      The Inspection Service considers the        telemarketing, loans, and merchandise misrep-
investigation of mail bombs among its highest     resentations. The elderly and disadvantaged
priorities. In the last six months, Postal        individuals who depend on mail delivery for
Inspectors arrested 43 individuals and con-       purchases are particularly susceptible to fraudu-
victed 47 defendants for their involvement in     lent schemes. These citizens trust the Postal
incidents related to mail bombs and bomb          Service to maintain the integrity of the mail,
threats. These include threats against postal     while opportunists take advantage of the
facilities, placement of hoax devices and other   anonymity the mail offers. The Inspection
suspicious items in the mail, and bombs and       Service investigated approximately 54,000 con-
devices placed in private mail receptacles.       sumer fraud complaints during this reporting
Examples of significant investigations follow:    period. As a result, 806 individuals were
◆   In Tennessee, a letter carrier on a mail      arrested and 662 individuals were convicted on
    collection run found a pipe bomb              charges of mail fraud.
    attached to an envelope addressed to the
    chief of police. Postal Inspectors, Bureau


                                                                                                      PAGE 89
          FRAUD AGAINST CONSUMERS                              FRAUD AGAINST BUSINESSES
               To preserve the public’s confidence and              The mail is often used to submit false or
          trust in the mail, the Inspection Service investi-   inflated invoices to businesses and institu-
          gates a variety of mail fraud schemes, including     tions. Some of the most significant investiga-
          fraud against consumers. Some of the most sig-       tions follow:
          nificant investigations follow:
                                                               ◆   In an investigation into illegal telemar-
          ◆   Ten individuals were charged with mail               keting conducted by postal inspectors, an
              fraud, money laundering, and tax evasion             individual pled guilty in federal court to
              following an investigation by Postal                 one count of structuring transactions.
              Inspectors and Internal Revenue Service              The investigation revealed that the indi-
              special agents. The investigation                    vidual was responsible for cashing checks
              revealed an invention promotion scam                 for principals of a telemarketing firm and
              that defrauded over 34,000 victims of                resulted in losses of over $3.3 million to
              $60 million. To date, three of the ten               its various investors.
              individuals charged in the indictments           ◆   In an investigation conducted jointly by
              have pled guilty.                                    Postal Inspectors, agents of the Federal
          ◆   Two Canadian nationals were sentenced                Bureau of Investigation and members of
              in a Pennsylvania federal district court to          local law enforcement officers, the former
              one year in prison and two years proba-              vice president of a managed health care
              tion for their roles as manager and sales-           company was arrested and sentenced to
              man for a gemstone portfolio liquidation             seven years and three months in prison
              scheme. During the firm’s final five                 and was ordered to pay over $729,000 in
              years, over 1,000 victims from the United            restitution.
              States, Canada, and Europe were                  ◆   In a federal district court in New York,
              defrauded of more than $15 million using             an attorney and a registered nurse pled
              the mail. At the time of sentencing, the             guilty to conspiracy to commit mail
              defendants presented a check for $1 mil-             fraud. Postal Inspectors proved that the
              lion restitution to the court under a                attorney authorized the payment of
              negotiated plea agreement.                           $215,000 in insurance company funds to
          ◆   The founder of a bogus investment com-               a phony medical services company that
              pany was sentenced to three years impris-            was controlled by the registered nurse.
              onment for investment fraud and ordered
              to pay over $12.9 million in restitution.        FRAUD AGAINST GOVERNMENT
              Two other codefendants were also sen-                 Postal Inspectors also work to protect the
              tenced for their involvement in the              government from being victimized by mail
              investment scheme.                               fraud. Some of the most significant investiga-
          ◆   An individual was sentenced for an               tions follow:
              $8 million investment and mail fraud
                                                               ◆   Three doctors were convicted in a New
              scheme. This individual was sentenced
                                                                   York federal district court for their
              to four years and three months in prison
                                                                   involvement in a multimillion-dollar
              on four counts (to be served concur-
                                                                   scheme to defraud Medicare. The doc-
              rently), to be followed by five years pro-
                                                                   tors defrauded Medicare by signing ficti-
              bation, and was ordered to pay over $8
                                                                   tious claims, which certified they
              million in restitution to victims.
                                                                   examined patients for treatment. The
          ◆   Three individuals pled guilty to schemes             doctors received kickbacks on payments
              involving senior citizens who were                   from Medicare for treatments not ren-
              defrauded of $2.9 million. They were                 dered.
              sentenced to various prison terms and
                                                               ◆   An individual stole blank Treasury
              probation and ordered to make full resti-
                                                                   checks from the St. Louis Information
              tution.
                                                                   Service Center and fled to Mexico,
                                                                   where one of the stolen checks was



PAGE 90   OTHER SIGNIFICANT REVIEWS
    cashed for over $1 million. The individ-
    ual was arrested and served three years in
    a Mexican prison before being extradited
    back to the United States. The individ-
    ual was subsequently sentenced to three
    years probation and allowed to leave the
    United States.
◆   An individual was sentenced to one year
    and three months in prison and ordered
    to pay $350,000 in restitution. The indi-
    vidual defrauded the U.S. Department of
    Education of more than $900,000 by sub-
    mitting fraudulent student loan applica-
    tions. The individual seeking assistance
    claimed to be a student and diverted the
    funds received for personal use.

MONEY LAUNDERING
      The Inspection Service plays a key role in
fulfilling the Postal Service’s anti-money laun-
dering program requirements under the Bank
Secrecy Act. Postal Inspectors work closely
with Postal Service management to ensure that
new financial services possess anti-money laun-
dering security measures. In addition, Postal
Inspectors participate in Bank Secrecy Act
training programs, sharing their anti-money
laundering expertise with Postal Service
employees involved in the sale of Postal finan-
cial products. Examples of significant investiga-
tions follow:
◆   A U.S. Attorney’s Office forwarded two
    equity share checks totaling about
    $109,000 to the Inspection Service. One
    equity share check was the result of the
    division’s investigation of postal money
    orders that were purchased in structured
    transactions in order to evade the report-
    ing requirements.
◆   An individual was arrested by U.S.
    Customs agents and Postal Inspectors for
    money laundering in the San Juan area.
    The investigation focused on a
    Colombian drug distribution organiza-
    tion, which laundered money by pur-
    chasing postal money orders in
    denominations that allowed them to
    avoid the requirements of transaction
    reporting.




                                                    PAGE 91
PAGE 92   OTHER SIGNIFICANT REVIEWS
Appendices




   DID YOU
   KNOW?
 Is the OIG responsible for all audits within the Postal Service?
 Yes. The OIG is responsible for performing or contracting for all
 Postal Service audits, as well as establishing procedures for man-
 agement-requested audits. In addition, the OIG serves as the focal
 point with other agencies, to coordinate work efforts and avoid any
 duplication.




                                                PAGE 93
                                                  APPENDIX A

                                                  Reports Issued to Postal Management
                                                  For the period April 1, 2000, through September 30, 2000

                                                  OVERVIEW
                                                  Office of Inspector General
                                                  The OIG audit teams are aligned to conduct performance and financial audits, evaluations and
                                                  other reviews to address the business processes of the Postal Service. Each team issues audit
                                                  reports (AR), letter advisory reports (LA), or management advisory reports (MA) in accordance
                                                  with the identified needs of the project.

                                                  Inspection Service
                                                  The Inspection Service audit groups were aligned by the type of audits performed which are pri-
                                                  marily performance, financial, contract, and facility audits. The Inspection Service provided
                                                  Postal-wide attention in the field financial area until September 30, 2000, when this audit func-
                                                  tion was fully transitioned to the OIG.


                                                  SUMMARY
                                                  The following is a summary by principal area of reports issued to Postal Service management for
                                                  both the OIG and Inspection Service. The following pages list each organization's reports sepa-
                                                  rately.
                                                                                                                                          Recommend
                                                                                            Number of      Questioned    Unsupported     Funds Put to
                                                  Principal Area                        Reports Issued          Costs         Costs1       Better Use
                                                  Performance                                      25      $5,200,000     $5,200,000     $78,634,395
                                                  Financial Management                            319      56,105,289      5,304,442      61,039,690
                                                  Technology                                       10               0              0               0
                                                  Labor Management                                 18               0              0               0
                                                  Oversight                                         7               0              0               0
                                                  Other Significant Reviews                        23               0              0               0

                                                  GRAND TOTAL                                    402     $61,305,289    $10,504,442    $139,674,085


Definitions

Questioned Costs – A cost that is unneces-
sary, unreasonable, unsupported, or an
alleged violation of law, regulation, contract,
etc.

Unsupported Costs – A cost that is not sup-
ported by adequate documentation.

Funds Put to Better Use – Funds that
could be used more efficiently by implementing
recommended actions.




                                                  1
                                                      Unsupported Costs are included with the amounts shown as Questioned Costs.

                                     PAGE 94      APPENDICES
REPORT LISTING
The following is a list of each report grouped by core business processes and enabling functions.


OIG REPORTS
PERFORMANCE
                                                                                        Un- Recommend
Report/Case     Subject Title/                   Location/           Questioned   supported Funds Put to     Issue
Number          Project Type                     Contract                 Costs       Costs Better Use        Date
 ACCEPTING AND PROCESSING
AC-AR-00-001       Preventative Maintenance-     Postal-wide                $0          $0           $0    4/28/00
                   Equipment
AC-MA-00-002       Mail Processing Delays at     Los Angeles, CA             0            0           0     5/5/00
                   the Worldway Airport
                   Mail Center, Los Angeles,
                   California
AC-AR-00-002       Integrity of Plant Verified   Postal-wide                 0            0           0    5/11/00
                   Drop Shipment
AC-AR-00-003       Revenue Assurance Process     Postal-wide                 0            0           0    7/14/00
AC-AR-00-004       Use of Robotic Tray           Postal-wide                 0            0           0    9/29/00
                   Handling System
AC-AR-00-005       International                 Postal-wide                 0            0           0    9/29/00
                   Mail Processing

DELIVERY
DE-MA-00-001       Unprocessed Mail in           Dallas, TX                 $0          $0           $0    5/30/00
                   Dallas, Texas

MARKETING
MK-LA-00-001       Postal Service Dallas         Dallas District            $0          $0           $0    5/30/00
                   District Plan for Retail
                   Operations Performance
MK-MA-00-001       Citizen's Stamp               Postal-wide                 0            0           0    6/19/00
                   Advisory Committee
MK-LA-00-002       Postal Rate-Making Process Postal-wide                    0            0           0    6/30/00
MK-AR-00-001       Review of                     Postal-wide                 0            0 28,457,395     9/29/00
                   Stamp Fulfillment Services
                   Performance Measures
MK-AR-00-002       Audit of the             Postal-wide              5,200,000 5,200,000              0    9/29/00
                   Management Controls Over
                   the Sales Force
                   Augmentation Program

TRANSPORTATION
TR-AR-00-007       Mail and Other Items          Postal-wide                $0          $0           $0     4/5/00
                   Missent to Mail Transport
                   Equipment Service Centers
TR-AR-00-008       Extra Trip Expenditures       Dallas, TX                  0            0           0    6/30/00
                   at the Dallas Bulk Mail
                   Center
TR-AR-00-009       Extra Trips Expenditures      Mid-Atlantic Area           0            0   2,477,000    7/27/00
                   within the Mid-Atlantic
                   Area
TR-AR-00-010       Use of Chauffeur-Driven       Postal-wide                 0            0           0    8/29/00
                   Vehicles by Postal Service
                   Executives


                                                                                                                     PAGE 95
                                                                                                   Un- Recommend
          Report/Case     Subject Title/                       Location/      Questioned     supported Funds Put to      Issue
          Number          Project Type                         Contract            Costs         Costs Better Use         Date
           TRANSPORTATION
          TR-AR-00-011          Dedicated Christmas            Postal-wide           $0            $0 $47,700,000      9/29/00
                                Air Network - Phase 1
          PERFORMANCE TOTALS                                                 $5,200,000
                                                                                           $5,200,000
                                                                                                         $78,634,395


          FINANCIAL MANAGEMENT
                                                                                                   Un- Recommend
          Report/Case      Subject Title/                      Location/      Questioned     supported Funds Put to      Issue
          Number           Project Type                        Contract            Costs         Costs Better Use         Date
           FINANCIAL-RELATED
          FR-AR-00-008          Fiduciary Audit of             Postal-wide           $0            $0            $0     4/3/00
                                United States Postal Service's
                                Oversight of the
                                Thrift Savings Plan
          FR-FA-00-010(R)       Relocation Benefits for        Postal-wide            0              0            0     5/2/00
                                Postal Service Officers -
                                Revised
          BI-MA-00-001          Highway Transportation         Postal-wide            0              0            0    5/11/00
                                Contracts
          FT-LA-00-001          Destroyed Money Order          Postal-wide            0              0            0    6/28/00
                                Blank Stock
          FT-FA-00-001          Money Order Blank              Postal-wide            0              0            0    8/25/00
                                Stock and Imprinters
          FF-FA-00-00(1-33)2    Fiscal Year 2000 Cost and      Postal-wide            0              0            0    8/29/00
                                Revenue Analysis Audit
          FT-AR-00-002          International List Service     Postal-wide            0              0            0    8/29/00
                                Transmittal of Funds Bank
                                Secrecy Act Compliance
          FT-LA-00-002          Terminated Cleaning and        Postal-wide      216,861              0            0    9/20/00
                                Station Contracts
          FT-AR-00-003          Audit of Chase Insight         Postal-wide            0              0            0    9/27/00
                                Treasury Workstations
          FT-AR-00-001          Miscellaneous Relocation       Postal-wide            0              0            0    9/28/00
                                Expense Payments
          FT-AR-00-004          Equity Loss Payments           Postal-wide            0              0            0    9/29/00
          FT-AR-00-005          Deviations from Postal         Postal-wide            0              0            0    9/29/00
                                Relocation Policy

              CONTRACT AUDITS
          CA-AR-00-001          United States Postal Service Postal-wide       $977,598            $0       $400,000   5/17/00
                                Warranty Repair of Tractors
          CA-CAR-00-019         Evaluation of Accounting                              0              0            0     4/5/00
                                System
          CA-CAR-00-020         Evaluation of Incurred Costs                     28,890        28,890             0    4/27/00
          CA-CAR-00-021         Evaluation of                                         0              0            0    4/27/00
                                Accounting System
          CA-CAR-00-022         Evaluation of Incurred Costs                      4,794         4,794             0    4/27/00
          CA-CAR-00-023         Evaluation of Incurred Costs                          0              0            0    4/27/00
          CA-CAR-00-024         Evaluation of                                   131,750              0            0    4/27/00
                                Proposal Submitted
          CA-CAR-00-025         Evaluation of Incurred Costs                    471,432       471,432             0    4/27/00


          2
              This report represents 33 district reports issued during this period.
PAGE 96   APPENDICES
                                                                                 Un- Recommend
Report/Case    Subject Title/                     Location/   Questioned   supported Funds Put to     Issue
Number         Project Type                       Contract         Costs       Costs Better Use        Date
 CONTRACT AUDITS
CA-CAR-00-026     Evaluation of Subcontract Proposal           3,531,433           0           0    4/27/00
CA-CAR-00-027     Evaluation of                                 316,325     188,633            0    4/27/00
                  Claim Submitted
CA-CAR-00-028     Evaluation of Incurred Costs                        0            0           0     5/2/00
CA-CAR-00-029     Evaluation of Incurred Costs                   13,107            0           0     6/6/00
CA-CAR-00-030     Evaluation of                                       0            0           0     6/6/00
                  Accounting System
CA-CAR-00-031     Evaluation of Incurred Costs                 5,065,428           0           0    6/26/00
CA-CAR-00-032     Evaluation of Incurred Costs                        0            0           0    6/28/00
CA-CAR-00-033     Evaluation of                                       0            0           0    7/10/00
                  Proposal Submitted
CA-CAR-00-034     Evaluation of Incurred Costs                        0            0           0    7/12/00
CA-CAR-00-035     Evaluation of                                       0            0           0    7/12/00
                  Accounting System
CA-CAR-00-036     Evaluation of                                       0            0           0    7/12/00
                  Proposal Submitted
CA-CAR-00-037     Evaluation of Incurred Costs                        0            0           0    7/12/00
CA-CAR-00-038     Evaluation of Incurred Costs                        0            0           0    7/12/00
CA-CAR-00-039     Evaluation of                                       0            0           0    7/14/00
                  Billing System
CA-CAR-00-040     Evaluation of Forward Pricing                       0            0           0    7/27/00
                  Direct Labor Rates
CA-CAR-00-041     Evaluation of                                       0            0           0    7/27/00
                  Estimating Systems
CA-CAR-00-042     Evaluation of Time                            580,338            0           0    7/28/00
                  and Material Proposal
CA-CAR-00-043     Evaluation of                                       0            0           0    7/28/00
                  Indefinite-Delivery,
                  Indefinite-Quantity Proposal
CA-CAR-00-044     Evaluation of                                  57,774            0           0    8/25/00
                  Indefinite-Delivery,
                  Indefinite-Quantity Proposal
CA-CAR-00-045     Evaluation of                                 160,053            0           0    8/25/00
                  Claim Submitted
CA-CAR-00-046     Evaluation of                                  82,314      61,065            0    8/25/00
                  Change Proposal Submitted
CA-CAR-00-047     Evaluation of Final                           917,345            0           0    8/25/00
                  Close Out of Contract
CA-CAR-00-048     Evaluation of                                       0            0           0    8/28/00
                  Firm Fixed Price Proposal
CA-CAR-00-049     Post Award Audit                                    0            0           0    8/29/00
CA-CAR-00-050     Evaluation of Closeout                              0            0           0    8/29/00
                  of Contract
CA-CAR-00-051     Evaluation of                                3,583,880 3,264,062             0    8/29/00
                  Firm Fixed Price Proposal
CA-CAR-00-052     Evaluation of Incurred Costs                        0            0           0    8/31/00
CA-CAR-00-053     Evaluation of Proposed Rates                        0            0           0    9/13/00
CA-CAR-00-054     Evaluation of                                6,172,504           0           0    9/13/00
                  Firm Fixed Price Proposal
CA-CAR-00-055     Evaluation of                               10,565,117           0           0    9/20/00
                  Firm Fixed Price Proposal
CA-CAR-00-056     Evaluation of Lease Costs                          $0          $0           $0    9/20/00


                                                                                                              PAGE 97
                                                                                                      Un- Recommend
          Report/Case    Subject Title/                    Location/             Questioned     supported Funds Put to      Issue
          Number         Project Type                      Contract                   Costs         Costs Better Use         Date
           CONTRACT AUDITS
          CA-CAR-00-057     Evaluation of                                               $0              0            0    9/20/00
                            Indirect Expense Forward
                            Pricing Rates
          CA-CAR-00-058     Evaluation of                                          159,388              0            0    9/20/00
                            Firm Fixed Price Proposal
          CA-CAR-00-059     Evaluation of Incurred Costs                            49,120              0            0    9/20/00
          CA-CAR-00-060     Evaluation of                                          235,534       235,534             0    9/26/00
                            Revised Claim Submitted
          CA-CAR-00-061     Evaluation of Amended                                   66,910        66,910             0    9/26/00
                            Claim B Submitted
          CA-CAR-00-062     Evaluation of Incurred Costs                            21,665              0            0    9/26/00
          CA-CAR-00-063     Evaluation of Billing System                                 0              0            0    9/29/00
          CA-CAR-00-064     Evaluation of                                    17,726,329                 0            0    9/29/00
                            Firm Fixed Price Proposal
          CA-CAR-00-065     Evaluation of                                        3,879,191       983,122             0    9/29/00
                            Firm Fixed Price Proposal
          CA-LA-00-001      Review of Minority         Postal-wide                       0              0            0    7/14/00
                            Contracting Opportunities
                            Under Advertising Contract
          CA-LA-00-002      Review of Influence of         Postal-wide                   0              0            0    7/28/00
                            Postal Service Officials on
                            Contractors' Employment
                            of Consultants

          FACILITY PROGRAM AUDITS
          FA-AR-00-002      Salt Lake City District   Salt Lake                         $0            $0            $0    6/30/00
                            2002 Winter Olympic Plans City District
          FA-AR-00-003      Audit of New                   Postal-wide                   0              0            0    9/28/00
                            Construction Owned
          FA-AR-00-004      Review of Postal Service       Postal-wide                   0              0            0    9/29/00
                            Major Construction
                            Contracting Process
          FA-AR-00-005      Seattle Processing and         Seattle, WA                   0              0            0    9/29/00
                            Distribution Center
          FA-LA-00-002      Disposal of                    Chicago, IL                   0              0            0    6/15/00
                            Chicago Post Office
          FA-MA-00-004      Charlottesville                Charlottesville, VA           0              0     2,439,690    4/3/00
                            Carrier Annex
          FA-MA-00-005      Review of Selected Billing Postal-wide                       0              0            0     6/8/00
                            Practices of a Postal Service
                            Telecommunications
                            Contractor
          FA-MA-00-006      Quality of Drinking Water      Anne Arundel                  0              0            0    6/28/00
                            at Anne Arundel County,        County, MD
                            Maryland Postal Facilities
          FA-MA-00-007      Review of the Managed          Postal-wide                   0              0 58,200,000      7/28/00
                            Network Services Contract
                            & Billing Process of the
                            Contractor
          FINANCIAL MANAGEMENT TOTALS                                      $55,015,080
                                                                                              $5,304,442
                                                                                                            $61,039,690




PAGE 98   APPENDICES
TECHNOLOGY
                                                                                          Un- Recommend
Report/Case     Subject Title/                  Location/              Questioned   supported Funds Put to     Issue
Number          Project Type                    Contract                    Costs       Costs Better Use        Date
 COMPUTER SECURITY
IS-LA-00-001(R)    Adequacy of Security         Postal-wide                   $0          $0           $0    5/31/00
                   Controls for the
                   Audit Tracking System
IS-AR-00-004       State of Computer Security   Postal-wide                    0            0           0    9/29/00
                   in the Postal Service

DEVELOPMENTAL
DA-MA-00-001       Corporate Call               Postal-wide                   $0          $0           $0    4/10/00
                   Management Program
DA-MA-00-002       Priority Mail Processing     Postal-wide                    0            0           0    6/30/00
                   Center Network
                   1999 Christmas Operations
DA-AR-00-003       Mailing Evaluation,          Postal-wide                    0            0           0    7/31/00
                   Readability, and Lookup
                   Instrument Program
                   (MERLIN)
DA-AR-00-004       Information Platform         Postal-wide                    0            0           0    9/28/00
                   Planning
DA-AR-00-005       Unresolved Accounting        Postal-wide                    0            0           0    9/28/00
                   Adjustments
DA-AR-00-006       Point of Service ONE         Postal-wide                    0            0           0    9/29/00
                   Phase II

ELECTRONIC COMMERCE
EC-AR-00-001       USPS eBillPay Security       Postal-wide                   $0          $0           $0     9/5/00
                   and Privacy Issues
EC-TR-00-001       September 2000 Electronic    Postal-wide                    0            0           0    9/26/00
                   Commerce Testimony
TECHNOLOGY TOTALS                                                             $0          $0           $0


LABOR MANAGEMENT
                                                                                          Un- Recommend
Report/Case        Subject Title/               Location/              Questioned   supported Funds Put to     Issue
Number             Project Type                 Contract                    Costs       Costs Better Use        Date
 HEALTH CARE
HC-AR-00-003       Lancaster Performance      Allegheny Area                  $0          $0           $0    9/28/00
                   Cluster's Process for
                   Administering Continuation
                   of Pay Leave Benefits
HC-AR-00-001       South Jersey Performance   Allegheny Area                   0            0           0    9/28/00
                   Cluster's Process for
                   Administering Continuation
                   of Pay Leave Benefits
HC-AR-00-002       Erie Performance Cluster's   Allegheny Area                 0            0           0    9/29/00
                   Process for Administering
                   Continuation of Pay
                   Leave Benefits
LB-AR-00-002       Administration of            Long Island District           0            0           0    9/29/00
                   Aspects of the Injury
                   Compensation Process -
                   Long Island District




                                                                                                                       PAGE 99
                                                                                                 Un- Recommend
           Report/Case    Subject Title/               Location/              Questioned   supported Funds Put to     Issue
           Number         Project Type                 Contract                    Costs       Costs Better Use        Date
           VIOLENCE IN THE WORKPLACE
           LR-LA-00-001   Allegation of a Threat by a Mid-Atlantic Area              $0          $0           $0     5/5/00
                          Supervisor at a Mid-Atlantic
                          Area Processing and
                          Distribution Center
           LR-LA-00-003   Responsiveness to            Spokane District               0            0           0    6/22/00
                          Congressional Inquiries
                          in Spokane District
           LB-FR-00-001   Flash Report -               New Jersey                     0            0           0     9/8/00
                          Potential for Violence
           LB-AR-00-010   Review of Violence           Arkansas District              0            0           0    9/29/00
                          Prevention and Response
                          Programs in the
                          Arkansas District
           LB-AR-00-008   Violence Prevention and      Central Florida                0            0           0    9/29/00
                          Response Programs in the     District
                          Central Florida District
           LB-AR-00-003   Evaluation of Postal Service Postal-wide                    0            0           0    9/29/00
                          Criteria for Workplace
                          Violence Prevention and
                          Response Program
           LB-AR-00-007   Review of the Violence       North Florida District         0            0           0    9/29/00
                          Prevention and Response
                          Programs in the
                          North Florida District
           LB-AR-00-006   Review of the Violence       South Florida District         0            0           0    9/29/00
                          Prevention and Response
                          Programs in the
                          South Florida District
           LB-AR-00-004   Review of the Violence       Mississippi District           0            0           0    9/29/00
                          Prevention and Response
                          Programs in the
                          Mississippi District
           LB-AR-00-005   Review of the Violence       South Georgia District         0            0           0    9/29/00
                          Prevention and Response
                          Programs in the
                          South Georgia District
           LB-AR-00-009   Review of the Violence       Atlanta District               0            0           0    9/29/00
                          Prevention and Response
                          Programs in the
                          Atlanta District

           WORKPLACE CLIMATE
           LR-LA-00-002   Allegations of Harassment    Mid-Atlantic Area             $0          $0           $0     5/5/00
                          by a Supervisor at a
                          Mid-Atlantic Area
                          Post Office
           LB-AR-00-001   Economic Value Added         Postal-wide                    0            0           0    7/31/00
                          Variable Pay Program
           LB-MA-00-001   Management                   Postal-wide                    0            0           0    8/29/00
                          Reassignment Actions
           LABOR MANAGEMENT TOTALS                                                   $0          $0           $0




PAGE 100   APPENDICES
OVERSIGHT REVIEWS OF THE INSPECTION SERVICE
                                                                              Un- Recommend
Report/Case    Subject Title/                Location/     Questioned   supported Funds Put to     Issue
Number         Project Type                  Contract           Costs       Costs Better Use        Date
OV-MA-00-002   Review of                     Postal-wide          $0          $0           $0    7/17/00
               Postal Inspection Service
               Forensic Scientist Salaries
OV-MA-00-003   Review of                     Postal-wide           0            0           0    8/25/00
               Area Case Investigations
OV-AR-00-001   Inspection Service Self-    Postal-wide             0            0           0    8/29/00
               Referral Counseling Program
OV-AR-00-005   Review of the                 Postal-wide           0            0           0    9/29/00
               United States Postal
               Inspection Service
               Budget Process
OV-AR-00-002   Audit of the Inspection       Postal-wide           0            0           0    9/29/00
               Service Reporting of
               Cost-Avoidance Savings
               Under the Fraudulent
               Workers' Compensation
               Program
OV-AR-00-004   Postal Inspection Service     Postal-wide           0            0           0    9/29/00
               Disciplinary Process for
               Nonbargaining Employees
OV-AR-00-003   Inspection Service            Postal-wide           0            0           0    9/29/00
               Awards Program for Law
               Enforcement Employees
OVERSIGHT TOTALS                                                  $0          $0           $0


OTHER SIGNIFICANT REVIEWS
                                                                              Un- Recommend
Report/Case    Subject Title/                Location/     Questioned   supported Funds Put to     Issue
Number         Project Type                  Contract           Costs       Costs Better Use        Date
99CX004EX000   Executive Investigations                           $0          $0           $0     5/4/00
98CX029EX000   Executive Investigations                            0            0           0    6/16/00
00CX018EX000   Executive Investigations                            0            0           0    6/14/00
98CX042EX000   Executive Investigations                            0            0           0    5/12/00
00CX014EX000   Executive Investigations                            0            0           0     5/9/00
00CX006EX000   Executive Investigations                            0            0           0    9/13/00
00CX066EX000   Executive Investigations                            0            0           0    9/14/00
00CX024EX000   Executive Investigations                            0            0           0    9/12/00
00CX027EX000   Executive Investigations                            0            0           0     9/5/00
00CX025EX000   Executive Investigations                            0            0           0     6/7/00
99CX027EX0PI   Executive Investigations                            0            0           0    4/26/00
99CX007EX000   Executive Investigations                            0            0           0    8/11/00
98CX043EX000   Executive Investigations                            0            0           0    5/22/00
98CX003EX000   Executive Investigations                            0            0           0     8/4/00
00CX031EX000   Executive Investigations                            0            0           0    6/24/00
00CX046EX00C   Executive Investigations                            0            0           0    9/27/00
00CX020EX000   Executive Investigations                            0            0           0    8/29/00
99CX035EX000   Executive Investigations                            0            0           0    9/11/00
00CX010EX000   Executive Investigations                            0            0           0    5/18/00
99CX020EX000   Executive Investigations                            0            0           0     5/1/00
00CX015EX000   Executive Investigations                            0            0           0     4/4/00



                                                                                                           PAGE 101
                                                                                        Un- Recommend
           Report/Case    Subject Title/             Location/     Questioned     supported Funds Put to     Issue
           Number         Project Type               Contract           Costs         Costs Better Use        Date
           00CX026EX000   Executive Investigations                        $0            $0           $0    5/16/00
           99CX009EX000   Executive Investigations                         0              0           0     6/8/00


           OIG TOTALS                                            $60,215,080
                                                                                $10,504,442
                                                                                          $139,674,085




PAGE 102   APPENDICES
INSPECTION SERVICE REPORTS
PERFORMANCE
                                                                      Un- Recommend
Report/Case     Subject Title/        Location/      Questioned supported Funds Put to                       Issue
Number          Project Type          Contract            Costs     Costs Better Use                          Date
 ACCEPTING AND PROCESSING, TRANSPORTATION, DELIVERY AND ENABLING FUNCTIONS
044-1248530-PA(2) Location of Small Post OfficesBoston, MA 02210            $0          $0           $0 08/01/00
043-1274900-PA(2) Facilities Service Office     Buffalo, NY 14202            0            0           0 09/28/00
042-1290280-PA(2)3 FLSA Reviews                 New York, NY 10116           0            0           0 01/03/00

SERVICE INVESTIGATIONS
072-1277924-SI(2)3   International Air          Jersey City, NJ 07096       $0          $0           $0    2/18/00
                     Carrier Service
071-1307159-SI(2)    Aviation Security          New York, NY 10116           0            0           0 05/08/00
                     Screening Program
070-1289991-SI(1)3   Savings Opportunities      Washington, DC 20260         0            0           0 10/12/99
091-1308234-SI(2)3
                     Observation of             Honolulu, HI 96820           0            0           0    3/13/00
                     Mail Conditions
071-1307844-SI(2)    Census 2000 Audit          Washington, DC 20260         0            0           0 05/01/00
PERFORMANCE TOTALS                                                        $ 0         $ 0          $ 0


FINANCIAL MANAGEMENT
                                                                                        Un- Recommend
Report/Case    Subject Title/                   Location/           Questioned    supported Funds Put to     Issue
Number         Project Type                     Contract                 Costs        Costs Better Use        Date
 CONTRACT AUDITS
184-1126310-AC(1) Contract Audit                New York,            $514,696           $0           $0     4/3/00
                                                NY 10017
184-1254390-AC(1) Contract Audit                New York,                  644            0           0    8/30/00
                                                NY 10017
184-1225141-AC(1) Contract Audit                New York,                    0            0           0    8/30/00
                                                NY 10153
184-1210121-AC(1) Contract Audit                New York,               574,869           0           0    8/30/00
                                                NY 10017

FINANCIAL INSTALLATION AUDITS
013-1299606-AF(1) Financial Installation Audit Paramount, CA 90723          $0          $0           $0 04/17/00
011-1298934-AF(1) Financial Installation Audit Tampa, FL 33630               0            0           0 04/01/00
011-1298836-AF(1) Financial Installation Audit Merced, CA 95340              0            0           0 04/04/00
013-1300155-AF(1) Financial Installation Audit Conway, AR 72032              0            0           0 04/04/00
011-1300514-AF(1) Financial Installation Audit Reading, PA 19612             0            0           0 04/04/00
011-1300215-AF(1) Financial Installation Audit Topeka, KS 66603              0            0           0 04/05/00
011-1302404-AF(1) Financial Installation Audit Downers Grove, IL 60515       0            0           0 04/05/00
011-1298888-AF(1) Financial Installation Audit Jacksonville, FL 32203        0            0           0 04/06/00
011-1299223-AF(1) Financial Installation Audit Franklin, KY 42134            0            0           0 04/07/00
011-1302194-AF(1) Financial Installation Audit Clinton, IL 61727             0            0           0 04/11/00
011-1302195-AF(1) Financial Installation Audit Peoria, IL 61601              0            0           0 04/11/00
011-1300983-AF(1) Financial Installation Audit Toledo, OH 43601              0            0           0 04/12/00
011-1302221-AF(1) Financial Installation Audit Chicago, IL 60607             0            0           0 04/13/00
011-1300151-AF(1) Financial Installation Audit New Orleans, LA 70113         0            0           0 04/17/00
3
  These reports were issued in a prior Semiannual Reporting period; however, they were not entered
into the Inspection Service database information system until the current reporting period. To
ensure all reports issued to management are reported to Congress, these reports are being included
during this reporting period.

                                                                                                                     PAGE 103
                                                                                                  Un- Recommend
           Report/Case         Subject Title/              Location/           Questioned   supported Funds Put to   Issue
           Number              Project Type                Contract                 Costs       Costs Better Use      Date
           011-1298835-AF(1) Financial Installation Audit Sacramento, CA 95815         0            0           0 04/18/00
           014-1300241-AF(1) Financial Installation Audit Renton, WA 98058             0            0           0 04/07/00
           014-1300249-AF(1) Financial Installation Audit Seattle, WA 98109            0            0           0 04/13/00
           014-1301274-AF(1) Financial Installation Audit New Buffalo, MI 49117        0            0           0 04/14/00
           015-1301287-AF(1) Financial Installation Audit Dunreith, IN 47337           0            0           0 04/14/00
           011-1301270-AF(1) Financial Installation Audit Midland, MI 48640            0            0           0 04/28/00
           013-1299925-AF(1)3 Financial Installation Audit San Diego, CA 92123         0            0           0 02/23/00
           011-1298893-AF(1) Financial Installation Audit Greenville, SC 29612         0            0           0 04/17/00
           011-1298894-AF(1) Financial Installation Audit Greenville, SC 29602         0            0           0 04/17/00
           011-1300505-AF(1) Financial Installation Audit Mechanicsburg, PA 17055 0                 0           0 04/12/00
           011-1299048-AF(1) Financial Installation Audit Clarksville, TN 37043        0            0           0 04/11/00
           011-1300499-AF(1) Financial Installation Audit Harrisburg, PA 17105         0            0           0 04/06/00
           011-1298889-AF(1) Financial Installation Audit Tallahassee, FL 32301        0            0           0 04/03/00
           011-1300038-AF(1) Financial Installation Audit Seattle, WA 98101            0            0           0 04/20/00
           011-1299790-AF(1) Financial Installation Audit Richmond, VA 23230           0            0           0 04/25/00
           011-1298648-AF(1) Financial Installation Audit Farmingdale, NY 11735        0            0           0 04/14/00
           011-1298657-AF(1) Financial Installation Audit Central Islip, NY 11722      0            0           0 04/26/00
           013-1299033-AF(1) Financial Installation Audit McDonough, GA 30253          0            0           0 04/21/00
           012-1299206-AF(1) Financial Installation Audit Worcester, MA 01613          0            0           0 04/25/00
           014-1301255-AF(1) Financial Installation Audit Carleton, MI 48117           0            0           0 04/20/00
           011-1299059-AF(1) Financial Installation Audit Birmingham, AL 35217         0            0           0 04/21/00
           011-1299792-AF(1) Financial Installation Audit Washington, DC 20066         0            0           0 03/30/00
           011-1300202-AF(1) Financial Installation Audit Madison, WI 53714            0            0           0 05/08/00
           014-1299031-AF(1) Financial Installation Audit Jackson, GA 30233            0            0           0 05/04/00
           011-1298654-AF(1) Financial Installation Audit Mendota, IL 61342            0            0           0 05/12/00
           011-1299239-AF(1) Financial Installation Audit Omaha, NE 68108              0            0           0 05/12/00
           011-1301286-AF(1) Financial Installation Audit Terre Haute, IN 47802        0            0           0 05/10/00
           011-1301866-AF(1) Financial Installation Audit Boston, MA 02205             0            0           0 05/11/00
           011-1299743-AF(1) Financial Installation Audit Chanhassen, MN 55317         0            0           0 05/11/00
           014-1298699-AF(1) Financial Installation Audit Monticello, NY 12701         0            0           0 05/09/00
           015-1300530-AF(1) Financial Installation Audit Jean, NV 89019               0            0           0 05/09/00
           011-1298645-AF(1) Financial Installation Audit Jericho, NY 11753            0            0           0 05/15/00
           011-1298833-AF(1) Financial Installation Audit Folsom, CA 95630             0            0           0 05/17/00
           015-1300520-AF(1) Financial Installation Audit Salford, PA 18957            0            0           0 04/27/00
           011-1298834-AF(1) Financial Installation Audit Rancho Cordova,              0            0           0 05/11/00
                                                          CA 95670
           011-1300245-AF(1) Financial Installation Audit Lincoln, NE 68501            0            0           0 05/17/00
           011-1298882-AF(1) Financial Installation Audit Frankfort, KY 40601          0            0           0 05/17/00
           011-1299057-AF(1) Financial Installation Audit Birmingham, AL 35203         0            0           0 05/17/00
           013-1299932-AF(1) Financial Installation Audit Los Angeles, CA 90015        0            0           0 05/18/00
           013-1299950-AF(1) Financial Installation Audit Los Angeles, CA 90025        0            0           0 05/18/00
           014-1300986-AF(1) Financial Installation Audit Uniontown, OH 44685          0            0           0 05/19/00
           012-1299195-AF(1) Financial Installation Audit Buffalo, NY 14240            0            0           0 05/26/00
           011-1298884-AF(1) Financial Installation Audit Shepherdsville, KY 40165     0            0           0 05/25/00
           012-1300526-AF(1) Financial Installation Audit Rapid City, SD 57701         0            0           0 05/16/00
           015-1300525-AF(1) Financial Installation Audit Oliver, PA 15472             0            0           0 05/01/00
           011-1301284-AF(1) Financial Installation Audit Terre Haute, IN 47803        0            0           0 05/18/00
           011-1300147-AF(1) Financial Installation Audit Grand Prairie, TX 75051      0            0           0 05/22/00
           011-1302200-AF(1) Financial Installation Audit Bridgeview, IL 60455         0            0           0 05/24/00

PAGE 104   APPENDICES
                                                                                       Un- Recommend
Report/Case         Subject Title/              Location/           Questioned   supported Funds Put to   Issue
Number              Project Type                Contract                 Costs       Costs Better Use      Date
014-1298802-AF(1) Financial Installation Audit Gilroy, CA 95020             0            0           0 05/17/00
014-1300521-AF(1) Financial Installation Audit Holmes, PA 19043             0            0           0 05/25/00
011-1299815-AF(1) Financial Installation Audit Gaithersburg, MD 20898       0            0           0 05/31/00
014-1301277-AF(1) Financial Installation Audit Fenton, MI 48430             0            0           0 05/18/00
013-1298752-AF(1) Financial Installation Audit Sacramento, CA 95825         0            0           0 05/22/00
011-1300210-AF(1) Financial Installation Audit Waseca, MN 56093             0            0           0 06/06/00
012-1301278-AF(1) Financial Installation Audit Grand Rapids, MI 49599       0            0           0 05/16/00
011-1299697-AF(1) Financial Installation Audit Waite Park, MN 56387         0            0           0 05/18/00
014-1298646-AF(1) Financial Installation Audit Aquebogue, NY 11931          0            0           0 06/05/00
014-1299196-AF(1) Financial Installation Audit Lancaster, NY 14086          0            0           0 06/06/00
011-1301267-AF(1) Financial Installation Audit Grand Rapids, MI 49599       0            0           0 06/12/00
014-1300987-AF(1) Financial Installation Audit Wadsworth, OH 44281          0            0           0 06/09/00
011-1299216-AF(1) Financial Installation Audit Dundee, IL 601180            0            0           0 06/09/00
011-1302224-AF(1) Financial Installation Audit Carol Stream, IL 60188       0            0           0 06/09/00
011-1302222-AF(1) Financial Installation Audit Bensenville, IL 60106        0            0           0 06/09/00
014-1298989-AF(1) Financial Installation Audit Wildwood, FL 34785           0            0           0 06/12/00
011-1301290-AF(1) Financial Installation Audit Louisville, KY 40231         0            0           0 06/12/00
011-1299045-AF(1) Financial Installation Audit Knoxville, TN 37950          0            0           0 06/15/00
011-1300513-AF(1) Financial Installation Audit Southampton, PA 18966        0            0           0 06/13/00
011-1301508-AF(1) Financial Installation Audit Altoona, PA 16601            0            0           0 06/14/00
014-1300510-AF(1) Financial Installation Audit Milford, PA 18337            0            0           0 06/14/00
011-1299227-AF(1) Financial Installation Audit Newark, NJ 07102             0            0           0 06/15/00
011-1298985-AF(1) Financial Installation Audit South Holland, IL 60473      0            0           0 06/16/00
014-1299924-AF(1)3 Financial Installation Audit Claremont, CA 91711         0            0           0 12/14/99
011-1298830-AF(1) Financial Installation Audit Medford, OR 97501            0            0           0 06/14/00
014-1300240-AF(1) Financial Installation Audit Salida, CO 82101             0            0           0 06/07/00
011-1300494-AF(1) Financial Installation Audit Wilmington, DE 19808         0            0           0 06/27/00
011-1299603-AF(1) Financial Installation Audit Long Beach, CA 90809         0            0           0 06/16/00
011-1300060-AF(1) Financial Installation Audit Sioux Falls, SD 57104        0            0           0 06/19/00
011-1299214-AF(1) Financial Installation Audit Mundelein, IL 60060          0            0           0 06/23/00
011-1299197-AF(1) Financial Installation Audit Hartford, CT 06101           0            0           0 06/28/00
011-1300154-AF(1) Financial Installation Audit Tulsa, OK 74103              0            0           0 06/22/00
011-1300991-AF(1) Financial Installation Audit Cleveland, OH 44101          0            0           0 06/23/00
011-1301282-AF(1) Financial Installation Audit Seymour, IN 47274            0            0           0 06/09/00
011-1300216-AF(1) Financial Installation Audit Green Bay, WI 54303          0            0           0 06/26/00
014-1298810-AF(1) Financial Installation Audit Payette, ID 83661            0            0           0 06/12/00
011-1298639-AF(1) Financial Installation Audit Hicksville, NY 11801         0            0           0 07/13/00
012-1298993-AF(1) Financial Installation Audit Pembroke Pines, FL 33082 0                0           0 07/12/00
011-1299199-AF(1) Financial Installation Audit Torrington, CT 06790         0            0           0 07/19/00
014-1300994-AF(1) Financial Installation Audit Greenville, KY 42345         0            0           0 07/19/00
011-1300213-AF(1) Financial Installation Audit Mt. Pleasant, IA 52641       0            0           0 07/20/00
014-1299189-AF(1) Financial Installation Audit Boonville, NY 13309          0            0           0 07/26/00
015-1299226-AF(1) Financial Installation Audit St. Paul, MN 55101           0            0           0 07/14/00
011-1299224-AF(1) Financial Installation Audit St. Paul, MN 55164           0            0           0 07/14/00
014-1302407-AF(1) Financial Installation Audit Bartonville, IL 61607        0            0           0 07/10/00
011-1300244-AF(1) Financial Installation Audit Milwaukee, WI 53202          0            0           0 07/07/00
011-1300992-AF(1) Financial Installation Audit Berea, OH 44017              0            0           0 07/12/00
011-1300243-AF(1) Financial Installation Audit Milwaukee, WI 53203          0            0           0 07/07/00



                                                                                                                  PAGE 105
                                                                                                  Un- Recommend
           Report/Case         Subject Title/              Location/           Questioned   supported Funds Put to   Issue
           Number              Project Type                Contract                 Costs       Costs Better Use      Date
           011-1299822-AF(1) Financial Installation Audit Winston-Salem,               0            0           0 07/07/00
                                                          NC 27120
           011-1299747-AF(1) Financial Installation Audit Pomona, CA 91766             0            0           0 07/06/00
           014-1300221-AF(1) Financial Installation Audit Yankton, SD 57078            0            0           0 07/06/00
           011-1299820-AF(1) Financial Installation Audit Washington, NC 27889         0            0           0 07/05/00
           011-1302378-AF(1) Financial Installation Audit Carol Stream, IL 60188       0            0           0 06/26/00
           011-1299225-AF(1) Financial Installation Audit St. Paul, MN 55113           0            0           0 07/21/00
           012-1300222-AF(1) Financial Installation Audit Aberdeen, SD 57401           0            0           0 07/26/00
           011-1300229-AF(1) Financial Installation Audit Kenosha, WI 53140            0            0           0 07/27/00
           011-1299939-AF(1) Financial Installation Audit Kansas City, MO 64108        0            0           0 07/05/00
           011-1299917-AF(1) Financial Installation Audit Butler, MN 55403             0            0           0 07/05/00
           012-1299745-AF(1) Financial Installation Audit Vista, CA 92083              0            0           0 07/11/00
           014-1299317-AF(1) Financial Installation Audit Port Townsend,               0            0           0 07/26/00
                                                          WA 98368
           014-1299191-AF(1) Financial Installation Audit Dolgeville, NY 13329         0            0           0 07/31/00
           011-1299056-AF(1) Financial Installation Audit Montgomery, AL 36119         0            0           0 07/31/00
           011-1299619-AF(1) Financial Installation Audit Los Angeles, CA 90052        0            0           0 08/02/00
           011-1300996-AF(1) Financial Installation Audit Versailles, KY 40383         0            0           0 08/02/00
           014-1300995-AF(1) Financial Installation Audit Winchester, KY 40391         0            0           0 08/02/00
           011-1298650-AF(1) Financial Installation Audit Flushing, NY 11351           0            0           0 08/03/00
           011-1299232-AF(1) Financial Installation Audit Union City, NJ 07087         0            0           0 08/04/00
           013-1299611-AF(1) Financial Installation Audit Inglewood, CA 90311          0            0           0 08/04/00
           011-1301229-AF(1) Financial Installation Audit Allen Park, MI 48233         0            0           0 08/07/00
           011-1300150-AF(1) Financial Installation Audit Missouri City, TX 77489      0            0           0 08/14/00
           011-1299184-AF(1) Financial Installation Audit Saratoga, NY 12866           0            0           0 08/15/00
           015-1301273-AF(1) Financial Installation Audit Reed City, MI 49677          0            0           0 07/19/00
           011-1299929-AF(1) Financial Installation Audit Los Angeles, CA 90052        0            0           0 05/08/00
           011-1299198-AF(1) Financial Installation Audit Old Saybrook, CT 06475       0            0           0 08/18/00
           011-1299789-AF(1) Financial Installation Audit Richmond, VA 23232           0            0           0 05/01/00
           011-1299818-AF(1) Financial Installation Audit Raleigh, NC 27676            0            0           0 05/15/00
           011-1304153-AF(1) Financial Installation Audit Princeton, NJ 08540          0            0           0 08/18/00
           015-1299935-AF(1) Financial Installation Audit Ontario, CA 91764            0            0           0 08/21/00
           014-1299186-AF(1) Financial Installation Audit Coxsackie, NY 12051          0            0           0 08/25/00
           011-1300205-AF(1) Financial Installation Audit Beaver Dam, WI 53916         0            0           0 08/28/00
           011-1300984-AF(1) Financial Installation Audit Toledo, OH 43601             0            0           0 05/12/00
           014-1299030-AF(1) Financial Installation Audit Atlanta, GA 30316            0            0           0 08/28/00
           011-1299602-AF(1) Financial Installation Audit Kansas City, MO 64101        0            0           0 06/22/00
           011-1300201-AF(1) Financial Installation Audit Effingham, IL 62401          0            0           0 08/31/00
           011-1298832-AF(1) Financial Installation Audit San Jose, CA 95101           0            0           0 08/25/00
           015-1301865-AF(1) Financial Installation Audit Pompey, NY 13138             0            0           0 09/07/00
           011-1302223-AF(1) Financial Installation Audit Franklin Park, IL 60131      0            0           0 08/31/00
           011-1300148-AF(1) Financial Installation Audit Ft. Worth, TX 76161          0            0           0 09/06/00
           015-1299192-AF(1) Financial Installation Audit Calcium, NY 13616            0            0           0 09/05/00
           011-1302197-AF(1) Financial Installation Audit Pontiac, IL 61764            0            0           0 09/07/00
           011-1300146-AF(1) Financial Installation Audit Dallas, TX 75260             0            0           0 09/07/00
           011-1299207-AF(1) Financial Installation Audit Randolph, MA 02368           0            0           0 09/08/00
           011-1300149-AF(1) Financial Installation Audit Houston, TX 77201            0            0           0 09/08/00
           011-1299773-AF(1) Financial Installation Audit Thousand Oaks,               0            0           0 07/02/00
                                                          CA 91360


PAGE 106   APPENDICES
                                                                                         Un- Recommend
Report/Case         Subject Title/              Location/             Questioned   supported Funds Put to   Issue
Number              Project Type                Contract                   Costs       Costs Better Use      Date
DISTRICT ACCOUNTING OFFICE AUDITS
188-1300427-AF(2) Financial Installation Audit Little Rock, AR 72205         $0          $0           $0 04/18/00
188-1300042-AF(2) Financial Installation Audit Seattle, WA 98168              0            0           0 04/19/00
016-1299248-AF(2) Financial Installation Audit Newark, NJ 07102               0            0           0 04/21/00
016-1300033-AF(2) Financial Installation Audit Seattle, WA 98109              0            0           0 04/18/00
188-1299249-AF(2) Financial Installation Audit Newark, NJ 07102               0            0           0 04/28/00
016-1302205-AF(2) Financial Installation Audit St. Louis, MO 63155            0            0           0 04/27/00
016-1300400-AF(2) Financial Installation Audit Coppell, TX 75099              0            0           0 05/10/00
188-1301279-AF(2) Financial Installation Audit Grand Rapids, MI 49599         0            0           0 05/22/00
016-1300401-AF(2) Financial Installation Audit Oklahoma City, OK 73125 0                   0           0 06/20/00
016-1301280-AF(2) Financial Installation Audit Grand Rapids, MI 49599         0            0           0 06/09/00
016-1300988-AF(2) Financial Installation Audit Cleveland, OH 44101            0            0           0 06/22/00
188-1300989-AF(2) Financial Installation Audit Cleveland, OH 44101            0            0           0 06/22/00
016-1302233-AF(2) Financial Installation Audit Richmond, VA 23232             0            0           0 04/27/00
016-1300399-AF(2) Financial Installation Audit Little Rock, AR 72205          0            0           0 06/28/00
016-1299922-AF(2) Financial Installation Audit Minneapolis, MN 55402          0            0           0 08/04/00
188-1299947-AF(2) Financial Installation Audit Minneapolis, MN 55402          0            0           0 08/02/00
016-1302543-AF(2) Financial Installation Audit Bedford Park, IL 60499         0            0           0 08/14/00
188-1302403-AF(2) Financial Installation Audit Bedford Park, IL 60499         0            0           0 08/18/00
016-1298678-AF(2) Financial Installation Audit San Francisco, CA 94188        0            0           0 08/29/00
188-1299176-AF(2) Financial Installation Audit New Haven, CT 06500            0            0           0 08/30/00
188-1299017-AF(2) Financial Installation Audit Jackson, MS 39205              0            0           0 08/30/00
FINANCIAL INVESTIGATIONS
173-1308487-PVS(1)3 Delivery Point Sequence     South, FL 33082              $0          $0           $0 03/02/00
017-1312706-FI(2)   Financial Audit             Halsey, OR 97348              0            0           0 05/01/00
017-1311604-FI(2)   Financial Audit             Clark Fork, ID 83811          0            0           0 05/05/00
017-1312705-FI(2)   Financial Audit             Murphy, ID 83650              0            0           0 05/11/00
017-1312709-FI(2)   Financial Audit             Melba, ID 83641               0            0           0 05/01/00
017-1315949-FI(2)   Financial Audit             Wishram, WA 98673             0            0           0 06/22/00
017-1311413-FI(2)   Financial Audit             East Otto, NY 14729           0            0           0 05/16/00
824-1314103-FI(3)   Financial Investigation     Monroe, OH 45056              0            0           0 05/31/00
830-1312659-FI(1)   Financial Investigation     Milwaukee, WI 53237           0            0           0 06/15/00
017-1315820-FI(2)   Financial Audit             Orondo, WA 98843              0            0           0 07/17/00
798-1291938-ICR(1) Registered Mail              Royal Oak, MI 48068           0            0           0 07/28/00
822-1305289-FI(1)   Financial Investigation     Mooresville, IN 46158         0            0           0 04/13/00
833-1317409-FI(1)   Financial Investigation     Chicago, IL 60646             0            0           0 07/28/00
017-1317904-FI(2)   Financial Audit             Raymond, WA 98577             0            0           0 08/21/00
830-1230138-FI(1)   Embezzlement                San Bernardino,               0            0           0 04/07/00
                                                CA 92401
017-1320223-FI(2)   Financial Audit             Atlanta, NY 14808             0            0           0 09/01/00
017-1318989-FI(2)   Financial Audit             Stockton, NY 14784            0            0           0 09/01/00
447-1307663-ECM(3)3 Arrow Key Inventory         Anchorage, AK 99508           0            0           0 02/15/00
REVENUE INVESTIGATIONS
061-1299273-RI(1)   Postage Meter               Framingham, MA 01702         $0          $0           $0 04/07/00
061-1302035-RI(1)   Postage Meter               Fairfield, NJ 07004           0            0           0 04/05/00
061-1301199-RI(1)   Postage Meter               McLean, VA 22102              0            0           0 04/07/00
384-1311120-RI(1)3 Postage Meter                Washington, IA 52353          0            0           0 03/27/00
061-1305920-RI(1)   Postage Meter               City of Industry,             0            0           0 04/28/00
                                                CA 91748



                                                                                                                    PAGE 107
                                                                                                   Un- Recommend
           Report/Case         Subject Title/            Location/            Questioned     supported Funds Put to   Issue
           Number              Project Type              Contract                  Costs         Costs Better Use      Date
           061-1312692-RI(1)   Postage Meter             Miamisburg, OH 45342         0              0           0 05/12/00
           065-1305006-RI(1)   Periodical Mail           Chicago, IL 60659            0              0           0 05/16/00
           061-1305652-RI(1)   Postage Meter             Wallingford, CT 06492        0              0           0 06/02/00
           064-1314004-RI(1)   First-Class Mail          Norfolk, VA 23501            0              0           0 05/26/00
           064-1314745-RI(1)   First-Class Mail          Arlington Heights,           0              0           0 06/01/00
                                                         IL 60004
           065-1249966-RI(1)   Periodical Mail           King of Prussia, PA 19406    0              0           0 05/02/00
           068-1314597-RI(1)   First-Class Mail          Bradenton, FL 34208          0              0           0 06/21/00
           069-1312663-RI(2)   Express Mail Review       Tampa, FL 33622              0              0           0 05/25/00
           409-1315507-ECM(2) Bait Money Order Program   Miami, FL 33128              0              0           0 06/20/00
           061-1296645-RI(1)   Postage Meter             Lisle, IL 60532              0              0           0 07/05/00
           062-1290923-RI(1)   Nonprofit Mail            Wilkes-Barre, PA 18701       0              0           0 06/19/00
           920-1242149-RI(1)   Plant Loads               Bala Cynwyd, PA 14202        0              0           0 04/03/00
           FINANCIAL MANAGEMENT TOTALS                                      $1,090,209           $ 0          $ 0


           INSPECTION SERVICE TOTALS                                        $1,090,209           $ 0          $ 0


           GRAND TOTALS                                                    $61,305,289
                                                                                           $10,504,442
                                                                                                     $139,674,085




PAGE 108   APPENDICES
APPENDIX B

Findings of Questioned Costs
For the period April 1, 2000, through September 30, 2000

OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                              Unsupported
                                                                                                     Costs
                                                                                     Total      Included In
                                                              Number of        Questioned      Questioned
Description                                                     Reports             Costs            Costs
Reports for which no management decision was made at the
beginning of the reporting period                                     20   $292,730,104      $13,151,513
Reports requiring management decision that were issued
during the reporting period                                           29     61,305,289       10,504,442

TOTALS                                                                49   $354,035,393      $23,655,955

Reports for which a management decision was made
during the reporting period (i+ii)                                     9   $277,144,395       $5,757,046
(i) Dollar Value of disallowed cost                                        $272,041,133
(ii) Dollar value of cost not disallowed                                     $5,103,262
Reports for which no management decision was
made by the end of the reporting period.
Negotiations are ongoing.                                             40    $76,890,998      $17,898,909
Reports for which no management decision was
made within six months of issuance
(See Note 1 for a list of individual reports)                          9     $8,770,318       $1,741,537
Reports for which no management decision was
made within one year of issuance
(See Note 2 for a list of individual reports)                          3     $7,131,716       $5,841,563



Note 1 – Reports for which no management decision was made within six months of issuance:

OFFICE OF INSPECTOR GENERAL
                                                                                              Unsupported
                                                                                                     Costs
                                                                                   Total        Included In
                                                                             Questioned        Questioned
Report Date   Case Number           Project Type                                  Costs              Costs
2/21/00       CA-CAR-00-006         Contract Audit                           $121,452            $54,185
3/6/00        CA-CAR-00-011         Contract Audit                             36,490                  0
3/14/00       CA-CAR-00-014         Contract Audit                             38,607                  0
3/14/00       CA-CAR-00-015         Contract Audit                            464,644                  0
3/29/00       CA-CAR-00-018         Contract Audit                             90,366                  0
3/31/00       CA-MA-00-001          Contract Audit Practices                   92,214                  0
2/29/00       TR-AR-00-005          Southwest Area Expenditures for           848,000                  0
                                    Extra Highway Trips Using
                                    Leased Equipment

OIG TOTAL                                                                  $1,691,773            $54,185




                                                                                                              PAGE 109
           INSPECTION SERVICE
                                                                                               Unsupported
                                                                                                      Costs
                                                                                      Total      Included In
                                                                                Questioned      Questioned
           Report Date   Case Number         Project Type                            Costs            Costs
           11/17/99      181-1294644-AC(1)   Contract Audit                    $7,063,747      $1,675,877
           3/22/00       184-1289120-AC(1)   Contract Audit                        14,798          11,475

           INSPECTION SERVICE TOTAL                                           $7,078,545       $1,687,352

           TOTAL                                                              $8,770,318       $1,741,537

           Note 2 – Reports for which no management decision was made within one year of issuance:

           INSPECTION SERVICE
                                                                                               Unsupported
                                                                                                      Costs
                                                                                      Total      Included In
                                                                                Questioned      Questioned
           Report Date   Case Number         Project Type                            Costs            Costs
           07/28/99      184-1259633-AC(1)   Contract Audit                       $29,758            $ 0
           12/07/98      184-1243166-AC(1)   Contract Audit                     7,087,038       5,841,563
           03/12/98      182-1224877-AC(1)   Contract Audit                        14,920               0

           INSPECTION SERVICE TOTAL                                           $7,131,716       $5,841,563




PAGE 110   APPENDICES
APPENDIX C

Recommendations That Funds
Be Put to Better Use
For the period April 1, 2000, through September 30, 2000
OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                Number of
Description                                                                       Reports      Dollar Value
Reports for which no management decision was made at
the beginning of the reporting period                                                  20    $44,735,617
Reports requiring a management decision that were issued
during the reporting period                                                             6   $139,674,085

TOTALS                                                                                 26   $184,409,702

Reports for which a management decision was made during the report period (i+ii+iii)   15    $76,277,584
(i) Value of recommendations implemented by management                                       $71,166,922
(ii) Value of recommendations that management did not recover                                 $5,110,662
(iii) Value of recommendations that management did not agree to implement                           $ 0
Reports for which no management decision was made by the end of the
reporting period.                                                                      11   $108,132,118
Reports for which no management decision was made within six months of issuance
(See Note 1 for a list of individual reports)                                           1     $5,073,926
Reports for which no management decision was made within one year of issuance
(See Note 2 for a list of individual reports)                                           8    $24,775,797

Note 1 – Reports for which no management decision was made within six months of issuance:

                                                                                               Recommend
Report        Case                                                                            Funds Put to
Date          Number                     Project Type                                           Better Use
3/29/00       039-1295484-PA(2)          Transportation Operations                            $5,073,926

TOTAL                                                                                         $5,073,926

Note 2 – Reports for which no management decision was made within one year of issuance:
                                                                                               Recommend
Report        Case                                                                            Funds Put to
Date          Number                     Project Type                                           Better Use
10/30/98      181-1252372-AC(1)          Contract Audit                                       $1,710,680
12/18/98      181-1253441-AC(1)          Contract Audit                                          145,532
11/24/98      181-1254410-AC(1)          Contract Audit                                          137,480
04/14/98      181-1237199-AC(1)          Contract Audit                                       14,156,740
05/20/95      181-1165940-AC(1)          Contract Audit                                        8,370,460
06/15/99      181-1288561-AC(1)          Contract Audit                                           94,303
08/27/99      181-1294162-AC(1)          Contract Audit                                          122,861
09/20/99      181-1296773-AC(1)          Contract Audit                                           37,741

TOTALS                                                                                       $24,775,797




                                                                                                              PAGE 111
           APPENDIX D

           Unresolved Reports
           For the period April 1, 2000, through September 30, 2000

           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                      Number of            Total
                                                                 Number of    Inspection Service      Number of
           Description                                          OIG Reports              Reports        Reports
           Reports Unresolved At The Beginning
           Of Period
            Reports Issued Before 10/01/99                              10                   23              33
            Reports Issued Prior Period, 3/31/00                         3                   42              45
           Total Reports                                                13                   65              78

           Reports Issued This Period, 9/30/00                           3                 220             223
           Total Reports1                                               16                 285             301

           Reports Resolved:
            Issued Before 10/01/99                                      10                   9              19
            Issued Prior Period 3/31/00                                  2                  30              32
            Issued This Period 9/30/00                                   0                 190             190
           Tota1 Resolved                                               12                 229             241

           Reports Unresolved as of 9/30/00
            One year or more (10/01/99)
            (See Note 1 For A List Of Individual Reports)                0                   14              14
            Six months or more but less than one year, 4/1/00
            (See Note 2 For A List Of Individual Reports)                1                  12              13
            Less Than Six Month                                          3                  30              33
           TOTAL UNRESOLVED                                              4                  56              60

           Reports Resolved Where Management Did Not Agree to
           Implement All Recommendation                                 12                    4              16




           1
             Excludes audits previously reported, in Appendix B - Findings of Questioned Costs; and
           Appendix C - Recommendations That Funds Be Put To Better Use.

PAGE 112   APPENDICES
Note 1 – List of reports pending one year or more:

INSPECTION SERVICE
Issue      Report/Case
Date       Number               Condition
08/12/97   007-1199652-AD(1)    EDP Controls, San Mateo, CA -- Management is progressing in testing crit-
                                ical applications and providing off-site storage for critical files.
12/31/97   069-1188871-RI(2)    Inbound Verification Procedures, Jersey City, NJ -- Management is continu-
                                ing to develop action plans to verify inbound foreign mail.
05/11/98   027-1204380-PA(1)    National Audit on Effectiveness of Employee Reassignments --
                                Management is developing integrated policies and procedures on reassign-
                                ment processes and providing attention in complement planning initiatives.
05/12/98   023-1209811-PA(1)    National Audit on Air Transportation Networks -- Management is prepar-
                                ing operating plans and corrective actions are being taken.
06/05/98   024-1214098-PA(1)    National Audit on City Route Inspections and Adjustment Process --
                                Management is developing instructions to review, train, and increase super-
                                vision for the route inspection/adjustment process and the associated moni-
                                toring of savings.
09/15/98   020-1220283-PA(1)    National Audit on Postal Retail Stores -- Management is developing proce-
                                dures in retail operations and a handbook and instruction are being updated.
09/28/98   061-1234452-RI(1)    Postage Meter, Chicago, IL -- Management is in the process of reconciling
                                the movement of meters from customers to the direct distribution center.
09/30/98   007-1225935-AD(1)    EDP Controls, St. Paul, MN -- Management is concluding administrative
                                security review.
12/30/98   023-1223496-PA(1)    National Audit on Logistics and Transportation -- Management is in the
                                process of implementing recommendations regarding air-to-surface mail
                                routing.
12/30/98   061-1262023-RI(1)    Postage Meter, Southington, CT -- Management is in the process of imple-
                                menting recommendations regarding meter inventories and meter control.
03/17/99   022-1244541-PA(1)    National Audit on Priority Mail -- Management is developing procedures to
                                ensure efficient and effective processing of priority mail.
04/19/99   072-1254408-SI(2)    Mail Service Review, Chicago, IL -- Management is currently re-evaluating
                                maintenance staffing issues.
05/22/99   061-1263973-RI(1)    Postage Meter, Washington, DC -- Management is in the process of imple-
                                menting internal control recommendations.
08/13/99   011-1256263-AF(1)    Financial Installation Audit, Chicago, IL -- Management is in the process of
                                implementing recommendations relating to employee accountabilities, stamp
                                stock destruction, post office box/caller service and stamp inventories.




                                                                                                               PAGE 113
           Note 2 - List of reports pending six months but less than one year:

           OFFICE OF INSPECTOR GENERAL
           Issue        Report/Case
           Date         Number              Report Name
           3/31/00      RG-AR-00-002        Review of the Breast Cancer Research Stamp Program



           INSPECTION SERVICE
           Issue        Report/Case
           Date         Number              Condition
           10/05/99     052-1290664-PA(3)   Flat Operations, San Antonio, TX -- Management is in the process of
                                            implementing recommendations regarding flat sorter staffing and compensa-
                                            tion levels.
           11/23/99     016-1298651-AF(2)   District Accounting Office, White Plains, NY -- Management is in the
                                            process of reconciling money order differences.
           12/22/99     011-1299727-AF(1)   Financial Installation Audit, Capital Heights, MD -- Management is imple-
                                            menting internal controls over postage due and business reply mail trust
                                            funds.
           01/28/00     071-1294372-SI(2)   Operation Review, Allen Park, MI -- Management is in the process of
                                            implementing recommendations over flat operations, flat sorter staffing and
                                            scheduling and compensation levels.
           01/31/00     011-1298652-AF(1)   Financial Installation Audit, Floral Park, NY -- Management is implement-
                                            ing internal controls over capital property and local disbursements.
           02/07/00     011-1301231-AF(1)   Financial Installation Audit, Southfield, MI -- Management is implement-
                                            ing internal controls over retail store stamp accountability.
           02/08/00     038-1292495-PA(2)   Delivery Automation, Western Area -- Management is in the process of
                                            implementing recommendation regarding flat sorting operations.
           02/28/00     011-1299730-AF(1)   Financial Installation Audit, Rockville, MD -- Management is implement-
                                            ing internal controls over post office box operations.
           02/29/00     011-1299938-AF(1)   Financial Installation Audit, San Diego, CA -- Management is implement-
                                            ing internal controls over retail store stamp accountability.
           03/16/00     011-1302405-AF(1)   Financial Installation Audit, Chicago, IL -- Management is in the process
                                            of implementing recommendations relating to financial reporting, employee
                                            accountability, unit reserve accountability, vending accountability, post
                                            office box, postage due / business reply mail, collect on delivery mail and
                                            window operations.
           03/16/00     061-1305144-RI(1)   Postage Meter, Houston, TX -- Management is in the process of implement-
                                            ing recommendations over meter inspections and control of meters.
           03/29/00     039-1295484-PA(2)   Transportation Operations, Indianapolis, IN -- Management is evaluating
                                            HCR operations.




PAGE 114   APPENDICES
APPENDIX E

Criminal Statistics
For the period April 1, 2000, through September 30, 2000
OFFICE OF INSPECTOR GENERAL
Type of Investigation                                                 Arrests1             Convictions2
Business Protection
 Business Protection                                                      31                  3
OIG TOTALS                                                                31                  3



INSPECTION SERVICE
Type of Investigation                                                 Arrests1             Convictions2
Revenue & Asset Protection Program
 Expenditure Investigations                                                3                  1
 Financial Investigations                                                153                141
 Workers' Compensation Fraud                                              18                 22
 Revenue Investigations                                                   49                 43
Robbery                                                                   50                 30
Burglary                                                                  93                 83
Miscellaneous External Crimes
 Includes counterfeit and contraband postage,
 money order offenses, vandalism and arson                               317                285
Assaults Against Employees
 Includes threats and assaults against on-duty postal employees          211                161
Employee Narcotics Cases
 Includes employees and non-employees selling
 narcotics on postal property                                              16                11
Mail Theft by Employees, Non-Employees, or Contractors
 Includes theft and possession of stolen mail                          2,798              2,464
Miscellaneous Employee Crimes
 Includes theft of postal property and sabotage of equipment               40                46
Bombs/Explosive Devices                                                    37                41
Mailing of Controlled Substances
 Includes hazardous material, firearms and weapons,
 intoxicants, explosives other than bombs, extortion
 and false documents                                                     771                539
Child Exploitation, Mailing of Obscene Matter and
 Sexually Oriented Advisement                                            145                105
Mailing of Miscellaneous Nonmailables
 Includes hazardous material, firearms and weapons,
 intoxicants, explosives other than bombs, extortion
 and false documents                                                      43                 47
Mail Fraud                                                               806                662

INSPECTION SERVICE TOTALS3                                             5,550              4,681

GRAND TOTALS                                                           5,581              4,684




1
  Some of these arrests occurred in a prior semiannual reporting period; however, they were not
reported until the current reporting period.
2
  Convictions reported in this time frame may be related to arrests made in prior reporting periods.
3
  Arrests and convictions include joint investigations with other federal law enforcement agencies.

                                                                                                          PAGE 115
           APPENDIX F

           Summary of Postal Service Investigative
           Activities Under 39 USC § 3013
           For the period April 1, 2000, through September 30, 2000

           The Postal Reorganization Act requires the Postmaster General to furnish information on the
           investigative activities of the Postal Service on a semiannual basis. With passage of the
           Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's report-
           ing obligations were changed.
           The Act requires the Postal Service to submit its semiannual report to the OIG rather than to
           the Board of Governors; expands the subject matter that must be reported; and revises the
           reporting schedule to coordinate with the OIG Semiannual Report to Congress. The informa-
           tion in the report includes actions directed at combating crimes involving the mail; costs and
           expenditures devoted to Postal Service investigative activities; use of subpoena power; and any
           additional information the OIG may require. This change in reporting requirements was effec-
           tive the beginning of this reporting period.

           ABUSE OF MAILS
           The Postal Service reports to the OIG information related to investigative activities designed to
           protect the public against unscrupulous mailers perpetrating fraudulent schemes. The following
           information summarizes the administrative and judicial actions initiated and resolved during the
           reporting period. These actions include the issuance of cease and desist orders directed to mail-
           ers, actions to intercept payments fraudulently induced, and orders seeking to intercept fraudu-
           lent mailings. This information is reported as required under 39 USC § 3005 and § 3007.

           INSPECTION SERVICE
                                                                                                     False   Cease &
                                                                    Complaints      Consent Representation     Desist
           Type of Scheme1                                               Filed   Agreements        Orders     Orders

           Advance fee
           Boiler rooms/Telemarketing                                       1
           Contest/Sweepstakes                                              1             1                        1
           Rebate fraud                                                     1             1                        1
           Directory solicitations
           Distributorships                                                 1             1                        1
           Employment
           False billings
           Fraud against government agencies
           Fraud against the Postal Service
           Insurance
           Investments                                                      2             2                        2
           Loans
           Lotteries (foreign and domestic)                                10                          10
           Medical                                                          4             3             4          4
           Memberships
           Merchandise:
              Failure to furnish                                            1             1                        1
              Failure to pay                                                2             2                        2
              Misrepresentation                                             1                           1          1
           Miscellaneous
           1
               Definitions of these schemes are listed at the end of this appendix.

PAGE 116   APPENDICES
                                                                                      False   Cease &
                                                  Complaints         Consent Representation     Desist
Type of Scheme                                         Filed      Agreements        Orders     Orders

Solicitations
Travel
Work at home                                               4               4                        5
TOTAL                                                     28              15            15         18

ADMINISTRATIVE ACTIONS
Administrative Action requests                            27
Temporary Restraining Order requests
Temporary Restraining Orders issued
Civil Injunction requests                                  4
Civil Injunctions issued                                   4
Cases using Direct Purchase Authority                      0
Refusals of Direct Purchase Authority                      0
Civil penalties imposed                                   $0
Withholding Mail Orders issued                            68
Voluntary Discontinuances                                239
Expenditures incurred for:
  Test Purchases                                           $0
  Expert Testimony                                     $1,650
  Witness Travel                                           $0

POSTAL SERVICE ADMINISTRATIVE SUBPOENA AUTHORITY
The Postal Service reports to the OIG information on the number of cases in which the Postal
Service issued administrative subpoenas in connection with deceptive mailings. The following
section identifies the number and nature of cases in which the Postal Service exercised this
authority to request relevant business and associated records.
Case Number              Date Requested       Scheme
USPS-00-001              5/25/00              Identity Takeover
USPS-00-002              6/30/00              Merchandise - Failure to pay
USPS-00-003              7/11/00              Medical Fraud
USPS-00-005              8/9/00               Work at home schemes
USPS-00-006              8/9/00               Work at home schemes
USPS-00-007              8/28/00              Merchandise Misrepresentation
USPS-00-008              8/28/00              Merchandise Misrepresentation
USPS-00-009              8/28/00              Merchandise Misrepresentation
USPS-00-010              8/28/00              Merchandise Misrepresentation
USPS-00-011              8/28/00              Merchandise Misrepresentation
USPS-00-012              8/28/00              Merchandise Misrepresentation

FINANCIAL REPORTING ON INVESTIGATIVE ACTIVITIES
The Postal Service reports to the OIG information related to the amount of financial expendi-
tures and obligations incurred pursuing the investigative activities of the Postal Service.
Information related to these activities is summarized below.
Type                                                            Year End Report
Personnel                                                       $138,045,117
Nonpersonnel                                                      38,662,985
Total Expenditures                                              $176,668,102
Capital Obligations                                               $6,910,973




                                                                                                         PAGE 117
           OTHER INVESTIGATIVE ACTIVITIES
           The Postal Service also reports to the OIG additional information related to significant inves-
           tigative activities and other investigative matters. This section outlines a number of significant
           investigative activities the Postal Service has initiated and is pursuing, to include the Mail Task
           Forces and the KNOW FRAUD initiative. Inspection Service and OIG criminal statistical
           information is summarized in Appendix E.

           MAIL TASK FORCES
           The Inspection Service has partnered with the financial services, manufacturing, and direct mar-
           keting industries on behalf of the Postal Service to ensure confidence in the mail by forming
           three task forces to combat fraud: Credit Card Mail Security, Rebate Fraud and Mail Order
           Security. Each task force helps to reduce mail fraud, theft, and processing problems by identify-
           ing and exchanging information on best practices, fraud trends and loss-prevention techniques,
           and to develop improved processes and procedures.
           The Credit Card Mail Security Task Force was created in 1992 and has dramatically reduced
           nonreceived issued credit card fraud losses by 68 percent, while credit card purchases have
           increased more than 86 percent. In 1995, the Inspection Service teamed with the coupon rebate
           industry to combat mail-in rebate fraud. In 1996, the Inspection Service and the direct market-
           ing industry created the Mail Order Task Force to facilitate this continued success by joining
           together to prevent and detect fraud and theft. In a pilot program, the Mail Order Task Force
           has reduced nonreceipt losses by 10 percent to 15 percent for direct marketing companies experi-
           encing mail processing problems.

           KNOW FRAUD
           In an effort to educate and help consumers, Inspection Service launched KNOW FRAUD, a
           consumer protection effort, in November 1999, which served as an excellent example of "coordi-
           nation among the federal government’s consumer protection agencies." To launch the KNOW
           FRAUD program, the Inspection Service joined forces with several federal, state, and private
           agencies, including the Department of Justice, Federal Bureau of Investigations, Federal Trade
           Commission, Securities and Exchange Commission, National Association of Attorneys General,
           American Association of Retired Persons, and Better Business Bureau. The KNOW FRAUD
           initiative has included a postcard mailing to 120 million American households alerting con-
           sumers to the dangers of telemarketing and mail fraud.
           The KNOW FRAUD partnership is now focusing on identity theft. Work is underway by the
           partners to get an identity theft prevention message to consumers. A toll-free ID theft hotline,
           1-877-438-4338, and a KNOW FRAUD website were established to provide consumers with
           additional information and to link consumers with law enforcement officials who would share
           information.




PAGE 118   APPENDICES
DEFINITIONS OF SCHEMES
Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
Boiler rooms/Telemarketing. An office or suite of offices with banks of telephones and tele-
phone solicitors who use high-pressure techniques to persuade consumers to respond to bogus
offers.
Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
of money, gifts, or other items of value. "Prizes" are either never shipped or are inferior to what
was promised.
Rebate fraud. Redeeming cents-off coupons or manufacturers' rebates when no merchandise was
actually purchased; establishing fictitious stores, clearing houses or addresses; submitting counter-
feit coupons or rebates by consumers.
Directory solicitations. Fraudulent solicitations in the guise of invoices for advertisement or
renewal in business directories.
Distributorships. Pyramid schemes in which it is mathematically impossible for all participants
to recoup their investments. The emphasis is not on the sale of the product, but on getting oth-
ers to participate.
Employment. Soliciting money for information or assistance in obtaining nonexistent or misrep-
resented jobs.
False billings. Mailing solicitations in the guise of billings.
Fraud against government agencies. Any scheme that attempts to defraud a U.S. government
agency except the Postal Service.
Fraud against Postal Service. Any scheme that attempts to defraud the Postal Service.
Insurance. Investigation of insurance-related fraud involving false claims, false advertising on
the availability of insurance, or the collection of premiums for nonexistent policies.
Investments. Misrepresented opportunities to invest in commodities, gems, metals, stocks,
bonds, certificates of deposit, mutual funds, IRAs, coins, stamps, art, etc.
Loans. Mailings soliciting money for information on nonexistent or misrepresented loans.
Lottery. Advertisements seeking money or property by mail for participation in schemes to win
prizes through chance.
Medical. Sales by mail of misrepresented health products or services, including fraudulent med-
ical degrees.
Memberships. Failure to provide services advertised in connection with organization member-
ship.
Merchandise failure to furnish. A mail order operator that does not provide ordered merchan-
dise.
Merchandise failure to pay. Mail order merchandise that is acquired without providing pay-
ment.
Merchandise misrepresentation. Mail order merchandise or services are materially misrepresent-
ed in advertising.
Miscellaneous. Any other scheme not described in a specific category.
Solicitations. Fraudulent solicitation of funds through the mail for alleged charitable, religious
minority-oriented groups, and similar causes or organizations.
Travel. Fraudulent vacation or travel opportunities.
Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




                                                                                                        PAGE 119
           APPENDIX G

           Closed Congressional Inquiries
           For the period April 1, 2000, through September 30, 2000

           This appendix lists the 50 Congressional inquiries the OIG closed during this reporting period.
           The OIG reviewed these inquiries to help identify systemic issues and to determine the need for
           future Postal-wide audits.

           PERFORMANCE
                                                                                                            Response
           Requestor                 Allegation/Concern                                                     Date
           Senators, Ohio            Inquiry into the Citizens’ Stamp Advisory Committee                     7/21/00



           Representative, Alabama   Mail delivery problems at a federal prison                              7/21/00


           Chairman, House           Mail delivery problems                                                  8/11/00
           Postal Subcommittee


           Chairman, House           Request to evaluate the Postal Service’s Revenue Assurance Program      8/14/00
           Postal Subcommittee


           Representative, Alabama   Survey of proposed ZIP Code change                                       9/6/00



           FINANCIAL MANAGEMENT
                                                                                                            Response
           Requestor                 Allegation/Concern                                                     Date
           Member, House             Review of advertising and promotional contract needs                    8/15/00
           Postal Subcommittee



           TECHNOLOGY
                                                                                                            Response
           Requestor                 Allegation/Concern                                                     Date
           Representative, Texas     Review of Postal Service website                                        5/22/00



           LABOR MANAGEMENT
                                                                                                            Response
           Requestor                 Allegation/Concern                                                     Date
           Chairman, House           Allegations of unsafe working conditions                                 4/4/00
           Postal Subcommittee


           Representative,           Allegations of managerial harassment                                    4/26/00
           North Carolina


           *Representative,          Allegations of managerial harassment and hostile work environment        5/2/00
           Alabama


           *Representative,          Allegations of managerial harassment and hostile work environment        5/2/00
           Alabama


           *Representative,          Allegations of managerial harassment and hostile work environment        5/2/00
           Alabama

           * All six individual Congressional inquiries concerned related issues and were addressed jointly by the OIG.

PAGE 120   APPENDICES
                                                                                                    Response
Requestor                  Allegation/Concern                                                       Date
*Representative,           Allegations of managerial harassment and hostile work environment          5/2/00
Alabama


*Representative,           Allegations of managerial harassment and hostile work environment          5/2/00
Alabama


*Representative,           Allegations of managerial harassment and hostile work environment          5/2/00
Alabama


Senator, Illinois          Allegations of discrimination and deceit by Postal Service manager         5/3/00


Senator, Alabama           Allegations of managerial harassment and hostile work environment          5/3/00


Chairman, House            Allegations of managerial harassment and intimidation                      5/4/00
Postal Subcommittee


Representative, Maryland   Allegations of managerial harassment and hostile work environment          5/4/00


Chairman, House            Allegations of managerial harassment and poor workplace conditions         5/9/00
Postal Subcommittee


Representative,            Allegations of managerial harassment and mistreatment                      5/9/00
New Jersey


Senator, Massachusetts     Allegations of managerial harassment and poor workplace conditions         5/9/00


Representative, Texas      Allegations the Postal Service owes compensation for voluntary work        5/9/00
                           completed by employees


Chairman, Senate           Allegations of wrongful termination and harassment                         5/9/00
Governmental Affairs
Committee


Senator, Idaho             Allegations of harassment because of limited duty status                  5/17/00


Representative,            Allegations of managerial harassment                                      5/17/00
California


Chairman, House            Employee transferred from a full-time position to a part-time position    5/22/00
Postal Subcommittee


Chairman, House            Allegations of employee and labor management problems                     5/22/00
Postal Subcommittee


Chairman, House            Request for investigation into a suicide of a Postal Service employee     5/22/00
Postal Subcommittee


Chairman, House            Allegations of harassment and intimidation                                5/31/00
Postal Subcommittee


Representative,            Allegations of managerial abuse                                           5/31/00
New Jersey


Representative, Tennessee Allegations of managerial harassment                                       6/21/00


Chairman, Senate           Allegations of managerial harassment                                      6/12/00
Governmental Affairs
Committee




                                                                                                               PAGE 121
                                                                                                             Response
           Requestor                  Allegation/Concern                                                     Date

           Representative,            Allegations of an abusive and hostile work environment                  6/21/00
           Tennessee


           Chairman, House            Allegations of managerial harassment and intimidation                   7/21/00
           Postal Subcommittee


           Representative, Alabama    Assistance with Workers’ Compensation claim                             7/24/00


           Senator, New York          Allegations of violations of mail solicitation laws and regulations     8/31/00


           Representative, New York Allegations of managerial harassment, sexual discrimination,               9/6/00
                                    and retaliation


           Representative, Alabama    Receipt of removal notice because of alleged employee actions            9/6/00



           OVERSIGHT OF INSPECTION SERVICE
                                                                                                             Response
           Requestor                  Allegation/Concern                                                     Date
           Representative,            Allegations of mail delivery delays                                      4/5/00
           New Jersey


           Chairman, House            Designation of Postal Inspectors as auditors or investigators            5/3/00
           Postal Subcommittee


           Senator, New York          Allegation of a stolen money order                                       8/8/00


           Chairman, House            Monitoring investigations of Postal Inspection investigations           8/21/00
           Postal Subcommittee


           Senator, New York          Allegations of mail tampering                                           8/21/00


           Representative,            Allegations of false accusation by a Postal Inspector                    9/6/00
           California


           Senator, New York          Allegations of stolen mail                                              9/15/00


           Representative, Texas      Allegations of management misconduct                                    9/15/00


           Senator, Pennsylvania      Allegations about improper removal of a                                 9/15/00
                                      Postal Inspection Service employee


           Chairman, House            Review of initial investigation of managerial harassment allegations    9/25/00
           Postal Subcommittee



           OTHER SIGNIFICANT ISSUES
                                                                                                             Response
           Requestor                  Allegation/Concern                                                     Date
           Chairman, House            Allegations of management issues with a Postal Service employee          8/2/00
           Postal Subcommittee




PAGE 122   APPENDICES
                    ,




THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
NOTES
US Postage Stamps
ISSUED FROM APRIL 1, 2000 THROUGH SEPTEMBER 30, 2000
PAGE
3    ADOPTION AWARENESS – celebrates the joys of and awareness about
     adoption, which makes a difference in the lives of thousands of children and
     families across America.
12 LIBRARY OF CONGRESS – commemorates the 200th anniversary of the
   nation’s oldest federal cultural institution, using a color photograph of the
   interior dome of the Thomas Jefferson Building
24 STAMPIN’ THE FUTURE – immortalizes the winning designs of four tal-
   ented American children that were turned into postage stamps that illustrate
   their dreams, hopes, and visions of the future.
31 SUMMER SPORTS – celebrates the thrill of watching and participating in
   athletics with the artistic portrayal of the graceful stride of runners’ legs dur-
   ing a race.
34 WILE E. COYOTE AND ROAD RUNNER – honors these classic animated
   characters and represents the first stamp issued through an on-line Internet
   event.
48 SPACE ACHIEVEMENT & EXPLORATION – represents the nation’s first
   hologram, circular, and pentagonal postage stamps in a set of 15 related stamps
   that celebrate space exploration.
56 THE STARS AND STRIPES – pays tribute to our cherished flag through a
   sampling of 20 visually interesting and historically significant flags in U.S.
   history.
66 LOUISE NEVELSON – commemorates the works of one of the most gifted                   ACKNOWLEDGEMENTS
   sculptors of the 20th century with five stamps of wooden boxes painted black,
   white, or gold.                                                                      This report represents the
73 AMERICAN SAMOA – recognizes the 100th anniversary of the historical                  outstanding efforts and
   union between the United States and its territory of American Samoa, a series
   of islands located in the South Pacific.                                             accomplishments of OIG and

74 LEGENDS OF BASEBALL – honors 20 famous individuals known to base-                    Inspection Service staff. The
   ball fans around the world and an American tradition that has universal reach        production of this report would
   and appeal.
                                                                                        not have been possible without
84 CELEBRATE THE CENTURY: 1990s – represents the final installment of
   the series and consists of 15 stamp subjects selected by the public during           the contributions and dedication
   nationwide balloting.                                                                of the many OIG and Inspection
87 YOUTH TEAM SPORTS – encourages everyone to lead a healthy lifestyle,                 Service staff who contributed to
   promote positive social interaction, and provide children with the opportunity
   to learn about teamwork and cooperation.                                             this effort, particularly Wayne

91 DISTINGUISHED SOLDIERS – honors four American war heroes:                            Goleski, Sandra Bruce, Joy
   Lieutenant Audie L. Murphy, General Omar N. Bradley, General John L.                 Thorton, Alonzo Webb, and
   Hines, and Sergeant Alvin C. York.
                                                                                        Susan Le of the OIG, and Tom
92 EDWIN POWELL HUBBLE – honors the efforts of this eminent American
   astronomer with five stamp images captured by the Hubble Space Telescope.            Denneny of the Inspection
                                                                                        Service.
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
    Arlington, VA 22209-2020
          (703) 248-2300
        Fax: (703)248-2291
     Internet: www.uspsoig.gov
